<html>
<title> - ANTI-SEMITISM IN EUROPE</title>
<body><pre>[Senate Hearing 108-370]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-370

                         ANTI-SEMITISM IN EUROPE

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 22, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



92-370              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                    GEORGE ALLEN, Virginia, Chairman

GEORGE V. VOINOVICH, Ohio            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
JOHN E. SUNUNU, New Hampshire        CHRISTOPHER J. DODD, Connecticut
LINCOLN CHAFEE, Rhode Island         JOHN F. KERRY, Massachusetts

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     3
Campbell, Hon. Ben Nighthorse, U.S. Senator from Colorado, 
  statement submitted for the record.............................     6
    Senate Concurrent Resolution 7...............................     7
Corzine, Hon. Jon S., U.S. Senator from New Jersey, prepared 
  statement......................................................    18
Foxman, Mr. Abraham H., national director, Anti-Defamation 
  League, New York, NY...........................................    45
    Prepared statement...........................................    48
Harris, Mr. David A., executive director, The American Jewish 
  Committee, New York, NY........................................    60
    Prepared statement...........................................    64
Levin, Mr. Mark B., executive director, National Conference on 
  Soviet Jewry, Washington, DC...................................    93
    Prepared statement...........................................    95
Levitte, Ambassador Jean-David, French Ambassador to the United 
  States, letter with attached documents related to the European 
  reaction to a statement by Mr. Mahathir, Prime Minister of 
  Malaysia.......................................................   116
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
O'Donnell, Mr. Edward B., Jr., Ambassador-Designate, Special 
  Envoy for Holocaust Issues, U.S. Department of State, 
  Washington, DC.................................................    23
    Prepared statement...........................................    26
    Present state of Holocaust education in European schools.....    31
    ``The Return of Anti-Semitism,'' article by Craig Horowitz, 
      the New York Magazine, December 15, 2003...................    40
Smith, Hon. Christopher H., U.S. Representative from New Jersey 
  (4th), Chairman, Commission on Security and Cooperation in 
  Europe, statement submitted for the record.....................    12
Solemn Proclamation, from the Official Journal of the European 
  Communities....................................................   122
The Fight Against Anti-Semitism In France........................   112
United States Commission on International Religious Freedom, 
  statement by Felice D. Gaer, Vice Chair, submitted for the 
  record.........................................................   115
Voinovich, Hon. George V., U.S. Senator from Ohio, prepared 
  statement......................................................    15

                                 (iii)

  

 
                        ANTI-SEMITISM IN EUROPE

                              ----------                              


                      WEDNESDAY, OCTOBER 22, 2003

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:35 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. George Allen 
(chairman of the subcommittee), presiding.
    Present: Senators Allen, Voinovich, Coleman, Biden, 
Sarbanes, and Corzine.
    Senator Allen. Good afternoon. I'd like to call this 
hearing of the Foreign Relations Committee, Subcommittee on 
European Affairs to order. I'd like to thank all our witnesses 
for appearing before the subcommittee this afternoon.
    The purpose of our hearing today is to examine anti-
Semitism in Europe and the best practices that have been 
implemented to address the current problem and prevent any 
future acts.
    During the last 3 years, there have been documented 
increases in anti-Semitic incidents taking place throughout 
Europe. The desecration of Jewish cemeteries and monuments, 
vandalism of Jewish homes, schools, community centers, fire-
bombing of synagogues, violence against Jewish individuals are 
all troubling signs that many of the countries of Europe are 
not doing enough, possibly, to protect the rights of Jewish 
citizens and also, importantly, educate their populace of the 
importance of religious tolerance and individual rights.
    In 2003, we've seen a number of such incidents throughout 
Europe Specifically in a suburb of Paris, a synagogue was 
desecrated and vandalized with anti-Semitic graffiti. Books 
were scattered on the floors, and torah scrolls were in 
disarray.
    Over 50 graves were vandalized in Kassel, Germany, in 
August of this year. Grave stones in the historic Jewish 
cemetery were overturned, and headstones were toppled.
    In Greece, two swastikas were spray-painted on a Holocaust 
Memorial in February of this year. The desecrated memorial 
honors the tens of thousands of Salonican Jews killed by the 
Nazis.
    In May of 2003, a rabbi in Vienna, Austria, was assaulted 
by two youths while walking home from prayer. The assailants 
shouted anti-Semitic slurs, kicked the rabbi, and struck his 
head with a beer bottle. Thankfully, the two suspects were 
apprehended.
    More recently, in Russia, an object resembling a bomb with 
anti-Semitic slogans attached to it was found in a synagogue. 
Fortunately, the bomb was found to be hoax or a fake, but the 
message was obvious.
    Such examples show that anti-Semitism in Europe is not 
confined to one country or region. Instead, it is a widespread 
problem that leaves many in the Jewish community throughout 
Europe understandably worried and fearful of attack.
    Many point, in all of this, to the ongoing violence in the 
Middle East, particularly the conflict between Israelis and 
Palestinians, as reasons for the growing anti-Semitic violence 
in Europe. Those type of motives are not an excuse for anti-
Semitism, because, in my view, anti-Semitism is wrong. These 
attacks are based on the victims' ethnicity and/or their 
religious beliefs. When a person is attacked, threatened or 
assaulted because of their race, their ethnicity, or their 
religious beliefs, it is my view that government and community 
leaders must immediately and forcefully deplore these actions 
as unacceptable. All forms of hatred must be immediately 
condemned, both vigorously and publicly, to leave absolutely no 
doubt in the minds of the citizens that such actions are wrong 
and will not be tolerated. Failure to act quickly and to make 
these condemnations could be construed by some as condoning 
such behavior, and may lead to additional violent incidents.
    Law enforcement obviously is key in all of this. It's not 
just the statements, but it's the follow up. Following the 
clues, following evidence, finding those who are involved, and 
prosecuting them to the full extent of the law for anti-Semitic 
violence is also absolutely essential. If this is not the 
message, then these hate crimes will, unfortunately, go 
unpunished, and victims will be denied due justice. More 
importantly, the wrong message is sent from the norms of 
civilized society.
    Now, as we explore this issue, I think it's important to 
acknowledge that some efforts have been made in parts of Europe 
to stem the growing number of these incidents. Earlier this 
year, France began an effort through its Education Ministry to 
eliminate anti-Semitism and other types of discrimination in 
its schools. Such initiatives should be applauded, as schools 
are an optimum place to enlighten children and prevent bigoted 
views from carrying forward until adulthood.
    To prosecute those committing anti-Semitic acts, France has 
developed a new unit to investigate these crimes, and has 
enacted legislation to toughen penalties for racist and anti-
Semitic crimes, and encourage local law-enforcement agencies to 
aggressively prosecute these attacks.
    For its part, the EU has begun to develop a Union position 
condemning anti-Semitism and racism, and has enacted measures 
to fight discrimination and religious intolerance. These 
efforts, as well as strong participation at the recent Anti-
Semitism Conference of the Organization for Security and 
Cooperation in Europe, OSCE, these are positive steps that 
ought to be commended and applauded.
    Now, through this hearing, I'm hopeful that we'll be able 
to uncover some of the best practices that have been 
implemented by both Europe and the United States to combat 
anti-Semitism in this country, as well as in Europe. It is 
important to realize that the United States is not exempt from 
this problem and we must continue to be vigilant in educating 
our law-enforcement officials and prosecuting those who commit 
anti-Semitic acts in our own States.
    Through collaboration with our European allies and sharing 
effective programs and initiatives, I believe we can stem the 
growing tide of anti-Semitism and better educate people on the 
importance of religious and ethnic tolerance.
    With that, I'll conclude my remarks, and I know others will 
want to make some opening remarks. I know Chairman Lugar will 
submit a statement for the record.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    I am pleased that the Subcommittee on European Affairs is holding a 
hearing on ``Anti-Semitism in Europe.'' I want to congratulate Senator 
Allen, the chairman of the European Affairs Subcommittee, for his 
diligence in constructing this hearing and his commitment to the topic, 
and Senator Voinovich for his contributions to the hearing and his 
ongoing work to promote international religious tolerance.
    It is important that the United States oppose anti-Semitism 
wherever it is found and work in cooperation with good friends to 
overcome this problem. Evidence of anti-Semitism in Europe has 
increased alarmingly in recent years. According to Tel Aviv 
University's 2002-2003 annual report on anti-Semitism worldwide, more 
than 50 percent of violent anti-Semitic incidents reported in 2002 
occurred in Western Europe. France, the United Kingdom, and Belgium had 
the highest number of reported incidents.
    I am hopeful that European governments are beginning to grapple 
more seriously with the problem of anti-Semitism. I was pleased last 
February when the French education ministry launched a campaign to 
combat anti-Semitism and other types of racism in schools. The UK, 
Germany and Sweden reportedly also have initiated efforts to combat 
racism and anti-Semitism.
    Last June, former New York City Mayor Rudolph W. Giuliani led the 
American delegation to the Organization for Security and Cooperation in 
Europe's first transatlantic conference on anti-Semitism. The 
conference was an important sign that the U.S. and Europe recognize 
that a serious and coordinated response to anti-Semitism is required. 
Among other proposals made at the conference, the U.S. delegation 
recommended establishing a more uniform reporting system of anti-
Semitic events worldwide. I support the adoption of this idea.
    This hearing will provide Members of Congress with insight into the 
administration's policy on this issue. It also brings together a 
distinguished panel of witnesses from the private sector that will 
expand our insights into how we can address anti-Semitism. I thank each 
of our witnesses for being with us today, and I look forward to their 
testimony.

    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Thank you, Mr. Chairman, and thank you for holding this important 
hearing.
    I wish we didn't have to hold this hearing. But I'm not naive. 
Anti-Semitism has been a disgusting aspect of European--and world--
history for nearly two millennia.
    This committee has held many hearings on this distasteful topic. In 
the summer of 1994, for example, when I was Chairman of the 
Subcommittee on European Affairs, we held a series of three hearings on 
right-wing movements in Europe--which differed from each other in many 
respects, but had as a common thread the old, virulent anti-Semitism.
    It goes without saying that one can oppose certain policies of the 
State of Israel without being anti-Semitic. On the other hand, anti-
Semites regularly try to conflate the two issues and, moreover, often 
distort Israeli actions in the process.
    In April 2002 we got a vivid picture of this tactic. In response to 
the first wave of suicide attacks against civilians in late March and 
early April of that year, the Israeli army went after terrorists in the 
refugee camp in Jenin.
    The European news media, with very few exceptions, bought the line 
of the Palestinian terror lobby hook, line, and sinker. Massacres of 
seven or eight hundred civilians were proclaimed as fact.
    In response to a petition by Arab Members of the Knesset, the 
Israeli Government allowed international observers into the camp. They 
found that a total of fifty-two people had died, thirty-three of them 
armed terrorists.
    Of course the anti-Semites in Europe didn't want to be bothered by 
the facts. A really sick stream of vituperation spewed forth all over 
the continent--with over-the-top language that went far beyond 
criticism of Israeli actions, which themselves, as I said, had been 
described completely incorrectly. These statements were blatantly, 
unashamedly anti-Semitic, and many of them were made by prominent 
Europeans.
    I cited a few of them in a floor statement I gave in June 2002 in 
support of a resolution that I co-sponsored, condemning the growing 
intolerance and acts of persecution against Jews in many European 
countries.
    The French Ambassador to the U.K. made a demeaning, scatological 
reference to the State of Israel, and the only ``scandal'' that 
resulted was criticism of the supposed ``indiscretion'' of other guests 
for having leaked the story to the press!
    Then there was the wife of the President of the European Central 
Bank who after flying the PLO flag from her house in Amsterdam 
complained that ``Israel is being kept going by those rich Jews in 
America.''
    A similar example of objectivity came from Oslo where a member of 
the Norwegian Nobel Committee declared that she would like to rescind 
Shimon Peres's Nobel Peace Prize. Needless to say, she didn't choose to 
mention, let alone criticize, Yasser Arafat or the suicide bombers whom 
he aids and abets.
    Even Germany's Free Democrats, a party with a proud history of 
liberalism and tolerance, was shamed by one of its top officials who 
explained that the Deputy Director of the Central Council of Jews in 
Germany had brought on anti-Semitism himself by his supposedly 
aggressive behavior as a television talk-show host!
    One must add, sadly, that this troubled individual later committed 
suicide, and certainly he was not typical in any way of the Free 
Democratic Party.
    And, of course, none of the other three statements reflected the 
policies of the French, Dutch, or Norwegian governments. But such 
utterances by prominent individuals do matter greatly in setting the 
tone of public discussion.
    Well, Mr. Chairman, in the year since the United States Senate 
passed the resolution in question, anti-Semitic acts--both rhetorical 
ones and physically violent ones--have continued.
    Students in a Jewish Day School in Paris were assaulted by a gang 
of North African teenagers. In another incident, a rabbi, who is the 
leader of a liberal Jewish movement was knifed on a Paris street and 
his car set afire.
    A Vienna rabbi was assaulted on his way home from prayer.
    A Berlin man wearing a Star of David was attacked on a bus by a 
group of teenagers who kicked him in the face, spat on him, and shouted 
anti-Semitic slurs.
    Jewish cemeteries have been desecrated in London, Rome, and other 
European cities.
    Just last week a new Jewish monument in Belarus was defaced.
    Yes, several European governments have responded with declarations 
against anti-Semitism, and a few, like France, have stiffened laws 
against anti-Semitic and other such violence.
    EU member-states are considering a proposal to harmonize their laws 
against racism.
    But many observers have finally dared to discuss what has long been 
a ``dirty, little secret''--namely that the threat of violence from 
millions of impoverished, often unemployed Muslim men in Western Europe 
has, at the very least, induced governments to temper their reactions 
to anti-Semitism. In truth, Europe's relations with the Muslim world 
increasingly affect its public diplomacy.
    How else can one explain the absolutely scandalous behavior of the 
European Union last Friday in Brussels at the meeting of the European 
Council, the heads of EU governments?
    On the previous day at a summit meeting of the Organization of the 
Islamic Conference the Prime Minister of Malaysia, Mahathir Mohamad, 
had treated the world to one of his periodic ravings, this time about 
Jews.
    Mahathir's comment on the most heinous crime in history, the 
Holocaust, was the following: ``The Europeans killed six million Jews 
out of twelve million, but today the Jews rule the world by proxy.''
    He went on to enlighten the Conference about Western intellectual 
history, explaining that the Jews ``invented socialism, communism, 
human rights and democracy so that persecuting them would appear to be 
wrong, so that they can enjoy equal rights with others.''
    The United States immediately and publicly condemned Mr. Mahathir's 
ignorant bigotry. We would expect no less from our government.
    The European Union reportedly was asked to include a similar 
condemnation of Mahathir's speech in the lengthy ``Presidency 
Conclusions'' ending its own summit meeting last Friday. It chose not 
to.
    The ``Presidency Conclusions'' offered a perfect opportunity for a 
condemnation, since it devoted an entire section to ``External 
Relations.''
    This section included declarations on the following international 
topics:

  <bullet> the WTO,

  <bullet> a so-called ``New Neighborhood Initiative,''

  <bullet> the Euro-Mediterranean Partnership,

  <bullet> the ``Northern Dimension,''

  <bullet> Moldova,

  <bullet> Iraq,

  <bullet> Iran,

  <bullet> Kosovo,

  <bullet> Bolivia,

  <bullet> Guatemala,

  <bullet> the Great Lakes Region of Africa, and even sections on

  <bullet> the Middle East, and

  <bullet> relations with the Arab world.

    Mr. Chairman, it is incomprehensible to me that the EU would 
publicly comment on these topics but not on the vile, anti-Semitic 
speech in Malaysia.
    French President Chirac reportedly said that it was not the EU's 
place to issue a condemnation. There's real moral leadership!
    Mr. Chirac apparently wrote a private letter to the Malaysian Prime 
Minister criticizing his remarks. I doubt that many of the one billion 
Muslims in the world had access to this letter.
    Once again, the EU had a chance to show its true moral colors, and 
it failed the test miserably. How could it not forthrightly speak out 
against such repulsive nonsense, especially given the weighty 
historical burden of European anti-Semitism?
    Mr. Chairman, I'm not sure, but I think it exemplifies the same 
lack of a moral compass that the EU showed when it voted for Libya to 
chair the UN's Commission on Human Rights, on the pathetic grounds that 
the chairmanship is rotational by geographic area.
    Heaven forbid that Brussels should offend the Africa Group by 
rejecting its candidate!
    Heaven forbid that the EU should offend the Organization of the 
Islamic Conference by publicly repudiating Mahathir's hateful garbage!
    This reluctance to speak out is not only morally indefensible; it 
is also self-defeating.
    Anti-Semitism is to democracy as the dead canary in the cage is to 
coal miners: a warning of impending doom. Miners can't compromise with 
lethal coal gas, and democracies can't compromise with purveyors of 
anti-Semitism.
    Mr. Chairman, I am eager to hear the testimony of our expert 
witnesses today.
    I know Mr. Harris, Mr. Foxman, and Mr. Levin personally--and I have 
the highest regard for their objectivity. I met Mr. O'Donnell briefly 
when he was our Consul General in Frankfurt and I was enroute to the 
Balkans on one of my frequent trips there.
    I hope these gentlemen can disabuse me of my continuing impression 
of European half-heartedness when it comes to battling anti-Semitism.
    Thank you again, Mr. Chairman.

    Senator Allen. The practice of this committee usually is 
that the Chair and the ranking member give statements. In this 
case, though, there are Senators who are so interested in this 
subject that they want to make statements. I will put into the 
record the statements from Senator Ben Nighthorse Campbell and 
Congressman Christopher Smith.
    [The prepared statement of Senator Campbell follows:]

 Prepared Statement of Senator Ben Nighthorse Campbell, Co-Chairman of 
               the Commission on Security and Cooperation

               THE FIGHT AGAINST ANTI-SEMITISM CONTINUES

    Mr. Chairman, as Co-Chairman of the Commission on Security and 
Cooperation, and the sponsor of Senate Concurrent Resolution 7, I 
welcome this opportunity to address anti-Semitism in the OSCE region.
    Kristallnacht occurred on the night of November 9, 1938, during 
which Nazis systematically looted stores owned by Jews and set fire to 
synagogues across Germany. More than 90 Jews were killed and many 
thousands more arrested. This ``Night of Broken Glass'' was intended to 
be a signal to German and Austrian Jews to leave as soon as possible. 
It was a prelude to the horrors to come during World War II, resulting 
in the Holocaust.
    With the anniversary of Kristallnacht approaching, today's hearing 
on anti-Semitism in Europe is timely, as there is still much to do in 
the fight against anti-Semitism. While government sponsored anti-
Semitism is almost unheard of within the participating States of the 
Organization for Security and Cooperation in Europe (OSCE), inaction 
and silence by officials and elected leaders can give the impression of 
tacit government approval. For example, anti-Semitic incidents have 
been on the increase in Belarus; just recently, one of only two 
synagogues in the Belarusian capital was set afire for the fifth time 
over the past two years. It is also telling that textbooks in Belarus 
include no references to the significant Jewish population from that 
country that perished during the course of World War II. The Government 
of Belarus should do more to ensure protection of the Jewish community 
and its institutions.
    Anti-Semitic graffiti is also visible in Greece, such as on the 
Corinth-Tripoli highway, and for the third time in 18 months, the 
Holocaust memorial in the Jewish cemetery in Ioannina was desecrated 
with slogans including ``Out with the Jews'' and ``Death to Jews.'' I 
urge the Government of Greece to take measures to address 
manifestations on anti-Semitism and speak out publicly when such 
incidents occur and pursue those responsible for such acts.
    Mr. Chairman, even when governments are proactive, reports of 
uncoordinated incidents continue to arise across the OSCE region, from 
Russia, France, Germany, to the United States. For example, vandals 
recently desecrated a Jewish cemetery and a memorial to concentration 
camp victims in two separate incidents in Germany. In one recent 
incident, 42 headstones in a Jewish cemetery in central Germany were 
spray painted with graffiti including ``Heil Hitler,'' ``Sieg Heil'' 
and ``Hass,'' the German word for hate. Germany has some of the 
toughest laws against anti-Semitic incidents in the world, yet these 
deeds still occurred. Our fight against anti-Semitism is obviously far 
from over.
    On May 22, the United States Senate unanimously passed Senate 
Concurrent Resolution 7, a bipartisan effort to raise our collective 
voices in the face of growing anti-Semitism and related violence. While 
the tide of anti-Semitic violence may be receding, manifestations of 
anti-Semitism require continued action. Mr. Chairman, together with 
Helsinki Commission Chairman Rep. Christopher Smith, I have worked and 
will continue to work to monitor related developments in the OSCE 
region and to urge political leaders to address the anti-Semitism at 
home and abroad. As part of that effort, I urge the State Department to 
work to ensure that the upcoming OSCE Ministerial Meeting endorses the 
German offer to host an OSCE follow-up conference in anti-Semitism, in 
Berlin next April. Mr. Chairman, I ask that the full text of Senate 
Concurrent Resolution 7 be included in the hearing record.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [The prepared statement of Representative Smith follows:]

 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Mr. Chairman, I am very pleased that the Senate Foreign Relations 
Committee has convened this hearing to address this reoccurring problem 
of anti-Semitism in Europe. This issue is of longstanding concern to 
both Houses of Congress, most recently demonstrated by a concurrent 
resolution condemning anti-Semitic violence, introduced respectively by 
Commission Co-Chairman Senator Ben Nighthorse Campbell and myself, 
which passed the House and Senate this past summer.
    Unfortunately, anti-Semitic incidents continue to occur in both 
Europe and the United States. While there is a dearth of government 
statistics, according to the good research of the Anti-Defamation 
League, anti-Semitic incidents in the United States increased by 8 
percent in 2002 over the previous year and incidents of anti-Semitism 
on U.S. campuses rose 24 percent. The ADL also conducted a survey which 
showed that in five European countries, 21 percent of the people 
surveyed had strongly anti-Semitic perspectives or views. The survey 
found that 17 percent of Americans held strong anti-Semitic views, up 
five percent from just five years ago.
    Against this backdrop, we must redouble our efforts, both at home 
and abroad, to confront and combat anti-Semitic hate. At the 
international level, I just returned from leading a congressional 
delegation to Warsaw for the annual human rights meeting of the 
Organization for Security and Cooperation in Europe (OSCE). Serving as 
Vice Chairman of the U.S. Delegation and delivering the U.S. statement 
on the Prevention of Anti-Semitism, I made a series of recommendations 
on how OSCE States can fight this reoccurring phenomenon.
    For example, considering that not all governments specifically 
track anti-Semitic acts or have specific legislation to equip law 
enforcement officials, all participating States were encouraged to 
inform OSCE's Office of Democratic Institutions and Human Rights 
(ODIHR) of what legislation they have in place to penalize and punish 
the perpetrators of anti-Semitic violence. Where statistics are 
available, participating States should also share that information with 
ODIHR and other States, and should commit to strengthening their hate-
crime statutes. The U.S. Delegation also recommended that all 
governments ensure their education systems accurately teach about the 
Holocaust and work to counter anti-Semitic stereotypes and attitudes. 
Lastly, participating States were urged to join, if they have not 
already done so, the Task Force for International Co-operation on 
Holocaust Education, Remembrance and Research, and to implement the 
provisions of the Declaration of the Stockholm International Forum on 
the Holocaust. I hope these recommendations will be adopted at the OSCE 
Ministerial meeting in December.
    The United States has specifically endorsed a German offer to host 
an OSCE conference on anti-Semitism in spring 2004. In the Germans, we 
have found good partners in the fight against this scourge. As was 
eloquently and passionately declared in Warsaw by Prof. Gert 
Weisskirchen, a distinguished member of the German Bundestag and a 
Vice-President of the OSCE Parliamentary Assembly, Germany has 
experienced first hand the evil of anti-Semitism, and it must not be 
ignored. The German offer originated at the OSCE Conference on anti-
Semitism held this past June in Vienna. Along with Mayor Rudy Giuliani, 
I co-led the U.S. delegation to the Vienna conference. It is essential 
that we maintain and build upon the international momentum created by 
that conference. Through such tireless efforts, other OSCE 
participating States have stated their support for the Berlin 
Conference, or at least removed their stated objections to it being 
convened.
    I should also highlight the good work of my colleagues who serve 
with me on the Helsinki Commission--Co-Chairman Senator Ben Nighthorse 
Campbell and Ranking Member Rep. Ben Cardin, in particular--in voicing 
concern about anti-Semitism and other human rights violations and 
working for real change. Our efforts to address the violent acts of 
anti-Semitism began in earnest in May 2002, when the Commission held a 
hearing to raise specific attention to the growing problem of anti-
Semitic violence in the OSCE region. From that hearing a number of 
initiatives emerged, the details of which can be found on the 
Commission's Web site at www.csce.gov.
    At the OSCE Parliamentary Assembly Annual Session in Berlin in July 
2002, I introduced and successfully secured unanimous approval of a 
resolution denouncing anti-Semitism and calling for all OSCE States to 
do more. ADL's Abe Foxman joined us in Berlin and made a passionate 
presentation at a special forum co-hosted by the U.S. and German 
parliamentary delegations. Building upon these initiatives at the OSCE 
PA, I introduced a second resolution on anti-Semitism at the Assembly's 
2003 meeting in Rotterdam, which was unanimously adopted.
    However, much more needs to be done if we are to realize a future 
free of anti-Semitic hate and acts. While some may say this endeavor 
can never be accomplished, many also said the Soviet Union would never 
fall. Together, if we stay faithful to the course, we will hopefully 
see an end to this age-old plague.
    Mr. Chairman, for my part, I remain committed to building an 
international coalition of parliamentary partners committed to 
confronting and combating anti-Semitism in Europe.

    Senator Allen. And with that, we will proceed in the order 
in which folks appeared, unless Senator Biden shows up. I'd 
like to have Senator Voinovich and Senator Corzine--Senator 
Biden has arrived----
    Senator Biden. I would yield to whomever has been waiting.
    Senator Allen. I'm going to go to Senator Voinovich, then 
you or your designee, however you want to do that.
    At any rate, I want to, again, thank all our witnesses, all 
the interest here in this hearing, which is a very important 
one for individual and human rights. And one person who, for 
many, many years has been a strong advocate of individual 
rights, making sure that people, regardless of their religion 
or ethnicity, have equal opportunities to succeed is Senator 
Voinovich, first as Governor, and now as a U.S. Senator. 
Senator Voinovich, if you have an opening statement, we'd like 
to hear it.
    Senator Voinovich. Thank you very much.
    I'd like to thank Senator Lugar and Senator Allen for 
agreeing to convene this hearing today to examine the alarming 
rise of anti-Semitism in Europe and, quite frankly, the world. 
The issue continues to be of great concern to me, and I believe 
it is not only appropriate, but absolutely essential that we do 
all that we can to highlight this serious problem.
    Though some of my colleagues may not be aware, I've had the 
opportunity to visit the State of Israel seven times as Mayor 
of Cleveland, Governor of Ohio, and as a Member of the U.S. 
Senate. I will always remember visiting Yad Vashem, in 
Jerusalem, in 1980, and again on several other visits, and the 
Diaspora Museum in Tel Aviv, in 1982. That experience truly 
brought home to me the horrors of the holocaust and the role 
that anti-Semitism played in leading to the holocaust.
    Frankly, I never thought I would see it again in my 
lifetime. Unfortunately, anti-Semitism's deadly, ugly head is 
rising again, and we're determined to do everything that we can 
to stop it.
    We are reminded of the urgency and timeliness of this 
discussion following the unsettling remarks made last Thursday 
by the outgoing Prime Minister of Malaysia, Mohamad Mahathir. 
In a speech to the organization of the Islamic Conference, the 
outgoing Prime Minister said, quote, ``1.3 billion Muslims 
cannot be defeated by a few million Jews. There must be a 
way.'' Further, he said, ``The Jews rule this world by proxy,'' 
end of quote.
    Such statements do nothing to promote the virtues of 
tolerance and understanding as we look to achieve a lasting 
peace in the Middle East, but only serve to further hatred and 
mistrust. The United States and our allies in Europe and other 
parts of the world must strongly condemn such remarks.
    As our witnesses will testify today, these remarks were not 
made in a vacuum. There is a very real and growing problem, and 
it is imperative that we take action to stop this disturbing 
trend.
    As many of my colleagues are aware, we have seen growing 
reports of anti-Semitic incidents in countries that have 
traditionally been among Europe's strong democracies, including 
France and Germany. These reports--and Senator Allen has done a 
pretty good job of characterizing what's going on--are very 
troubling to me, and it's imperative that we do all that we can 
to take action to combat this problem, both at home and 
overseas.
    In June, former New York City Mayor Giuliani led the U.S. 
delegation to the first conference of the Organization of 
Security and Cooperation in Europe, the OSCE, dedicated solely 
to the issue of anti-Semitism. The conference took place in 
Vienna, Austria, during the period of June 19 and 20, bringing 
together parliamentarians, officials, and private citizens from 
all 55 OSCE participating states.
    As a member of the Helsinki Commission during the 107th 
Congress, I strongly encouraged the State Department to make 
this conference a priority of the U.S. Government. Last 
October, many of my colleagues joined me in a letter to 
Secretary of State Colin Powell, urging him to call on the OSCE 
to schedule this meeting. With the support of Secretary Powell, 
Under Secretary of State Marc Grossman, and our Ambassador to 
the OSCE, Stephan Minikes, I was very pleased that the current 
chair in office of the OSCE did, in fact, agree to put this 
meeting on the calendar. It is an important step, I believe, in 
the right direction.
    Efforts to highlight this alarming trend began in earnest 
last year. In May of 2002, the Helsinki Commission conducted a 
hearing to examine reports of increased anti-Semitism. During 
that hearing, I called on the OSCE to conduct a separate 
session on anti-Semitism during the annual meeting of the OSCE 
parliamentary assembly in Berlin, in July of 2002. I was 
pleased that they did this--in fact, it did take place. 
Delegates to the meeting also unanimously passed a resolution 
calling attention to the danger of anti-Semitism. The 
conference held last June in Vienna was a product of much work 
done during the past year.
    As we discuss this issue, I could not agree more with the 
statement made by Mayor Giuliani just before he left for the 
Vienna Conference, in which he remarked, ``The conference 
represents a critical step for Europeans who have too 
frequently dismissed anti-Semitic violence as routine assaults 
and vandalism. Anti-Semitism is anything but routine. When 
people attack Jews, vandalize their graves, characterize them 
in inhuman ways, and make salacious statements in parliaments 
or to the press, they are attacking the defining values of our 
societies and our international institutions.''
    While we are headed down the right path, I think it's 
critical that we take action to followup on that successful 
beginning found at the conference in Vienna. OSCE participating 
states began to discuss recommendations for action at the Human 
Dimension implementation meetings in Warsaw, Poland, last week. 
Additionally, a followup conference dedicated to the subject of 
anti-Semitism has been proposed to take place in Berlin in 
April.
    I believe that we should not only encourage this meeting, 
but rather we must insist upon it. I'm hopeful that the United 
States will work with the OSCE to set a date for this important 
meeting now. Too often there is lots of talk, but no action. We 
must establish a commitment to action that can be monitored.
    As Governor, I used to say that if you can't measure it, 
then it's not worth a darn, and I am hopeful that we will be 
able to really see sound progress in this area.
    In July, I wrote to those individuals who joined Mayor 
Giuliani as members of the U.S. delegation to the Vienna 
Conference, including Abe Foxman and Mark Levin, who are with 
us today, asking them for recommendations for action, things 
that can be done to encourage tangible steps rather than just 
dialog. I am hopeful that they will share some of their 
thoughts with us today. Specifically, I'm interested in their 
ideas in how action by OSCE participating states can be 
monitored and assessed and how we might recognize those 
countries that have made progress, and call on others to 
redouble their efforts in this regard. I understand that this 
is going to take careful planning and coordination. It will 
also involve adequate resources in order to get the job done.
    In order to further encourage U.S. attention to this issue, 
during the Senate consideration of the State Department 
Authorization Act for Fiscal Year 2004, I introduced an 
amendment that would require the State Department to include in 
its annual report on international religious freedom a section 
devoted to the subject of anti-Semitism. I was pleased the 
Senate agreed to this measure on the 10th of July. This 
amendment aims to ensure that the U.S. Government pays close 
attention to the issue of anti-Semitism internationally, with 
the hope it will encourage our friends, allies, and partners 
abroad to do the same thing.
    As we continue to examine action that the United States can 
take in order to combat anti-Semitism abroad, I would like to 
join Senator Allen in welcoming our distinguished panel of 
witnesses today.
    Thank you, Mr. Chairman, for this opportunity to make this 
opening statement, and the remainder of my remarks I'd like to 
have entered into the record.
    Senator Allen. They will be, and thank you for your very 
strong statement and leadership.
    [The prepared statement of Senator Voinovich follows:]

           Prepared Statement of Senator George V. Voinovich

    I would like to thank Senator Lugar and Senator Allen for agreeing 
to convene this hearing today to examine the alarming rise of anti-
Semitism in Europe and, quite frankly, the world. This issue continues 
to be of great concern to me, and I believe it is not only appropriate 
but absolutely essential that we do all that we can to highlight this 
serious problem.
    Though some of my colleagues might not be aware, I have had the 
opportunity to visit the State of Israel seven times, as Mayor of 
Cleveland, Governor of Ohio, and a member of the Senate. I will always 
remember visiting Yad Vashem in Jerusalem in 1980, and again on several 
other visits, and the Diaspora Museum in Tel Aviv in 1982. That 
experience truly brought home to me the horrors of the Holocaust, and 
the role that anti-Semitism played in leading to the Holocaust. I never 
thought that I could see it again in my lifetime. I vowed that I would 
do everything in my power to make sure that it would never happen 
again. Unfortunately, anti-Semitism's deadly, ugly head is rising 
again, and I am determined to do everything that I can to stop it.
    We are reminded of the urgency and timeliness of this discussion 
following the unsettling remarks made last Thursday by the outgoing 
Prime Minister of Malaysia [Mohamad Mahathir]. In a speech to the 
Organization of the Islamic Conference, the outgoing prime minister 
said that, ``1.3 billion Muslims cannot be defeated by a few million 
Jews. There must be a way.'' Further, he said, ``the Jews rule this 
world by proxy.''
    Such statements do nothing to promote the virtues of tolerance and 
understanding as we look to achieve a lasting peace in the Middle East, 
but only serve to further hatred and mistrust. The United States and 
our allies in Europe and other parts of the world must strongly condemn 
such remarks.
    As our witnesses will testify today, these remarks were not made in 
a vacuum. There is a very real and growing problem, and it is 
imperative that we take action to stop this disturbing trend dead in 
its tracks.
    As many of my colleagues are aware, we have seen growing reports of 
anti-Semitic incidents in countries that have traditionally been among 
Europe's strongest democracies, including France and Germany. These 
reports are very troubling to me, and it is imperative that we do all 
that we can to take action to combat this problem, both at home and 
overseas.
    In June, former New York City Mayor Rudy Giuliani led the U.S. 
delegation to the first conference of the Organization for Security and 
Cooperation in Europe (OSCE) dedicated solely to the issue of anti-
Semitism. The conference took place in Vienna, Austria during the 
period of June 19-20, 2003, bringing together parliamentarians, 
officials and private citizens from all 55 OSCE participating states.
    As a member of the Helsinki Commission during the 107th Congress, I 
strongly encouraged the State Department to make this conference a 
priority of the U.S. Government. Last October, a number of my 
colleagues joined me in a letter to Secretary of State Colin Powell 
urging him to call on the OSCE to schedule this meeting. With the 
support of Secretary Powell, Under Secretary of State Marc Grossman and 
our Ambassador to the OSCE, Stephan Minikes, I was very pleased that 
the chair-in-office of the OSCE did in fact agree to put this meeting 
on the calendar. It is an important step in the right direction.
    Efforts to highlight this alarming trend began in earnest last 
year. In May 2002, the Helsinki Commission conducted a hearing to 
examine reports of increased anti-Semitism. During that hearing, I 
called on the OSCE to conduct a separate session on anti-Semitism 
during the annual meeting of the OSCE Parliamentary Assembly in Berlin 
in July 2002. I was pleased that this did, in fact, take place. 
Delegates to the meeting also unanimously passed a resolution calling 
attention to the danger of anti-Semitism, which I cosponsored. The 
conference held last June in Vienna was a product of much of the work 
done during the past year.
    As we discuss this issue, I could not agree more with a statement 
made by Mayor Giuliani just before he left for the Vienna Conference, 
in which he remarked, ``The conference represents a critical first step 
for Europeans, who have too frequently dismissed anti-Semitic violence 
as routine assaults and vandalism. Anti-Semitism is anything but 
routine. When people attack Jews, vandalize their graves, characterize 
them in inhumane ways, and make salacious statements in parliaments or 
to the press, they are attacking the defining values of our societies 
and our international institutions.''
    While we are headed down the right path, it is critical that we 
take action to follow up on the successful beginning found at the 
conference in Vienna. OSCE participating states began to discuss 
recommendations for action at the Human Dimension Implementation 
Meetings in Warsaw, Poland last week. Additionally, a follow-up 
conference dedicated to the subject of anti-Semitism has been proposed 
to take place in Berlin next April. I believe that we should not only 
encourage this meeting; rather, we must insist upon it. I am hopeful 
that the United States will work with the OSCE to set a date for this 
important meeting now. Too often, there is lots of talk, but no action. 
We must establish a commitment to action that can be monitored. As 
Governor, I used to say that if it cannot be measured, then it's not 
worth a darn, and I am hopeful that we will be able to really see some 
progress in this area.
    In July, I wrote to those individuals who joined Mayor Giuliani as 
members of the U.S. delegation to the Vienna Conference, including Abe 
Foxman and Mark Levin, who are with us this afternoon, asking them for 
recommendations for action--things that can be done to encourage 
tangible steps, rather than just dialog. I am hopeful that they will 
share some of their thoughts with us today. Specifically, I am 
interested in their ideas on how action by OSCE participating states 
can be monitored and assessed, and how we might recognize those 
countries that have made progress and call on others to redouble their 
efforts in this regard. I understand that this will take careful 
planning and coordination. It will also involve adequate resources in 
order to get the job done.
    In order to further encourage U.S. attention to this issue, during 
Senate consideration of the State Department Authorization Act for 
Fiscal Year 2004, I introduced an amendment that would require the 
State Department to include in its annual report on International 
Religious Freedom a section devoted to the subject of anti-Semitism. I 
was pleased that the Senate agreed to this measure on July 10, 2003.
    This amendment aims to ensure that the United States government 
pays close attention to the issue of anti-Semitism internationally, 
with the hope that it will encourage our friends, allies and partners 
abroad to do the same.
    As we continue to examine action that the United States can take in 
order to combat anti-Semitism abroad, I would like to join Senator 
Allen in welcoming two distinguished panels of witnesses who will 
testify this afternoon: First, Ed O'Donnell, who succeeds Ambassador 
Randy Bell as Special Envoy for Holocaust Issues at the U.S. Department 
of State.
    I look forward to his testimony regarding the efforts of the United 
States Government to combat anti-Semitism abroad. As I have said 
before, I believe that we need a strategic plan with regard to our 
efforts to tackle this problem, and I am hopeful that he will provide 
some insight with regard to the State Department's agenda on this 
critical issue.
    Our second panel includes three distinguished witnesses who are 
actively engaged in efforts to combat anti-Semitism:

  <bullet> Abraham Foxman, who serves as National Director of the Anti-
        Defamation League (ADL). Abe has been a leader in efforts to 
        promote tolerance and awareness of the perils of anti-Semitism. 
        He testified at an OSCE meeting in Berlin in July 2002, with 
        regard to this issue, and joined Mayor Giuliani at the Vienna 
        Conference this June. This month, he has released a book on the 
        subject [entitled, ``Never Again?: The Threat of the New Anti-
        Semitism''];

  <bullet> David Harris, who is Executive Director of the American 
        Jewish Committee. The American Jewish Committee has also been 
        actively engaged on this issue, and I am glad that David is 
        able to join us; and

  <bullet> Mark Levin, who serves as Executive Director of the National 
        Conference on Soviet Jewry (NCSJ). I have had the opportunity 
        to work with Mark on this issue extensively during the last 
        year. Mark testified before the Helsinki Commission on this 
        subject in May 2002, and he also served as a member of the U.S. 
        delegation to the Vienna Conference in June.

    I sincerely appreciate your time and willingness to be here today, 
and I look forward to your testimony.
    Thank you, Mr. Chairman.

    Senator Allen. Before I turn it over, I should have said, 
the other testimony that will be put in the record is that of 
Congressman Christopher Smith, will be included in the record.
    With that, I'd now like to turn it over--he is deferring to 
you, the Senator from New Jersey, Senator Corzine.
    Senator Corzine. Thank you, Senator Allen. And thank you, 
Ranking Member Biden. It's hard to be deferred to by the senior 
Senator from Delaware. He is such an important voice for reason 
and responsibility in our foreign affairs. I feel like stepping 
aside.
    I have a formal presentation I will put in the record, but 
I would like to make some comments that are suggestive of what 
I have put in a formal context.
    I appreciate very much your holding this hearing. This is 
an issue that should be near to each of us, and it is a 
requirement that the United States exercise extraordinary 
leadership, I think, in pushing back against the anti-Semitism 
we see in Europe and around the globe. I think it is our most 
moral responsibility to do so. And I actually think that the 
tone that we set as a nation is one that, as the sole 
superpower, really does set the tone globally, and this sense 
of intolerance that's reflected in the litany of circumstances 
that you, Mr. Chairman, identified happening in Europe, 
intolerable, and the rise of anti-Semitic incidence is truly a 
tragedy, particularly in light of the horrific experiences of 
the last century that we've all dealt with. And I think the 
historical lessons should be obvious, and it is only right that 
we both speak out, but, as Senator Voinovich says, we need to 
look for real practical actions, as opposed to just talk.
    In that vein, I think the recent comments by the Prime 
Minister of Malaysia, departing Prime Minister, bespeak of the 
seriousness and the breadth with which anti-Semitic views are 
held in this world, and it is absolutely imperative that we 
speak to these issues, both quickly and forcefully. Frankly, 
I'm not clear why one would even meet with Prime Minister 
Mahathir after such ugly and, I think, horrific reminders of 
what anti-Semitism can be in this world.
    I'm proud, along with a bipartisan group of Senators, to 
have introduced--last Friday, actually--actually, Thursday 
night--Friday night, excuse me--Senate Resolution 247 
introduced by my senior colleague from New Jersey, Frank 
Lautenberg, condemning Mr. Mahathir's statement. Without direct 
and, I think, forceful responses, I think we are not pushing 
back from the kind of hatred and intolerance that is reflected 
here. And it's certainly what we are trying to address in a 
European context in today's hearing, but this is a global 
problem. This is not just a European problem. It is one that 
deserves the utmost focus and attention, and I appreciate your 
holding this hearing. I hope that we do more than hear facts, 
that we move forward. And I thank all of the witnesses for 
being here today.
    Thank you.
    [The prepared statement of Senator Corzine follows:]

              Prepared Statement of Senator Jon S. Corzine

    Thank you Mr. Chairman for having called this meeting of your 
subcommittee on the vital topic of anti-Semitism in Europe, and for 
your courtesy in affording me this opportunity.
    There is no international issue on which decisive and sustained 
U.S. leadership is more necessary than that of anti-Semitism, in Europe 
and throughout the world. Your work on keeping this very fundamental 
moral and policy concern before the eyes of the world community has 
never been more appreciated or more important than it is now, and I 
want to thank you for your leadership in this regard.
    The tone and example the United States sets in responding to anti-
Semitism is vital. In responding to anti-Semitism and to every other 
form of ethnic, racial, religious or national hatred or intolerance, 
the U.S. must setting for itself a high standard of tolerance, mutual 
respect and civil discourse. The world community's aspiring to such a 
standard, of civilized discourse, will go far in enabling the world 
community to resolve its disputes and disagreements though discourse 
rather than through force or intimidation.
    With respect to anti-Semitism in Europe, it is widely recognized 
that this very old and ugly phenomenon is once again on the rise, in 
the very seat of western civilization. One would have thought that the 
horrendous collective experiences of Europe in the mid-20th century 
would have branded indelibly on the collective minds of all Europeans, 
and of the entire world, the horrible cost and of anti-Semitism.
    But apparently that is not the case.
    Instead, Mr. Chairman, we see a pattern since 2000 of accelerating 
hatred and violence. Something over half of all anti-Semitic incidents 
recorded since 2000 occur in Europe--acts of violence against people 
and property, acts of desecration against cemeteries and community 
landmarks--as with the Holocaust itself, we are able to document in 
great detail the legacy of continuing hatred and intolerance, but still 
the hatred continues.
    There are historical lessons all of us should have learned long 
ago--that virulent and deliberate propagation of racial and ethnic 
hatred, of which anti-Semitism is an especially prominent and repugnant 
example--is incompatible with responsible political discourse or 
leadership.
    I therefore want to register my very serious concern that our 
President chose not to speak out more forcefully and more quickly on 
the matter than he did in response to the Malaysian Prime Minister's 
repugnant and virulently anti-Semitic remarks last Thursday at the 
Islamic Conference in Putrajaya, Malaysia. Mr. Mahathir's statement 
reflected much of what is most reprehensible and poisonous in Muslim-
Jewish relations today.
    For the record I have co-sponsored together with many many other 
members of this body a bipartisan resolution (S.Res. 247) condemning 
Mr. Mahathir's statement.
    I am very pleased that President Bush eventually did call Prime 
Minister Mahathir out on this; when they met in Bangkok on Monday, Mr. 
Bush said Mr. Mahathir's words had been ``wrong and divisive'' and that 
the speech stood against everything in which Mr. Bush believes. But, 
Mr. Chairman, it should not have taken four days--four days of U.S. 
silence while other western leaders were lining up to speak out 
forcefully against Mr. Mahathir's hateful words.
    My fear is that this delay may have been read by Mr. Mahathir and 
some of those leaders who stood and applauded his words as a kind of 
permission--a deliberate softening of the U.S. response--it may have 
been seen as a signal that world leaders, when they are cooperative 
with us in other policy areas, when they win the labels ``moderate'' or 
``practical'' that they are free in other spheres to indulge and to 
nurture reactionary and hateful forces within their own countries or 
within the Islamic world when that suits them.
    Mr. Mahathir's reaction was to say that he had been taken out of 
context--he then pointed to the world's outraged reaction as somehow 
justifying his original anti-Semitic charges.
    Mr. Chairman, responsible world leadership does not take hateful 
speech, and incitement to religious and ethnic strife lightly--
responsible leadership reacts, condemns and corrects swiftly and in the 
strongest terms.
    Thank you very much Mr. Chairman.

    Senator Allen. Thank you for your statement, Senator 
Corzine.
    And this is more than in Europe, although I'm only Chairman 
of the European Affairs Subcommittee, and it does get into 
Russia as part of Europe, and it does shed light on it 
internationally. We do have good relations with European 
countries, who should share and certainly are most familiar 
with the deplorable atrocities of the genocide based on 
religious intolerance and anti-Semitism. So that's why the 
European Affairs Subcommittee focuses on Europe. But clearly 
it's anti-Semitism not just focused on Europe. It also examines 
what we can do in our country, as well. And thank you for your 
good statement.
    Senator Coleman, do you have any remarks that want to share 
with us?
    Senator Coleman. Very briefly, Mr. Chairman.
    I want to thank you, again, thank you for holding this 
hearing. It is important. I want to associate myself with the 
comments of all my colleagues here, on both sides of the aisle.
    This is a worldwide problem. It is one that is certainly, I 
think, being fueled by what is taught in many of the religious 
schools in the Arab world that has to be addressed. It is a 
problem that's rearing its ugly head in American campuses, 
American universities, and we have to address that at some 
point in time. I'm certainly pleased that you've taken the lead 
today here in this setting to address this problem. It's a part 
of a larger overall picture that has to be dealt with, but I 
want to thank you again for your leadership in helping us deal 
with it today.
    Senator Allen. Thank you, Senator Coleman.
    Senator Biden, my colleague, ranking member.
    Senator Biden. Thank you very much.
    I was very interested to hear the statements of my 
colleagues, and I want to thank you for holding this hearing. 
Some suggested to me, you know, why are we holding this 
hearing? How are we going to legislate values in Europe? Well, 
we're not. Justice Holmes once said that sunlight is the best 
disinfectant, but one of the problems throughout modern 
European history has been that we have not shed sunlight on 
this as often as we should. So I don't think this is an 
exercise, merely allowing us to vent our frustrations.
    I also want to thank Senator Corzine for his deep and 
unabiding commitment to fighting bigotry wherever he finds it. 
I've had a chance to work with Governor Voinovich in the 
Balkans, and I've found that even when it has not been in his 
immediate political interest--because we all have 
constituencies, my State included--Serb, Croat, et cetera--I've 
watched this man unabashedly speak out, whenever there was a 
disregard for human rights or basic decency.
    When they used to talk about Frank Sinatra they would say, 
``this is a great young singer,'' and he'd say, ``Tell me where 
he is 30 years from now.'' Well, this is a guy who has been 
absolutely consistent and unrelenting on these issues, and I 
want to pay public acknowledgment to that. We've been in 
meetings where it has not been easy to expose the prejudice 
that exists in some parts of the Balkans, but he did it. I just 
want to acknowledge that.
    Mr. Chairman, I wish, as we all do, we didn't have to hold 
this hearing, but I'm not naive. Anti-Semitism has been a 
disgusting aspect of European and world history for nearly two 
millennia now. And this committee has held many hearings on 
this distasteful topic, as far back as the summer of 1994, for 
example, in the good old days when I was chairman of this 
committee--and I'm pleased to serve under my friend here. We 
held a series of hearings on right-wing movements in Europe, 
which differed from each other in many respects, but had one 
common thread to them, and that was that old virulent anti-
Semitism. And it goes without saying that one can oppose 
certain policies of the State of Israel, and I do that as well, 
occasionally, without being anti-Semitic. On the other hand, 
anti-Semites regularly try to conflate the two issues, and, 
moreover, often distort Israel's actions in the process.
    In April 2000, we got a very vivid picture--this is by way 
of reminder--a very vivid picture of this tactic. In response 
to the first wave of suicide bombings against civilians in late 
March 2002 and early April of that same year, the Israeli army 
went after terrorists in a refugee camp in Jenin. The European 
news media and a lot of the American news media, but the 
European news media, in particular with very few exceptions, 
bought the line, without any proof, hook, line, and sinker, 
that the Palestinians had put forward, which was that there was 
a massacre of between seven- and eight-hundred women, men, and 
children in this camp, by the Israelis. And I sat in this dais 
and said I did not believe it, and got absolutely blistered for 
saying there was no proof yet of that being the case.
    Then in response to a petition by Arab members of the 
Knesset, in Israel, the Israeli Government allowed 
international observers into the camp. I argued they should 
have allowed them in immediately, but it was only at this point 
that they finally allowed them in. And these international 
observers found that 52 people had died, and that 33 of them 
were armed and terrorists. Of course, the anti-Semites of the 
world, particularly in Europe, didn't want to be bothered by 
these facts. And a really sick stream of vituperative 
expression came spewing forth all over the continent, with 
over-the-top language that went far beyond criticism of 
Israel's actions, which as I said, had been completely 
misrepresented by the international press. These statements 
were blatantly and unabashedly anti-Semitic, and many of them 
were made by prominent Europeans.
    I cited a few of them in a floor statement I gave in June 
2002 in support of a resolution that we voted for condemning 
the growing intolerance and acts of persecution against Jews in 
many European countries. The French Ambassador to the U.K. made 
a demeaning scatological reference to the State of Israel, and 
the only scandal that resulted was criticism of a supposed 
indiscretion on the part of other guests who were there when he 
made those scatological references, for having leaked the story 
to the press. The people who leaked the story were criticized, 
not the comments criticized.
    And then there was the wife of the president of the 
European Central Bank, who, after flying the PLO flag from her 
house in Amsterdam, complained, and I quote, ``Israel is being 
kept going by those rich Jews in America,'' end of quote.
    A similar example of objectivity came from Oslo, where a 
member of the Norwegian Nobel Committee declared that she would 
like to rescind Shimon Peres's Nobel prize. Needless to say, 
she didn't choose to mention, let alone, criticize Yasser 
Arafat or the suicide bombers, whom he aids and abets.
    Even Germany's Free Democrats, a party with a proud history 
of liberalism and tolerance, was shamed by one of its top 
officials when that official exclaimed that the deputy director 
of the Central Council of Jews in Germany had brought on anti-
Semitism himself by his supposedly aggressive behavior as a 
television talk-show host--blame the victim. One must add, 
sadly, that that troubled individual later committed suicide 
and certainly he was not typical of the Free Democratic Party.
    And, of course none of these three I mentioned reflect the 
policies either of the French, German, Dutch, or Norwegian 
Governments. But such utterances by prominent individuals, no 
matter who they are, are greatly unsettling, and don't do much 
for intelligent public dialog at a time when there's a lot of 
disagreement over substantive issues relating to the Middle 
East.
    Well, Mr. Chairman, in the year since the U.S. Senate 
passed the resolution in question, the anti-Semitic acts, both 
rhetorical ones and physical violent ones have continued. 
Students in a Jewish day school in Paris were assaulted by a 
gang of North African teenagers. In another incident, a rabbi, 
who was a leader of a liberal Jewish movement, was knifed in a 
Paris street, and his car set afire. A Vienna rabbi was 
assaulted on his way home from prayer. A Berlin man wearing a 
Star of David was attacked on a bus by a group of teenagers, 
who kicked him in the face, spat upon him, and shouted anti-
Semitic slurs. Jewish cemeteries have been desecrated in 
London, Rome, and other European cities. And just last week, 
the new Jewish monument in Belarus was defaced.
    Yes, several European governments have responded with 
declarations against anti-Semitism, and a few, like France, 
have stiffened laws against anti-Semitic behavior and such 
violence. And I don't mean to say that we don't have similar 
individual acts that occur here. But I dare say there's never 
been one that's occurred where there hasn't been immediate, 
instant condemnation by all stripes of all parties and all 
government officials.
    U.N. member states are considering a proposal to harmonize 
their laws against racism. But many observers have finally 
dared to discuss what has long been a ``dirty little secret,'' 
namely that the threat of violence for millions of 
impoverished, ill-treated, in many cases, and often unemployed 
Muslim men in Western Europe has, at the very least, induced 
governments to temper their reactions to anti-Semitism. In 
truth, Europe's relations with the Muslim world increasingly 
affect its public diplomacy. How else can one explain the 
absolutely scandalous behavior of the European Union last 
Friday in Brussels at a meeting of the European Council, the 
heads of the EU governments? On the previous day, at a summit 
meeting of the Organization of the Islamic Conference, as has 
been mentioned by two of my colleagues and I will not repeat, 
the Malaysian Prime Minister had treated the world to one of 
his periodic ravings, this time about Jews. And I will not 
repeat what he said, but he went on to say--beyond what was 
quoted here, in order to enlighten the conferees about Western 
intellectual history ``that Jews invented socialism, communism, 
human rights, and democracy so that persecuting them would 
appear to be wrong, so that they can enjoy equal rights with 
others.''
    The United States immediately and publicly condemned the 
Prime Minister's ignorant bigotry. We would expect no less from 
our government. The European Union reportedly was asked to 
include a similar condemnation of the Prime Minister's speech 
in the lengthy Presidency Conclusions, ending its own summit 
meeting last Friday. It chose not to. The Presidency 
Conclusions--and I will conclude myself in a moment--offered a 
perfect opportunity for a condemnation, since it devoted an 
entire section to ``External Relations.'' That section included 
13 specific references, which I will not go through, from the 
WTO to Moldova to Iran, Iraq, Kosovo, et cetera. But there was 
no room for the condemnation of Mahathir's statement. Mr. 
Chairman, it's incomprehensible to me that the EU would 
publicly comment on these topics, but not on the vile anti-
Semitic speech in Malaysia.
    French President Chirac reportedly said--and I emphasize 
``reportedly,'' I don't know for a fact--that it was not the 
EU's place to issue condemnation. Now, there's real moral 
leadership. Mr. Chirac apparently wrote a private letter to the 
Prime Minister criticizing the remarks. But I doubt that many 
of the one billion Muslims in the world had access to that 
letter.
    Once again, the EU had a its chance to show its true moral 
colors, and I think it's failed the test miserably. How could 
it not forthrightly speak out against such repulsive nonsense, 
especially given the weighty historical burden of European 
anti-Semitism?
    This reluctance to speak out is not only morally 
indefensible, I think it's also self-defeating. Anti-Semitism 
is to democracy as a dead canary in a cage is to a coal miner, 
a warning, a warning of impending doom. Miners can't compromise 
with lethal coal gases, and democracies cannot compromise with 
purveyors of anti-Semitism.
    We have a very distinguished panel here, Mr. Chairman, all 
of whom I know. And I hope these gentlemen can disabuse me of 
my continuing impression of European half-heartedness when it 
comes to battling anti-Semitism.
    And, again, I thank you for holding the hearing, and 
apologize for the length of my statement and for my cold.
    I yield the floor.
    Senator Allen. Thank you, Senator Biden, for your always 
interesting and cogent remarks and your experience and strong 
stand. We very much appreciate you coming--we hardly recognize 
your cold.
    At any rate, now we're going to go forward with our panel. 
Our first panel is one individual, Ed O'Donnell. He's the 
Ambassador-Designate and Special Envoy for the Office of 
Holocaust Issues at the Department of State. Prior to his 
present post, Mr. O'Donnell was the Director of the Department 
of State Liaison Office to the U.S. House of Representatives. 
He previously served as principal officer or Counsel General at 
the U.S. Consulate in Frankfurt, Germany.
    We hope to hear the administration position on anti-
Semitism in Europe and any policies or programs in place to 
combat this program.
    Mr. O'Donnell, if you're ready, we'd be pleased to hear 
from you.

 STATEMENT OF EDWARD B. O'DONNELL, JR., AMBASSADOR-DESIGNATE, 
 SPECIAL ENVOY FOR HOLOCAUST ISSUES, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. O'Donnell. Thank you very much, Mr. Chairman and 
members of the committee. I appreciate the invitation to speak 
to you today on anti-Semitism in Europe.
    As the new Special Envoy for Holocaust Issues with less 
than 1 month on the job, I would like to express, in my first 
public statement, my appreciation to President Bush and 
Secretary Powell for selecting me for this position. Like my 
predecessors, I'm honored to be able to assist in bringing a 
measure of help and justice to Holocaust victims and their 
families. Professionally and personally, I also commit to doing 
my part to contribute to fighting anti-Semitism in Europe.
    This hearing is an important part of our joint efforts 
between Congress and the administration to call attention to 
the problem of anti-Semitism and to seek practical solutions, 
working together with Europeans who also are deeply troubled by 
incidents of anti-Semitism throughout Europe.
    My objective today is to state the U.S. administration 
policy, describe what we're doing with our neighbors across the 
Atlantic, and outline some practical steps to combat anti-
Semitism.
    We have made progress in the past year, and we can be 
pleased that it appears there has been some decrease in anti-
Semitic violence that surged in parts of Europe in 2002. This 
does not mean that we can relax and direct our energies 
elsewhere. We need to redouble our efforts, we need to develop 
creative approaches to promoting respect for all persons and 
religions and to promote understanding toward Jewish 
communities in Europe.
    The U.S. Government firmly believes that anti-Semitism is 
an insidious and continuing phenomenon that undermines basic 
values of democracy, tolerance, mutual understanding, and 
individual rights and freedoms. President Bush, on May 31 of 
this year, in Auschwitz, said, ``This site is a sobering 
reminder that when we find anti-Semitism, whether it be in 
Europe or anywhere else, mankind must come together to fight 
such dark impulses.''
    I'd also like to quote Representative Christopher Smith 
last week in Warsaw. He said, ``The United States also calls 
for ministerial language urging all elected leaders and 
government authorities to denounce acts of anti-Semitism when 
they occur, as well as seek vigorous investigations and 
prosecutions. While strong law enforcement is needed, education 
of youth is equally important.''
    What we are doing with our European allies is through the 
OSCE, and the U.S. has played a very strong leadership role in 
urging the OSCE to focus on the threat of anti-Semitism and to 
develop practical measures.
    Mayor Giuliani, in Vienna, last June, and our delegation, 
presented ideas such as: compile and regularly evaluate hate-
crime statistics in a uniform fashion; encourage all 
participating states to pass hate-related criminal legislation; 
set up educational programs in participating states about anti-
Semitism; and remember the Holocaust accurately; and resist 
Holocaust revisionists.
    The June meeting showed that OSCE could mobilize for what 
will be a long-term sustained effort to combat anti-Semitism. 
The U.S. administration undertook a major successful political 
push to build consensus for this meeting. As a result, the 
first time anti-Semitism was recognized as a human rights 
issue, and awareness was significantly raised.
    Since June, the U.S. administration has remained active. On 
October 14, last week, in Warsaw, at the OSCE Human Dimension 
implementation meeting--this is Europe's largest human rights 
and democratization meeting--the U.S. delegation continued to 
push for concrete strategies dealing with anti-Semitism.
    What did we achieve? With the European Union, we won 
support to hold a follow-on Berlin Conference on Anti-Semitism, 
to be held in Berlin at the end of April 2004. We need to build 
OSCE-wide consensus for the formal decision of the Foreign 
Ministers, but we're confident that that agreement will come 
and we will be able to proceed to the Berlin meeting.
    By the Berlin meeting, we hope that the OSCE will have 
moved from holding meetings on the subject of combating anti-
Semitism to have fully integrated it into the work of the OSCE. 
For example, we see the Office of Democratic Institutions and 
Human Rights, ODIHR, as a central part of collecting and 
analyzing hate-crime statistics by OSCE participating states.
    We have seen positive developments in European 
organizations. The Council of Europe, for example, has 
established cooperation on Holocaust education, including 
creation of an official annual Holocaust Remembrance Day. The 
NATO organization now encourages aspirant countries to deal 
with anti-Semitism, racism, and xenophobia in their membership 
action plans. The NATO Parliamentary Assembly, in its own 
survey about aspirant countries, included information about the 
fight against anti-Semitism and related issues.
    I also, Mr. Chairman, want to note the work of the U.S. 
Embassies and Consulates in Europe, which have been very active 
bilaterally. Ambassadors speak out against anti-Semitism and 
encourage prompt law-enforcement action by host nations against 
criminal conduct. Our diplomatic officials know local Jewish 
community leaders. They know local officials and law-
enforcement authorities. We monitor incidents and we express 
our concerns very directly.
    We also provide information that goes into the annual 
report on international religious freedom and annual country 
reports on human rights practices. Moreover, our public-affairs 
sections in Europe have important programs to foster religious 
respect, which counter anti-Semitism.
    We believe the bedrock of efforts to fight anti-Semitism is 
education. The administration's efforts to prevent future anti-
Semitism in Europe centers on our programs to educate the next 
generation of Europeans about the truth of the Holocaust and 
the lessons from history.
    Secretary Powell, in April, in the Capitol rotunda, said, 
``Teaching new generations about the Holocaust . . . is an 
affirmation of our common humanity.'' The primary vehicle for 
education we use is the Task Force for International 
Cooperation on Holocaust Education Remembrance and Research. 
This was formed at the initiative of Sweden. The U.S., the 
U.K., and Sweden were the initial founding members. This, 
today, is a 15-member country, and we have important NGOs and 
also the U.S. Holocaust Memorial Museum in Washington and Yad 
Vashem in Israel as a part of our work. There are eight 
countries that have developed liaison projects with us. The 
members of this task force pledge to promote education, 
remembrance, and research, to open archives, and encourage an 
annual Holocaust Remembrance Day. Currently, the United States 
is in the chair. We plan a plenary for December 1st through 
3rd. This follows on the meeting in May, and we will review 
applications and also new members.
    This task force has projects that are small, but the impact 
is large. The priority is teacher training for engaging the 
intellectual curiosity of teachers and students. The average 
project is $13,500 and includes projects such as visits to 
concentration and extermination camps, funds for historical 
commissions to document the Holocaust, and translation of 
scholarly books and articles.
    I have one, Mr. Chairman, today, a book that is titled, 
``Tell Ye Your Children,'' which is being distributed through 
our programs, and we will be translating this into languages in 
Eastern Europe. It's by a scholar, Paul Levine, and it's been 
very effective, we feel.
    I'd also like to quote a letter we received from a Romanian 
teacher. She said, ``The visit to the concentration camp of 
Auschwitz was the most emotive experience of my life. When I 
returned to my school in Romania, I told the students of the 
visit and the Holocaust. The students were completely silent, 
breathless. One girl asked, `How could this happen in the 20th 
century?' In fact, a few days later, a parent asked me for 
information to read about the Holocaust.'' This is the kind of 
effect we're looking for.
    I also want to mention the work that we are able to do 
through the German Foundation, the German Foundation for 
Responsibility, Remembrance, and the Future, which was 
established as a means of justice to former slave and forced 
laborers, and has one aspect of it, the Future Fund, that is 
forward-looking. Of the approximately $5 billion by the 
Foundation, $350 million is allocated for specific projects 
about the Holocaust, education, tolerance, and social justice. 
Just to mention a few of the projects that are being funded 
under this Future Fund is a face-to-face meeting between 
survivors and young people. In some cases, in another project, 
this includes young people assisting elderly survivors with 
shopping and daily activities, and, by doing so, learning of 
their experiences during the Holocaust.
    The U.S. Government also funds Holocaust Awareness Grants 
through our SEED Democracy Commission. We have about $100,000 
in the Baltics that's been targeted; and also, in Russia, we 
have projects, one of which is 20 seminars for teachers and 
young people, and also the production of two brochures about 
the dangers of spreading neo-Nazi and racist views.
    For the future, our strategy in Europe, Mr. Chairman, is to 
work intensively, both bilaterally and through multilateral 
institutions, such as the OSCE, to develop effective, practical 
ways of combating anti-Semitism, particularly anti-Semitic 
violence. Our work is not done. The first goal is to make sure 
the Berlin Conference is approved at Maastricht and is a 
success in April, resulting in concrete measures such as the 
creation of a centralized data base within the OSCE to monitor 
anti-Semitic incidents.
    We also will continue our address of efforts at Holocaust 
education through the task force and the German fund and 
bilateral programs through our embassies. We will cooperate 
closely with Congress, the U.S. Helsinki Commission, and non-
governmental institutions. We all have important roles to play.
    Mr. Chairman, let me thank you again for the invitation to 
speak to you today, and I look forward to your questions.
    [The prepared statement of Mr. O'Donnell follows:]

   Prepared Statement of Edward B. O'Donnell, Jr., Special Envoy for 
               Holocaust Issues, U.S. Department of State

                              INTRODUCTION

    Mr. Chairman, Members of the Committee, Senators, ladies and 
gentlemen, thank you for the invitation to address the European Affairs 
Subcommittee on ``Anti-Semitism in Europe.'' As the new Special Envoy 
for Holocaust Issues, with less than one month on the job, I would like 
to express in this, my first public statement, my sincere appreciation 
to President Bush and Secretary Powell for having selected me for this 
position. I have been involved in various capacities with Holocaust 
issues during my career as a Foreign Service Officer. Like my 
predecessors in this position, I am honored to be able to assist in 
bringing a measure of justice to Holocaust victims and their families. 
Professionally and personally, I also commit to doing my utmost to 
contribute to fighting anti-Semitism in Europe and elsewhere.
    This hearing is an important part of the joint effort between 
Congress and the Administration to call attention to the problem of 
anti-Semitism and to seek practical solutions, working together with 
the Europeans who also are deeply troubled by incidents of anti-
Semitism throughout Europe. The United States is involved because of 
our enduring commitment to respect for all religions; and we also care 
deeply because we are not immune in our own country from hate crimes 
and intolerance.
    My objective in this testimony is to state U.S. Administration 
policy, describe what we are doing with our neighbors across the 
Atlantic, and outline several areas where we are working on practical 
steps to combat anti-Semitism. We have made progress in the past year, 
and we can be pleased that it appears there has been some decrease in 
anti-Semitic acts that surged in parts of Europe in 2002. However, this 
does not mean that we can relax and direct our energies elsewhere. 
Every incident of hate-related crime is tragic and should be denounced, 
be it graffiti on a cemetery headstone, an arson attack on a synagogue 
or a physical attack against an individual. There is still much work to 
be done. We need to develop creative approaches to enhancing respect 
for all persons and religions, to promoting understanding towards 
Jewish communities in Europe, and, also, in a broader sense, to 
supporting our goal in the War on Terrorism, of countering the 
religious extremism and intolerance which lead to hatred and violence.

                              U.S. POLICY

    During President Bush's visit to Auschwitz on May 31 this year he 
said: ``This site is a sobering reminder that when we find anti-
Semitism, whether it be in Europe or anywhere else, mankind must come 
together to fight such dark impulses.'' The U.S. Government firmly 
believes that anti-Semitism is an insidious and continuing phenomenon 
that undermines basic values of democracy--tolerance, mutual 
understanding and individual rights and freedoms.
    The Administration fully supports the October 14, 2003 statement to 
the Organization for Security and Cooperation in Europe's (OSCE) Human 
Dimension Implementation Meeting in Warsaw by Representative 
Christopher H. Smith. He said, ``The United States also calls for 
Ministerial language urging all elected leaders and government 
authorities to denounce acts of anti-Semitism when they occur, as well 
as seek vigorous investigations and prosecutions. While strong law 
enforcement is needed, education of youth is equally important.''

                    COOPERATION WITH EUROPEAN ALLIES

    The U.S. has played a strong leadership role in urging the OSCE to 
focus on the threat anti-Semitism presents and to develop practical 
measures to combat it. Political momentum and a renewed awareness 
regarding anti-Semitism have been created. Former New York Mayor 
Rudolph Giuliani led the U.S. Delegation to the June 2003 OSCE Anti-
Semitism Conference in Vienna. The delegation included representatives 
from the Administration, Congress and NGOs. Mayor Giuliani and others 
in the delegation presented concrete U.S. suggestions including:

  <bullet> Compile and regularly evaluate hate crime statistics in a 
        uniform fashion.

  <bullet> Encourage all participating states to pass hate-related 
        criminal legislation.

  <bullet> Set up educational programs in participating states about 
        anti-Semitism.

  <bullet> Remember the Holocaust accurately and resist Holocaust 
        revisionists.

    The June meeting demonstrated that the OSCE could mobilize for what 
will be a long-term, sustained effort to combat anti-Semitism. The U.S. 
Administration undertook a major, successful, political push to build 
consensus for this meeting. The Vienna meeting recognized anti-Semitism 
as a human rights issue for the first time and significantly raised 
awareness of this continuing serious problem.
    Since June, the U.S. has remained active. On October 14, 2003, in 
Warsaw at the OSCE Human Dimension Implementation meeting, which is 
Europe's largest meeting on human rights and democratization, the U.S. 
delegation pushed hard for the OSCE to turn the U.S. June 
recommendations into concrete strategies for dealing with anti-
Semitism. What did we achieve? Importantly, with the European Union, we 
won support to hold a follow-on conference on anti-Semitism, in Berlin 
at the end of April 2004. We now need to build OSCE-wide consensus for 
a formal decision by the OSCE Foreign Ministers when they meet in 
Maastricht in December. At the Berlin meeting, our goal will be for the 
OSCE to adopt concrete measures for combating anti-Semitism as a fully 
integrated part of its work, including through the Office for 
Democratic Institutions and Human Rights. We will also seek further 
concrete progress toward the collection and analysis of hate crime 
statistics by OSCE countries to ensure that their education systems 
accurately teach about the Holocaust.
    In other European organizations, there has been progress as well. 
The Council of Europe agreed in October 2002 on several steps 
concerning the Holocaust, including in the area of Holocaust education, 
and member- countries agreed to observe an annual Holocaust Remembrance 
Day during which education about the Holocaust plays an increasingly 
important role. In 2003, the European Union extended its European 
Racism and Xenophobia Network to include the ten EU candidate 
countries.
    U.S. Embassies and Consulates in Europe have been very active 
bilaterally. Ambassadors speak out publicly against anti-Semitism and 
encourage prompt law enforcement action by host nations against 
criminal conduct. Our diplomatic officials know local Jewish community 
leaders, and work through the local governments to monitor incidents 
and express our concern. These diplomatic activities are detailed for 
the Congress in the 2002 Annual Report on International Religious 
Freedom, and in annual Country Reports on Human Rights Practices. 
Moreover, public affairs sections in U.S. Embassies in Europe implement 
important programs to foster religious respect and to counter anti-
Semitism.

                               EDUCATION

    The Administration's efforts to prevent future anti-Semitism in 
Europe centers on programs to educate the next generation of Europeans 
about the truth of the Holocaust and the lessons from history of the 
importance of religious tolerance and respect. Secretary Powell, in 
April 30, 2003 remarks in the Capitol Rotunda, said ``teaching new 
generations about the Holocaust . . . is an affirmation of our common 
humanity.''
    The Task Force for International Cooperation on Holocaust 
Education, Remembrance and Research was formed at the initiative of 
Sweden, with two other founding members, the United Kingdom and the 
United States. The Task Force's mission is to further Holocaust 
education, remembrance and research. Today, this important Holocaust 
forum includes 15 member-countries with participation by important NGOs 
such as the U.S. Holocaust Memorial Museum and Yad Vashem. In addition, 
there are eight liaison countries, and the Task Force is expanding to 
include new countries. Task Force members commit to the Principles of 
the Stockholm Declaration to which include: assuming responsibility for 
understanding causes of the Holocaust; pledging to promote education, 
remembrance and research; opening archives; and observing an annual 
Holocaust remembrance day. Currently, the U.S. is in the chair of the 
Task Force and will hold a plenary meeting in Washington at the 
beginning of December that delegations from more than 18 countries and 
120 persons will attend. This will follows a similar meeting we hosted 
at the State Department last May.
    While projects the Task Force finances are small in cost their 
impact is large, with a priority on teacher training to engage the 
intellectual curiosity of students. So far this year 27 projects for 11 
countries, averaging about 13,500 dollars each, have been approved, 
from a budget of less than 300 thousand dollars. Since 2000, 60 percent 
of the budget for the Task Force's four working groups has gone to 
Holocaust education, or a total of about 400 thousand dollars within 
the last three years. In addition to teacher training, types of 
projects included: visits to concentration/extermination camps; funds 
for historical commissions to document the Holocaust; documentary film 
projects about the Holocaust; and translations of scholarly books and 
articles.
    To give you a picture of the impact of the work of the Task Force, 
I would like to quote a recent letter from a Romanian teacher: ``The 
visit to the concentration camp of Auschwitz was the most emotive 
experience of my life. When I returned to my school in Romania, I told 
the students of the visit and the Holocaust. The students were 
completely silent. One girl asked: `How could this happen in the 20th 
Century?' In fact, a few days later, a parent asked me for information 
to read about the Holocaust.''
    Also important for the younger generation in Europe is the ``Future 
Fund'' of the German Foundation ``Responsibility, Remembrance and the 
Future.'' The Foundation was established primarily to provide some 
measure of justice to former slave and forced laborers, but one element 
of it, the Future Fund, has a more forward looking goal. Of 
approximately five billion dollars administered by the Foundation, 350 
million dollars is allocated for specific projects. Some of these are 
expected to include Holocaust education, tolerance, social justice and 
international cooperation in humanitarian endeavors. Currently funded 
projects include: textbook writing; video; video interviews with 
eyewitnesses; and scholarly projects. One particularly important 
activity supports face-to-face meetings between survivors and young 
people, and in some cases young people even assist elderly survivors 
with their shopping and other daily activities.
    The U.S. Government also funds Holocaust Awareness Grants through 
the SEED Democracy Commission. Eleven grants to the Baltic countries 
totaling over 100,000 dollars support the development of textbooks and 
other materials for teachers, and provide other resources on the 
Holocaust. Three grants to Russia totaling 43,000 dollars finance 20 
seminars for teachers and young people; the production and distribution 
of brochures about the dangers of spreading neo-Nazi and racist views; 
and a manual for history teachers.

                               THE FUTURE

    Our strategy for the future in Europe is to work intensively, both 
bilaterally and through multilateral institutions such as the OSCE, to 
develop effective, practical ways to combat anti-Semitism, and in 
particular anti-Semitic violence. Our work is not done. The first goal 
to make sure the planned Berlin anti-Semitism conference is approved at 
the OSCE Maastricht ministerial in December, and is a success in April 
resulting in the adoption of concrete measures such as a centralized 
OSCE data base to monitor anti-Semitic incidents. Through our embassies 
and in other fora we will seek to keep anti-Semitism at the forefront 
of attention of governments and the people of Europe. We also will 
continue our vigorous efforts to promote Holocaust education through 
the work of the Task Force for International Cooperation on Holocaust 
Education, Remembrance and Research, the Future Fund of the German 
Foundation, and bilateral U.S. programs. We will continue to cooperate 
closely with Congress, the U.S. Helsinki Commission and non-
governmental organizations, all of which play important roles in 
focusing public attention on anti-Semitism in Europe, and in developing 
creative, effective and forceful approaches to prevent it.
    Let me again thank you for the invitation to review the 
Administration's activities in combating anti-Semitism, and what we 
have achieved and what we plan for the future. I look forward to your 
questions.

    Senator Allen. Thank you, Mr. O'Donnell, for your cogent 
remarks. We very much appreciate them.
    You covered many of the questions that I had. Let me 
followup, though, on a few things. First, you mentioned--what's 
the title of this book?
    Mr. O'Donnell. ``Tell Ye Your Children.'' It's a book by 
Paul Levine, a scholar on the Holocaust who chairs one of the 
working groups in the International Task Force on Holocaust 
Education, Remembrance and Research.
    Senator Allen. All right. Here's my experiences, and I'll 
followup with questions, and maybe you can see how this is 
being utilized. When I was Governor, we created the Virginia/
Israel Partnership so that you'd get the cultural, educational, 
business ties being enhanced between Virginia and Israel.
    We also, in education, formulated what are called Standards 
of Learning in Virginia. And in those standards of learning 
were--in the history, mostly in the social studies and history, 
were ancient civilizations, the Middle East, and the Holocaust. 
And, therefore, teachers in every public school are teaching 
about ancient civilizations, and kids are learning about Ionic 
and Doric and Corinthian columns and Mesopotamia and so forth, 
and Middle East and the Holocaust. And many teachers in 
Virginia were funded to go over to Israel, and they have a good 
education program there, where you learn all that, as well as 
the Holocaust.
    And, of course, here we have, in Washington, DC, the 
Holocaust Museum, which is the most compelling, emotional 
museum I've ever been in, because everyone has their own sense 
of going at their own pace, interested in all that information, 
and wondering how can human beings be so vicious and so hateful 
in killing not just adults, but killing children and 
volunteering to do so. It has just profoundly had an impact on 
me. And when we had church burnings in Virginia and other 
Southern States, I thought--that's why leaders have to--these 
are racial, against African-American churches--why it's 
absolutely important that leaders stand up, deplore it, make 
sure that no one thinks that can be countenanced or allowed, 
and obviously prosecute those who are involved.
    Now, to get these books, this book, into schools in public 
schools in Europe, I don't know if any of them have in their 
standards of learning or if they have any curriculum that 
requires studying of the Holocaust. If you have something like 
that, I think it makes it much more effective than saying, 
yeah, our kids ought to learn about the Holocaust and, you 
know, maybe we'll have a field trip. Going to Auschwitz has an 
impact on people--Auschwitz or any of the other death camps.
    How many of them, of these countries, have something like 
standards or curriculum development or Standards of Learning--
that do include the holocaust? And how many schools have taken 
this book, ``Tell Ye Your Children,'' and have it being taught 
to them, as opposed to putting it into the library, where it 
might be read. But it's not quite the same having a book in the 
library as opposed to required learning and teaching and 
testing for the accountability. What gets measured, gets 
better, is the way I'd say it. George says it doesn't matter if 
it doesn't get measured. Same point, is if it's part of the 
standards and curriculum and they're tested upon it, it's much 
more likely that that will be imparted, that knowledge, to the 
students.
    So could you share with us how--if that book or others 
similar to it are part of a curriculum in European schools?
    Mr. O'Donnell. Thank you, Mr. Chairman.
    And I certainly agree with your views on the Holocaust 
Museum, which we work very closely with in this task force. 
They are very important to our work and everything we do, and 
we consult very closely with them.
    I'd make a distinction between countries like Germany and 
France, where Holocaust as an issue has been in the curriculum 
for some time, and the countries we're working with, and the 
task force, which are really smaller and less resourced, and 
also new democracies. For example, in Eastern Europe. I show 
you this book as an example of a work in progress. We're 
considering translating this into Hungarian, as well.
    These are small projects, and maybe to give you, if I may, 
a little more context of the task force, it's by consensus, our 
decisions, and it operates like the OSCE. Each member country 
contributes $25,000 a year, and that's our budget. So it's a 
small amount of money, but it is very effective, and it seems 
we are working in smaller ways--maybe better, in this instance. 
We're moving forward, and we're expanding the net, and we would 
like to invite new countries to join. A part of their joining 
would be to do things such as this, undertake the 
responsibility to make sure that the Holocaust is a part of the 
curriculum. Many countries, I think, do not have Holocaust as 
an important part of their required curriculum, in the smaller 
countries in Eastern Europe, but that's certainly our goal and 
priority, to expand the net and get more books like this into 
the hands of students.
    This would also be with teacher training, and we're 
designing these projects, as well, to really teach the teachers 
and, by extension, the students. But that would be our goals.
    The goals that I'm speaking of are from the Stockholm 
International Forum on the Holocaust, and what we do when we 
ask a country--when a country joins, we ask them to commit to 
these goals, such as encouraging the study of the Holocaust in 
all its dimension, and to commemorate the victims, and to 
start--to create a annual day of Holocaust remembrance.
    This is work in progress. I wanted to give you a sense of 
the type of things that we're doing and our goals for the 
future.
    Thank you.
    Senator Allen. Well, thank you.
    We'll talk in the--the accountability on the various types 
of crimes that are committed and so forth are important. I 
think one thing that would be useful is to determine which 
countries--and this would be an objective checklist--which 
countries have, as part of their educational curriculum, 
teaching the holocaust? You mentioned that France does, Germany 
does. Does, for example, The Netherlands, or Denmark, Austria, 
Italy, as far as the Central European countries? Poland? It 
would seem to me Poland certainly would want to have it, as 
well as the Czech Republic, Slovak, Hungary, and all the other 
aspirant countries, including the Balkans.
    And we're doing these on 7-minute rounds, but if you could 
get us--or maybe our second panelists can get us--which 
countries do and don't have that in education, because every 
one of the people--all of the Senators spoken--have talked in 
various ways, all recognizing that young people need to 
understand the implications of anti-Semitic remarks, swastikas, 
and what the implications of that are, as opposed to just some 
artistic design.
    Mr. O'Donnell. If I may, I'd like to take that question and 
respond to you in writing, because I think we can give you a 
full picture of where we are on the question of which have the 
Holocaust as a part of their curriculum.
    [The following information was subsequently supplied.]

        Present State of Holocaust Education in European Schools

    During the October 22, 2003 testimony of Special Envoy for 
Holocaust Issues Edward O'Donnell on anti-Semitism in Europe, Senator 
Allen as Chairman of the Senate Foreign Relations European Affairs 
Subcommittee requested additional information on the present state of 
Holocaust education in European schools. To obtain the most current 
information available, the State Department's Office of Holocaust 
Issues (EUR/OHI) tasked U.S. embassies in the 55 member states of the 
Organization for Security and Cooperation in Europe (OSCE) to make 
appropriate inquiries of their host governments. EUR/OHI also checked 
with the Council of Europe (COE) and consulted other sources.
    To provide for a standard presentation of the information we have 
gathered, the OSCE member countries are listed alphabetically on the 
attached matrix with their responses to four central questions (plus 
ancillary remarks) related to Holocaust education. The information 
submitted is current as of mid-January 2004.
    The responsibility for education in the OSCE countries varies 
widely. Most educational systems are centralized, but some are not and 
decisions on educational curricula are taken at the state/provincial or 
local level. It is clear from our overall research that most European 
countries are now placing greater emphasis on Holocaust education in 
their school systems, and especially at the high school level in 
connection with courses related to the Second World War.
    The Office of Holocaust Issues will continue to closely monitor 
this important issue, which is directly relevant to combating anti-
Semitism in Europe. We will use the attached matrix to establish a 
baseline and will update this analysis periodically for our own 
purposes and also for the work of the Task Force on International 
Cooperation for Holocaust Education, Remembrance and Research.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            [From the New York Magazine, December 15, 2003]

                      The Return of Anti-Semitism

                          (By Craig Horowitz)

Israel has become the flash point--and the excuse--for a global 
explosion of an age-old syndrome. Why has hating the Jews become 
politically correct in many places? And what can be done about it?

    On the second floor of the plaza hotel, in a gaudy meeting room 
with lots of gold-painted wall filigree and faux-Baroque details, about 
400 representatives of the Anti-Defamation League from around the 
country gathered one recent morning for the group's 90th-anniversary 
conference.
    As they settled in for a sober two-day program reflecting the grim 
situation Jews find themselves in (speakers included John Ashcroft, 
Thomas Friedman, and Israel's ambassador to the U.N.), ADL national 
director Abraham Foxman rose to give the opening address.
    Foxman, a professional noodge who has been sounding the alarm for 
more than three decades whenever he senses the slightest whiff of anti-
Semitism--his new book is Never Again? The Threat of the New Anti-
Semitism--began slowly, talking in an almost melancholy tone about his 
grandchildren and the uncertain future they face as Jews. But Foxman, 
who was sheltered during the Holocaust by his Christian nanny, quickly 
gained momentum and urgency, cataloguing stark examples of what he 
called ``the world's growing crescendo of irrationality.''
    He invoked the shattered glass of Kristallnacht and mentioned 
Hitler several times, allusions that surely found their target with the 
mostly middle-aged-and-older crowd. As he has been doing for more than 
a year now, he described the threat to the safety and security of the 
Jewish people as being ``as great, if not greater, than what we faced 
in the thirties.''
    It was Foxman at his best: passionate, indignant, and connecting 
naturally with other Jews. His fears are their fears. His hopes for the 
future are their hopes. The speech clearly resonated with the audience.
    But there was one small problem. The centerpiece of the speech, its 
theme, was misleading. There's no question these are troubled times. 
But the notion that Jews in 2003 ought to use the Holocaust as a kind 
of lens to help them see their current predicament more dearly is, to 
say the least, problematic. The analogy no longer holds.
    ``Comparing what's going on today to the thirties is both wrong and 
dangerous,'' says Alan Dershowitz, who also has a new book, The Case 
for Israel, which is practically a point-by-point guide for responding 
to the Jewish state's critics. ``The old labels don't apply, and the 
old diagnoses don't address the problem. They substitute emotion for 
reason, and we can't win this war with emotion. We need to look 
forward. We need to start thinking about the 2030s, not the 1930s.''
    The war to which Dershowitz is referring is the global explosion of 
hate and hostility directed at Israel and at Jews themselves. For the 
past eighteen months or so, members of the Jewish community--
intellectuals, activists, heads of various organizations, and 
laypeople--have been struggling desperately to find an effective 
strategy to address the new reality.
    It's been slow going. ``The organized Jewish community has just not 
reacted strongly enough,'' says Morton Klein, head of the Zionist 
Organization of America.
    Part of the reason for this is that they are facing a new problem, 
an enemy they haven't seen before. The stunning result of the 
burgeoning anti-Israel, anti-Zionist emotion is a kind of politically 
correct anti-Semitism. Foxman's analogy to the thirties is right in 
this respect: It is once again acceptable in polite society, 
particularly among people with left-of-center political views, to 
freely express anti-Jewish feelings. What only two or three years ago 
would have been considered hateful, naked bigotry is now a legitimate 
political position.
    The new p.c. anti-Semitism mixes traditional blame-the-Jews 
boilerplate with a fevered opposition to Israel. In this worldview, the 
``Zionist entity'' has no legitimacy and as a result no right to do 
what other nations do, like protect itself and its citizens. It is true 
that immediately labeling someone anti-Semitic because he criticizes 
Israel is a long-standing, often bogus tactic that has been used by 
Jews to stymie debate. The new anti-Semitism, however, is in some sense 
the inverse problem, with criticism of Israel being a kind of Trojan 
horse in which age-old anti-Semitic feelings are concealed.
    ``Israel has become the Jew among nations,'' says Mort Zuckerman, 
who in addition to his media holdings is the former chairman of the 
Council of Presidents of Major American Jewish Organizations. ``It is 
both the surrogate--the respectable way of expressing anti-Semitism--
and the collective Jew.''
    The irony here is that Israel, which was supposed to be the 
solution to centuries of anti-Semitism, is providing a flash point and 
a kind of cover for p.c. anti-Semitism. Recently, The Forward, the 
savvy weekly newspaper that focuses on Jewish life here and abroad, 
published its annual list of the 50 most influential American Jews. In 
its introduction, in a dramatic public expression of the thing that's 
on every Jew's mind, the paper explained that this year's list is 
dominated by people shaping the debate over the most critical question 
of the day: ``Why has the world turned against us, and what is to be 
done about it?''
    For most Jews, certainly those tied to the common-sense-based, 
moderate political middle, the momentum change is disorienting. How 
could this have happened when they believed so strongly in all the 
right things, like ending the occupation and dismantling the 
settlements? Fair-minded and compassionate, they regularly expressed 
concern for Palestinian suffering, and they cheered when Ehud Barak 
made an offer that appeared to finally clinch a peaceful two-state 
solution.
    But when Yasser Arafat walked away from the peace talks and 
triggered the incomprehensible wave of suicide bombings, events took a 
very strange turn. First, the violence guaranteed the election of Ariel 
Sharon. I was in Jerusalem during election week in 2001, and the city 
was covered with bumper stickers and signs that read ONLY SHARON WILL 
KEEP US SAFE. The intifada also decimated Israel's left. Jews 
everywhere wanted something done. Enough was enough. They wanted a show 
of force, and they got it.
    American Jews felt adrift at first, then angry, as if they'd been 
betrayed. If their hearts were in the right place, why hadn't the 
results been better?
    But after a little more than three years, it's clear the use of 
force hasn't worked either. Palestinian violence hasn't stopped. And 
the Sharon government's hard line has generated runaway sympathy for 
the Palestinians and at least an equal amount of hostility toward the 
Israelis. Suddenly, Jews find themselves less and less able to claim 
the moral high ground as they are now cast as the villains in the 
conflict. No matter what Israel does--negotiate, fight, put up a 
fence--it only seems to make things worse.
    ``I feel sick to my stomach,'' says writer and activist Leonard 
Fein. ``I go to meetings where despondence is thick on the table. I 
also feel scared because Israel is rudderless.''

    Senator Allen. And they may not--you know, some of the 
countries, such as Germany, as a federation, and each state 
may--Bavaria--I assume all the states, whether it's Bavaria or 
Baden-Wurttemberg, regardless, all of the states have it. And 
I'm not saying that--I'm saying that the Federal Government 
should be running those if they have a more localized approach, 
such as in a country like Switzerland. Nonetheless, it would be 
a good benchmark for us to see what youngsters are learning.
    Thank you.
    Now, I'd turn it over to Senator Biden for any questions 
you may have.
    Senator Biden. Thank you, Senator. I just have two 
questions, then I'll yield, and I have another committee 
hearing.
    By the way, staff points out to me that Lithuania has a 
unit on the Holocaust in its basic training manual for the army 
conscripts. So there's some movement. The whole picture isn't 
bleak in Europe. There's some positive things that are 
happening, and I--but, in the shortness of time, it's important 
that we dwell on the portions that need to be corrected, in my 
view.
    I'd like to ask you one question, quite frankly. And, by 
the way, Mr. O'Donnell, it's nice to see you here, rather than 
greeting me on the tarmac. I appreciate it very much, and I 
wasn't nearly as hospitable to you as you were to me when you 
greeted me last year, and I thank you for that.
    Can you give us your sense--and you may not have an 
opinion, or may not want to venture one--but how would you 
explain the refusal, if you would, of the European Union to 
include in its Brussels Presidency Conclusions the condemnation 
of the Malaysian Prime Minister's anti-Semitic remarks? How do 
you read it?
    Mr. O'Donnell. I really don't think I can comment on the 
European Union. What I can say is that we spoke out, our 
administration, President Bush and other senior administration 
officials, and we spoke out very quickly and very forcefully 
with statements such as that Mahathir's comments were wrong and 
divisive, hateful and outrageous, offensive and inflammatory. 
And we also expect other countries to speak out very forcefully 
and directly, and that's part of our pursuit of speaking out 
against anti-Semitic statements.
    Senator Biden. Well, you and the administration, the 
President, are personally to be complimented, because in these 
cases, words matter. Words matter.
    Well, let me ask one last question, then. There has been 
discussion in Europe, as well as here, about the notion that 
there's a new strain of anti-Semitism emerging in the European 
media and among some European political elites who are critical 
of Israel.
    Now, we have been very careful, even those who are very 
critical of Israel, in this country, to make a distinction, 
which is totally permissible, between the conduct of a 
government and the religion and ethnicity of a people. And so 
even in the United States, those who feel very strongly that 
Israel is not on the right path, have made this distinction.
    My impression is that anti-Semitism and the old canards are 
being used increasingly even by elites to bolster and undergird 
their criticism of Israeli policy, almost as an ad hominem 
argument, as opposed to a direct and legitimate, and 
appropriate for democracy to do, attack or criticism of the 
policy of another government.
    So my question is, not whether you personally believe--I 
don't want to put you in that spot--but is it your impression 
that some European political elites and the European media 
outlets are using anti-Semitism as a way of being critical or 
underpinning their criticism of Israeli conduct? I know that 
puts you in a spot. Not what do you think.
    Let me phrase it another way so I don't compromise you. And 
I warn the next panel, I will try to compromise you. Have you 
heard discussion in your formal capacity, when in Europe, of 
this subject? Is it being debated, not just by European Jews, 
but is it being debated at all, discussed among elites in 
Europe as to whether or not this is seeping into the criticism 
of Israel, which is fairly universal in Europe, crossing 
political parties and lines? Is that something that's up for 
discussion at cocktail parties and among, you know, elites, who 
you, necessarily, should be and are exposed to? I think that's 
the way to ask it. I can't think of another way.
    Mr. O'Donnell. Thank you, Senator Biden, I appreciate that.
    I would like to make two comments, if I may. In Germany, 
certainly this is a concern and something we watch from the 
embassy and the consulates, and Ambassador Coates certainly is 
very active in this area, and is talking to groups. I think 
this is a part of what we should be doing and are doing in 
embassies to explain our policy and also to explain our concern 
about anti-Semitism in Europe.
    And it is an issue. I was with a group of young German 
politicians and also journalists this morning, and this type of 
discussion did come up. And I think that we are all looking at 
this issue. And certainly in Germany they're very active in 
examining the roots of anti-Semitism. And that's why--one of 
the reasons, I think, that demonstrates the importance the 
Berlin April meeting of the OSCE. The Germans are very active. 
Yes, it is being discussed.
    Senator Biden. I thank you very much.
    Thank you, Mr. Chairman. I'll be back.
    Senator Allen. All right. Thank you, Senator Biden.
    Senator Voinovich.
    Senator Voinovich. Mr. O'Donnell, I have to say I'm very, 
very impressed with the followup you did from Vienna and your 
meeting in Warsaw. I said I'm very, very happy with the 
progress that you've been making, because that's exactly what I 
had hoped would happen as we're following up on that.
    Has there been a date established for the meeting in April, 
or is that still tentative?
    Mr. O'Donnell. Thank you, Senator Voinovich. And I would 
like to give the credit to Ambassador Pamela Hyde Smith and 
Ambassador Minikes, who were at the meeting last week in our 
delegation in the U.S. Helsinki Commission. We have dates of 
the 28th and 29th of April, and they are set, but it's, of 
course, contingent upon formal approval by the Foreign 
Ministers in Maastricht in that meeting.
    But in talking to Ambassador Pamela Hyde Smith and others 
on the delegation, that's certainly our goal, that that will be 
approved, and she's confident we do have consensus and that 
we'll be moving forward to prepare for that meeting.
    Senator Voinovich. And the goal would be then to--at the 
meeting, to institutionalize this effort in the Office for 
Democratic Institution and Human Rights. So it would become 
part of the ordinary work of the OSCE ministerial group.
    Mr. O'Donnell. We would be using ODIHR, which is in Warsaw, 
as the central institution that would collect statistics on 
hate crimes, and that would include a number of other 
activities, such as helping participating member states and 
develop their own national statistics and trying to make sure 
they're uniform, as Mayor Giuliani pointed out. So there are a 
lot of issues there. But that's certainly our goal, to use 
ODIHR as the centerpiece of the reporting on hate crimes and 
anti-Semitic incidents, yes, sir.
    Senator Voinovich. Well, I really think it's important that 
as you move down the road you have some real specific things 
that you're committed to and that you're going to be promoting 
with the other members of the OSCE. And I know Ambassador 
Minikes is a good one to have there.
    Mr. O'Donnell. Yes, sir.
    Senator Voinovich. He's very dedicated. I had a chance to 
spend some time with him in Berlin last year.
    The other issue--and, again, I am impressed with this Task 
Force for International Cooperation on Holocaust Education--how 
is that funded?
    Mr. O'Donnell. It's funded by each participating country, 
the 15 member countries. It's a contribution of $25,000 a year. 
So our total budget that we work with is not large, but we do 
have--beyond the monetary resources, we do have participation, 
which is quite valuable, from the countries, the member 
countries, and that includes government officials, such as 
myself and my office, but also people from, for example, NGOs 
and scholars and the U.S. Holocaust Memorial Museum and, in 
other countries, for example, Poland's coming to the meeting in 
December. They're bringing the Education Ministry, they're 
bringing an NGO representative. So we have a network of people 
who have been working on these Task Force Working Groups, and 
that's also a contribution of resources.
    Senator Voinovich. Well, one of the things that we talked 
about that would come out of this meeting is this whole issue 
of education. One of the things that drives me crazy with some 
of the European groups, is that they've got so many groups that 
you can hardly keep track of what they're doing. What would be 
interesting is if some linkage could be had between the Task 
Force for International Cooperation and the Holocaust, use that 
maybe as a benchmark for the meeting at the OSCE and say this 
is something that people have been doing, it's working, it's 
been effective, and then see if you can't get some more people 
that would participate in it, rather than having them come up 
with some brand-new way of getting things done.
    Mr. O'Donnell. Yes, sir.
    I just might mention there are two countries that have 
applied for membership, Norway--and this will be for our 
December meeting here in Washington--and also Romania. Romania 
we've been working with, and there are some positive things 
that have happened. For example, Romania has decided to form a 
Holocaust Commission that will be chaired by Eli Weisel. So 
there are some things like that where we can work with 
countries, and we're engaging them to do the things that we 
would like, in terms of Holocaust education and memorials and 
remembrance days.
    Senator Voinovich. Well, that's good to hear, from Romania, 
because they've had some problems, as you well know.
    Mr. O'Donnell. Yes, sir.
    Senator Voinovich. I think you mentioned, too, the new 
nations that we are contemplating bringing into NATO. Our 
country has made it very clear that dealing with anti-Semitism 
is part of the dues to be a member of NATO, and I was very, 
very encouraged that many of the Jewish organizations in this 
country and around the world were encouraging these new 
countries to come into NATO. That's a wonderful way to followup 
on it.
    Mr. O'Donnell. Yes, sir. Thank you.
    Senator Voinovich. Thank you.
    Senator Allen. Thank you, Senator Voinovich.
    Senator Sarbanes, do you have any questions of this first 
panel witness?
    Senator Sarbanes. Well, Mr. Chairman, I know you're anxious 
to go to the next panel, and I was unable to get here earlier, 
so I'll pass on this witness.
    Senator Allen. Well, thank you, Senator Sarbanes.
    Mr. O'Donnell, thank you for your comments and answering 
questions. I look forward to getting that checklist of which 
countries have Holocaust education in their curriculum. And I'm 
hopeful that this committee will soon have you as Ambassador, 
not Ambassador-Designate, as your formal title. This is 
probably--we're going to try to get you before this committee--
before recess, we'll get this hopefully accomplished. And, 
again, thank you for coming.
    I also want to thank people in this committee, Senators in 
this committee, for allowing you to come forward without the 
usual procedures and so forth.
    Look forward to working with you for years to come. Thank 
you very much.
    Now, our second panel is--if the gentlemen can come 
forward, our second panel--and I'll introduce you as you all 
get situated there--our second panel includes the following 
three gentlemen: Abraham Foxman, the national director of the 
Anti-Defamation League, David Harris, executive director of The 
American Jewish Committee, and the executive director of NCSJ, 
Mark Levin.
    Mr. Foxman has worked for the Anti-Defamation League since 
1965. He was named the national director in 1987. Prior to 
that, he worked in the League's International Affairs and Civil 
Rights Divisions. In addition to his position at the Anti-
Defamation League, Mr. Foxman has recently authored a book 
titled, ``Never Again?'' with a question mark, ``The Threat of 
New Anti-Semitism,'' which was released yesterday. Is that 
correct?
    Mr. Foxman. Correct.
    Senator Allen. And Mr. Harris, Mr. David Harris, has been 
the executive director of The American Jewish Committee since 
1990. Prior to assuming his current position, Mr. Harris served 
as the director of the AJC's Washington-based office of 
Government and International Affairs. He is the author of three 
books, ``The Jewish World,'' ``Entering a New Culture,'' and 
co-author of ``The Jokes of Oppression.''
    Mr. Levin is the executive director of NCSJ, which is the 
National Conference on Soviet Jewry, and was recently appointed 
to this position--well, not recently--was appointed to it in 
October 1992, has been a member of the professional staff of 
that organization since 1980. From 1987 to 1989, Mr. Levin 
served as director of the National Conference of Soviet Jewry's 
Washington office. Prior to coming to NCSJ, he worked for the 
American Israel Public Affairs Committee.
    We'll hear from all three of these witnesses in the order 
in which you're listed on the agenda and also the list of the 
order in which I introduced and gave a brief biographical 
sketch for everyone of your wonderful achievements and 
knowledge.
    And so we'll hear first from Mr. Foxman.

    STATEMENT OF ABRAHAM H. FOXMAN, NATIONAL DIRECTOR, ANTI-
                DEFAMATION LEAGUE, NEW YORK, NY

    Mr. Foxman. Thank you, Mr. Chairman.
    I'm very pleased to have the opportunity to address this 
subcommittee. Mr. Chairman, the convening of this hearing is 
just one more example of the kind of ongoing leadership 
commitment and focus by members of the committee to spotlight 
and combat anti-Semitism, for which we are grateful. It is at 
moments such as these that, as a Holocaust survivor, I feel so 
privileged to have an opportunity to raise my concerns, our 
concerns, with you. So proud. So proud that this country cares, 
worries, acts, speaks. And haunted by the thought that if only 
in the 1930s, forget about Europe, but in this country, had 
there been such deliberations, had there been such discussions, 
had the voice been as clear as it is today, then maybe, maybe, 
the situation would have been different.
    And as we look through Europe, I don't know if we can find 
one country where its congressional or senatorial legislative 
bodies have spent as much time as we have here grappling, 
struggling with this issue.
    The hearing is so timely, because, unfortunately, as we've 
heard from some of the Senators, we have had a fresh 
opportunity to examine a monumental manifestation of anti-
Semitism. But, more important--not what he said, not what he 
said, that's not new--where he said it, how he said it is a 
little bit new, but the reaction of the international 
community, and the reaction in Europe, in particular. Prime 
Minister of Malaysia has a record of anti-Semitism. What's 
significant is that he decided in his swan song of a lifelong 
career, in front of a group of nations, determined not by 
culture, not by geography, not by philosophy, but by religion. 
What brought those 57 countries together was their faith. And 
he believed that the door was open for him, that it would be 
acceptable to give a speech which we have not heard, since the 
days of the 1930s, by a head of state and for--in fact, called 
for a victory by 1.3 billion Muslims against the Jewish people.
    And the lessons we need to learn is, No.1, that heads of 
state still believe that this can be said with impunity; No. 2, 
he was received with a standing ovation, and our so-called 
friends and allies, to whom I have written last week, the 
President of Egypt, the Crown Prince of Saudi Arabia, the 
leadership of Turkey, Jordan, stood and applauded. No one 
walked out. No one criticized. And in the week since then, we 
see words of praise, applause in the Arab world, for what he 
said. Maybe that shouldn't come as a surprise.
    But then we look at Europe. Europe, which has been in a 
paroxysm of anti-Semitic violence in the last 3 or 4 years; 
Europe, struggling with a population to which this message of 
hate, of religious hate, reaches out; Europe, which has 
struggled with desecrations, torchings of synagogues. Only in 
the last month, Jews were killed in Moscow, in Istanbul, and in 
Casablanca because they were Jews.
    And so one would have hoped, Mr. Chairman, that this would 
have been a magnificent example of Europe to stand up together 
to condemn. I've submitted, in my testimony, the written 
testimony, and I won't go in it in detail--suffice it to say 
that when history is written of this week, it will report that 
there was an angry, loud debate in the Council of Europe, that 
at the meeting Thursday night with the Foreign Ministers there 
was argument as to whether the word ``anti-Semitism'' should be 
used. And there was a victory. The good people said, ``This is 
anti-Semitism.'' And so a statement was agreed upon with the 
word ``anti-Semitism,'' and it was read as a statement Thursday 
night. And I challenge you to find that statement, that 
reference, from the EU with the word ``anti-Semitism'' 
describing Mr. Mahathir's comments. I challenge you to find it 
on any Web site of the EU. Because within hours, it was watered 
down, within hours, by the intervention and interception--and 
even though I will tell you I had a particularly harsh exchange 
with the President of France, Mr. Chirac, and I still stand by 
the information that we have--by the intervention of France, by 
the intervention of Greece, it was watered down. And you would 
have difficulty finding on the Web site that condemnation. You 
need to be an expert.
    And, yes, I think, Senator Biden asked, ``Is it true that 
they hid behind process?'' Yes, they did. They said, ``This is 
the way we normally act.'' Well, this was not a normal event. 
This was an extraordinary hateful anti-Semitic event. And one 
needs to compliment, commend, the Governments of Italy, of 
Spain, and of Germany, and Netherlands, for they fought a 
valiant effort, but you'd never find out, you'd never read 
about it, because it doesn't exist anymore.
    And then I'm told, by the President of France, about his 
letters that he wrote and the condemnations. And, again, I do 
not want to take the time. I have submitted the writings and 
the letters, and you tell me how strong a condemnation that is. 
In fact, I wrote to the President of France today, and I said 
to him if his letter to the Prime Minister of Malaysia would 
have been as angry as his letter to me, we'd have stood up and 
applauded his position. ``Why?'' one of the Senators asked. 
It's a lot more of the political expediency, and that's why we 
could understand why the Prime Minister of Malaysia, in fact, 
in fact, praised France for its reasonable national response. 
Whereas, he used the rest of the world's response--first and 
foremost, America--as proof of his anti-Semitic tirade that 
Jews control; otherwise, there wouldn't have been this response 
out there in the world.
    And so the lesson to us is that we need to continue to 
press our European friends and allies, somewhere's down the 
line, our moderate Arab friends. But certainly this is a 
continent that has almost been destroyed by hate, by bigotry, 
by prejudice, by anti-Semitism. And if they don't understand it 
now, and if they don't raise their voice to their Arab friends, 
who will?
    And so it's very poignant, poignant that this country--you, 
the Members of the Senate--so quickly condemned it--this 
country, through the State Department, to the Office of the 
President, to the President himself.
    And I had a conversation with a French diplomat today who 
tried to compare what Chirac said to what President Bush said, 
and I said, ``You know, we do have a gap in culture and 
language, but the gap isn't that large. Read what President 
Chirac said, and read what the President''--well, and then he 
said, ``Mahathir said today that the President of the United 
States didn't say it to him.'' And I said, ``And now you're 
talking the word of Mahathir against the words of the President 
of the United States?''
    Well, our lesson is that we need to be there, because we 
are the only leader of the free world who understands whether 
it's on terrorism, whether it's on freedom or democracy, and 
certainly on anti-Semitism.
    Senator Voinovich, I will never forget 2 years ago, when 
you led an effort--I was privileged, in Berlin then, to address 
a group of parliamentarians, and when history is written, it 
was that meeting, it was a rump meeting, it was outside the 
procedural foundations of what they were doing, but the United 
States, and your delegation, you felt there was a need to 
address it. That was the beginning of OSCE meeting on anti-
Semitism. And if the United States and the parliamentarians did 
not hear from you, from the American Senate and Congress, there 
would be no session next April in Berlin, because they're 
looking for excuses.
    I have submitted in writing, to be responsive to your 
request, some recommendations. The recommendations, they're not 
that unique. They're very simple things to do. First and 
foremost, is to focus attention. The Ambassador referred to 
some of them. We worked with Senator Giuliani--not Senator--
maybe--with Mayor Giuliani--we worked with him on it, we worked 
with the American Jewish Committee, we worked with the 
Conference on Society Jewry, to develop best practices, to 
develop that which has worked here, which hopefully will work 
there, but it will need our leadership.
    In conclusion, let me say that despite the troubling 
assessment that we've heard and I bring to this committee, I 
come to you as an optimist, as a believer that we can go 
forward from this hearing, from this House, from this House of 
Congress, from this country, to make a difference.
    As I said to you earlier, I am a survivor of the Holocaust, 
and I emerged from that horrific period because of the courage 
and compassion of my Catholic nanny and her priest, who hid my 
true identity and saved me while a million and a half Jewish 
children were not as fortunate. My story is a living reminder 
that individuals can make a difference, one life at a time.
    Think of an impact you can have from the halls of Congress 
and through the bully pulpit of the U.S. Government, and as the 
President has done in Asia this week, to confront this 
pernicious hatred. Anti-Semitism has a particular place in the 
history of Europe, in the history of xenophobia. Focusing on it 
and combating it now can only advance the cause of eradicating 
all forms of hatred, of bigotry, of prejudice, and racism.
    And we, assembled here, know that this is not the work of a 
day, but a long-term strategy to build an alliance of values 
one country at a time, one minister at a time, one 
parliamentarian at a time, to sensitize our allies so that 
years from now the Mahathirs of that generation will face wall-
to-wall international condemnation.
    Mr. Chairman, gentlemen, there is no greater challenge, and 
there is no greater good. And I am humbled by the opportunity 
to sit here and to meet with you.
    Thank you very, very much.
    [The prepared statement of Mr. Foxman follows:]

Prepared Statement of Abraham H. Foxman, National Director of the Anti-
                    Defamation League, New York, NY

    My name is Abraham Foxman. I am the National Director of the Anti-
Defamation League, an organization currently celebrating its 90th 
anniversary year of working to expose and counter anti-Semitism and all 
forms of bigotry. I am pleased to have the opportunity to address the 
subcommittee, not just to offer an assessment of the problem, but to 
highlight concrete steps that Members of the Senate and the US 
government can take to address it.
    As nations of the world, including our own, have turned their focus 
to the fight against terrorism, we are acutely aware that fighting 
anti-Semitism and other forms of hatred is critical, not just on 
humanitarian grounds, but as a matter of the national security of all 
freedom loving nations.
    Mr. Chairman, the convening of this hearing is just one more 
example of the kind of ongoing leadership, commitment and focus by 
members of the Committee to spotlight and combat anti-Semitism for 
which we are grateful.
    This hearing is so timely because unfortunately we have had a fresh 
opportunity to examine a monumental manifestation of anti-Semitism and 
the reaction of the international community and Europe in particular. I 
am referring to the poisonous, hate-filled, anti-Semitic speech by 
Malaysian Prime Minister Mahathir Mohamad just last week.
    Let me begin by applauding the Senate for swiftly passing a 
Resolution condemning the Mahathir statement. Your action stands in 
stark contrast to that of other leaders who responded either with 
silence or bitter deliberations over whether it was appropriate to call 
anti-Semitism by its name and to criticize it publicly.
    At last week's meeting of the Organization of the Islamic 
Conference (OIC), Prime Minister Mahathir took the already incendiary 
issue of global anti-Semitism to new and dangerous heights in his call 
to leaders of the 57 nations assembled for a final victory against the 
Jews who ``rule the world by proxy.'' I have attached excerpts of 
Mahathir's remarks to my written testimony which you have in front of 
you.
    The audience at this gathering was made up of the leaders of 
nations, most of which have witnessed an upsurge of anti-Semitic hate 
over the last three years. Surveys indicate that a significant part of 
the populations in these countries believe the big lie that Jews were 
responsible for carrying out the attacks of September 11th. Many 
opinion leaders and intellectuals in those states claim that the 
Holocaust did not happen or was greatly exaggerated by world Jewry in 
order to win support for Israel. There has been a proliferation of 
anti-Semitic stereotypes--Jews as Nazis, Jews drinking the blood of 
Muslims, Jews controlling America--in state-controlled media. And 
Muslim residents of European countries, inspired by this outburst of 
hate from Islamic media and the Internet, have committed hundreds of 
acts of anti-Semitic violence against Jews and Jewish institutions.
    But the significance of Mahathir's speech being delivered to this 
particular forum lies not merely in the prevalence of anti-Semitism in 
those countries but in the fact that this was a meeting of Islamic 
nations. This was not a United Nations committee meeting, or the 
organization of French-speaking countries, or the Davos Economic 
Summit. The OIC member nations are not bound by geography, or politics 
or culture--but by religion.
    This was a rallying cry to an entire faith, a call to holy war 
against the Jewish religion and people by 1.3 billion Muslims. It is 
grotesque anti-Semitism with the intent to incite a religious war on an 
international scale.
    The potential effect of the hatred spewed by Mahathir is 
particularly lethal because of the ability of his message to 
reverberate across the Muslim world where there are those who are more 
than willing to take them at face value, to translate them into 
international terrorism and suicide bombs.
    It is far from a surprise that Mahathir personally holds these 
views. He has a history of which we are aware. In 1997 he blamed Jewish 
billionaire George Soros for the currency crisis in his country. In 
1984 Malaysia banned a performance of the New York Philharmonic 
Orchestra of a work based on Hebrew melodies by Jewish composer Ernst 
Bloch.
    It is shocking, nevertheless, that 60 years after Europe was 
decimated by the worst kind of horror that can result when anti-
Semitism is unleashed and unchecked, after we had come to believe the 
world had learned the lessons of the Holocaust, that a head of state 
would make a call for holy war against Jews the ``swan song'' of his 
decades-long political career.
    But what alarms us most is Mahathir's presumption that, in making 
this incendiary speech, he was walking through an open door. And 
indeed, his confidence was born out by the standing ovation he received 
after his remarks.
    We were truly dismayed and saddened that among the leaders of 57 
countries, including US allies like King Abdullah II of Jordan, Prince 
Abdullah Abdul Aziz of Saudi Arabia, and Morocco's King Mohamed VI, no 
one stood up, no one walked out, and no one challenged him. Where were 
the good people at this summit who should have stood up to proclaim 
that Mahathir's words were evil and unacceptable?

                        INTERNATIONAL REACTIONS

    Beyond the speech itself, it is instructive to look at how the 
world beyond the OIC reacted, even under the microscope of intense 
media scrutiny. And what should engage and concern this subcommittee is 
the fact that this incident is emblematic of one of the most difficult 
aspects of the new anti-Semitism in Europe which reverberates from the 
Middle East and--absent clear condemnation and prevention--has too 
often translated into acts of violence, and even murder of Jews in 
Europe and elsewhere.
    Let us first look at just a sampling of the response from some 
leaders of Muslim nations:
    Egyptian Foreign Minister Ahmed Maher said: ``This was a pep talk 
to the Muslim countries for them to work hard and look to the future, 
but as soon as you have any criticism of Israel, then there are people 
who are very eager to rush to condemnation, even without comprehending 
what it's all about.''
    Somalian President Abdiqasim Salad Hassan defended Mahathir, 
saying: ``The prime minister was not inciting war. He was just saying 
that we should be united to face threats from many quarters, including 
Israel.''
    Yemen's Foreign Minister Abubakar al-Qirbi said it bluntly. ``I 
don't think they were anti-Semitic at all. I think he was basically 
stating the fact to the Muslim world.''
    Days after the controversy roared, Mahathir himself was unrepentant 
and defended his comments in a press conference saying: ``My speech was 
very clear. I said that the Jews have all the world behind them and 
that's why they can defy the United Nations.''
    In Europe, the response of those who should be the most sensitive, 
because of their history, and their own experience with a leader 
rallying nations around this kind of invective, was mixed.
    A two-day summit of the European Union Council in Brussels last 
week provided the perfect forum to publicly issue a forceful joint 
declaration. Italy, which holds the current EU presidency, issued a 
strong statement as did Spain, Germany and others.
    However we were stunned that representatives to an EU summit in 
Brussels had to debate in closed session whether to condemn this anti-
Semitism as part of their concluding declaration. In the end, they did 
not see fit to make it a part of the official record of the summit. A 
French government spokesperson defended the position saying that it is 
not customary policy to deal with such issues in summit declarations. 
Beyond the fact that this incident should have compelled them to break 
with ``customary policy'', numerous reports indicated that leaders of 
France and Greece actually blocked a condemnation that some EU members 
asked for. We are not alone in our assessment of the French reaction. 
Malaysian newspapers report that Mahathir had expressed his gratitude 
to President Chirac for his ``understanding'' of the speech.
    I'll read to you the French response so you can see first hand the 
kind of reticence we are talking about. Even after an international 
outcry, they could only say: ``We have respect for the Organization of 
the Islamic Conference. We have respect for the vast community of 
Moslems whom this Organization represents. We expect those who speak on 
behalf of the OIC to show the same respect towards other faiths, in 
accordance with the spirit of tolerance which is also Islam's.'' 
President Chirac later issued what he must have believed was a stronger 
statement saying to Mahathir: ``Your remarks on the role of Jews 
provoked strong disapproval in France and around the world.'' The 
President of France could not bring himself to use the word anti-
Semitism.
    There certainly have been good people of conscience who prevailed 
in their own way and were able to mobilize an outcry. But we sorely 
regret that, while Mahathir's remarks are proudly posted on the OIC Web 
site, visit the official EU Web site and you will find their criticism 
makes no mention of the word anti-Semitism and is buried deep in its 
document archive. While the hater unabashedly trumpets his message, the 
condemnation is muted by dissent within the EU. Let me quote the simple 
message that was so difficult for some to accept, hotly debated behind 
closed doors:
    ``The EU deeply deplores the comments made earlier today by Dr. 
Mahathir in his speech at the opening of the 10th session of the 
Islamic Summit conference in Putrajaya, Malaysia . . . Such words 
hinder all our efforts to further inter-ethnic and religious harmony, 
and have absolutely no place in a tolerant world.''
    We commend those in the international community who took a strong 
stand against the incendiary anti-Jewish scapegoating of Mahathir's 
speech. In particular, we recognize Italy, Spain and Germany for their 
important comments and efforts to rightly denounce and condemn this 
speech as anti-Semitic, dangerous and morally repugnant. We salute 
those who worked behind closed doors in the EU to push for a rejection 
of Mahathir's speech and message.
    We are appalled by those who acquiesced, with their silence or even 
with public support. We are especially outraged by the actions of 
French President Jacques Chirac and Greek Prime Minister Costas Simitis 
to block the EU Summit official condemnation. By their disgraceful 
behavior, these countries are willingly complicit in spreading these 
words of hate.
    ADL wrote the leaders of Australia, Germany, Italy, and Spain to 
express appreciation for their strong condemnations of Mahathir's 
speech, and, on the other side, to France, Greece, Jordan, Turkey, 
Morocco, Russia, and others, calling their behavior a ``disgrace to 
their countries.''

                         LESSONS GOING FORWARD

    This chapter illustrates yet again that one cannot talk about anti-
Semitism in Europe without confronting the role of the Arab world in 
propagating the kind of anti-Jewish myths which flourished in Europe 
centuries ago. These canards are being revived and cloaked in theology 
and religion. Islamist campaigns within the Muslim world and Europe 
have moved the anti-Jewish beliefs within Islam from the fringes, where 
they historically resided, closer to the center. This demonization of 
Jews and Judaism emanates from houses of worship and from clerics. It 
pervades educational systems and government-sponsored media, and it 
permeates popular culture well beyond the Middle East.
    The ensuing radicalization of youth in Muslim countries and in 
Europe has played a large role in the attacks against individual Jews 
and Jewish institutions. I have appended to my written testimony just a 
sample of recent anti-Semitic incidents in Europe. This is in no way a 
quantitative representation but merely to demonstrate that, while the 
frequency may vary, the violence continues and presents a real danger 
to the security of Jews living in Europe.
    Mr. Chairman, even the brief overview I have provided of world 
reaction to this one incident leads us to one paramount conclusion--
that the US is unique in its resolve to be a voice of conscience when 
it comes to calling anti-Semitism by its name.
    Even as the President traveled to Asia to meet world leaders to 
bolster US ties with nations on issues of vital US interest, he faced 
this issue head on. While others were afraid to mention the words anti-
Semitism, our President spoke boldly and clearly in a face to face 
encounter with Prime Minister Mahathir himself. In making his outrage 
known on both a personal and public level, the President has left no 
doubt that the Prime Minister's anti-Semitism and his continuing 
defense of his speech is unacceptable and morally repugnant in the eyes 
of the United States.
    With similar moral clarity, the Senate swiftly passed a resolution 
of condemnation--not at the urging of any organization or religious 
community--but instinctively as a matter of clear policy and principle.
    It is abundantly clear that the vital task of getting leaders 
around the world to denounce the ideology of anti-Semitism that has 
gripped the Islamic and Arab world will depend on the steadfastness of 
US leadership.
    While the last century witnessed the most heinous results of 
bigotry unchecked, fortunately, we also have witnessed in our lifetime 
powerful examples of how strong US leadership has brought about 
dramatic change.
    Members of Congress and of this committee are uniquely positioned 
to exert such leadership and to build among our allies in Europe a 
coalition of those willing to stand up. You are in a position to use 
your good offices to recognize constructive and courageous leadership 
as well as to criticize those nations and leaders who fail to step up 
to the plate.
    Parliamentarians in the US and Germany have taken a lead in getting 
the Organization for Security and Cooperation in Europe (OSCE) to 
address anti-Semitism for the first time in a separate meeting in 
Vienna. Germany has offered to host an important follow up meeting next 
April in Berlin. We urge Senators to look at other relevant 
international, regional and inter-parliamentary institutions that might 
address the issue.
    I mentioned countries like Spain and Italy that have shown courage 
in speaking out. Your membership in this Committee, your meetings, your 
travel, your bilateral contacts with heads of state, foreign ministers 
and parliamentarians provide an opportunity to broaden the alliance of 
those who are courageous enough to stand up even where it is unpopular 
to do so.
    We must reject the notion that a leader who acknowledges anti-
Semitism must pay a price for somehow disrespecting their Muslim 
constituency. Surely we oppose all forms of bigotry including anti-
Muslim hatred, but condemning anti-Semitism is in no way a denigration 
of any other religion or group.
    On the contrary, combating anti-Semitism, especially in Europe, 
advances the protection of all minorities. It was anti-Semitism which 
infected Europe and dismantled its democratic institutions and 
ultimately the freedom of all its inhabitants. Jews have been referred 
to as the canary in the coal mine--because concerted attacks against 
Jews will not stop there but will endanger the civilized world and 
democratic institutions wherever they exist.
    I would like to highlight some concrete steps which we hope the 
Committee will be able to take. We look forward to continuing to 
cooperate and share ideas about how to carry on this fight--armed with 
the clear knowledge that we can make a difference.

                            RECOMMENDATIONS

    1. European nations must take seriously the ideology of anti-
Semitism coming out of the Arab and Islamic world.

  <bullet> Political, intellectual, and religious leaders must insist 
        in a variety of forums that, the Big Lie--blaming the Jews for 
        September 11th, growing Holocaust denial, the spread of the 
        infamous forgery the Protocols of the Elders of Zion and other 
        manifestations of anti-Semitism in the Arab and Islamic world--
        are unacceptable, and call on Arab leaders to do something 
        about it. The silence of nations in the face of this dangerous 
        incitement against Jews must end.

  <bullet> Nations of Europe have it well within their power today to 
        play a very different role in international organizations where 
        anti-Israel bias has been reflected even in the revival of the 
        infamous ``Zionism is racism'' ideology. This bias has shown 
        itself to be easily transformed into outright anti-Semitism, as 
        we witnessed at the U.N. World Conference Against Racism in 
        Durban, South Africa in 2001.

  <bullet> Nations must confront the connection between the bias 
        against Israel internationally and the surge of anti-Semitism 
        on the streets. While the state of Israel is not beyond 
        legitimate criticism, states must reject the self-satisfying 
        rationalization that this bias and violence are manifestations 
        of disagreement with Israel. Leaders must recognize that the 
        singling out of Israel creates an environment in which anti-
        Semitism flourishes. We cannot let anti-Semitism and efforts to 
        brand Israel a pariah state seep into the public debate 
        disguised as political commentary. The ultimate question is not 
        whether one can criticize Israel without being an anti-Semite, 
        but whether that criticism reflects a double standard and an 
        unfair bias against Jewish national self-expression and self-
        determination.

    2. Recognize anti-Semitism as a human rights violation--de-linked 
from Middle East issues. While anti-Semitism has been acknowledged as a 
form of racism, there is a reticence to address its re-emergence 
squarely within multilateral frameworks for fear of raising the ire of 
Arab communities or states, or of running against a political climate 
which is increasingly hostile toward Israel. US diplomats and NGOs 
repeatedly encounter discomfort with any kind of special focus on the 
issue. In the United Nations, language on anti-Semitism or Holocaust 
commemoration is dealt with as part of negotiations of language on the 
Arab--Israeli conflict and not as a separate human rights or religious 
freedom issue. Addressing anti-Semitism head-on should not be viewed as 
a Middle East issue or taking a particular side in any regional 
political conflict.
    Anti-Semitism is xenophobia that infects the community where it 
occurs--it should not be treated as a political hot-button issue 
related to the Middle East. Even, and especially when support for 
Israel may be unpopular, defense of Jewish rights must not be allowed 
to fall out of favor.
    3. Hate Crime Data Collection and Monitoring.

  <bullet> National and local authorities must call attacks on Jews and 
        Jewish institutions what they are--anti-Semitism. The first 
        step is to ensure that incidents are taken seriously and 
        appropriately categorized as hate crimes. We have witnessed in 
        some countries incidents rationalized as hooliganism or as 
        expressions of political disagreement with Israel. They are a 
        violation of national law in many states and of international 
        norms and treaties against incitement, religious intolerance, 
        and hate violence.

  <bullet> Enhance worldwide monitoring efforts by governments and non-
        governmental bodies alike. Nations should promote the adoption 
        of comprehensive hate crime data collection laws and provide 
        training in how to identify, report, and respond to hate crimes 
        for appropriate law enforcement officials. It is impossible to 
        properly assess the scope and nature of the problem without 
        data collection and public reporting on anti-Semitic incidents.

  <bullet> Nations should allocate funds for national assessments of 
        hate violence, its causes, the prevalence of the problem in 
        state schools, the characteristics of the offenders and 
        victims, and successful intervention and diversion strategies 
        for juveniles. There is a direct connection between identifying 
        the nature of the problem and identifying appropriate 
        educational initiatives to address the problem.

    4. Using the Bully Pulpit.

  <bullet> Urge political and civic leaders to utilize opportunities 
        they have every day to speak out against bigotry. Their 
        statements and actions to promote tolerance resonate nationally 
        and internationally. It is hard to overstate the importance of 
        outspoken leadership in opposition to all forms of bigotry. 
        These leaders set the tone for national discourse and have an 
        essential role in shaping attitudes. Further, politicians and 
        civic leaders should never engage in divisive appeals based on 
        race, ethnicity, sexual orientation, or religion.

  <bullet> Urge parliamentarians abroad to take action. The challenge 
        is how to replicate these kinds of hearings and resolutions in 
        parliaments of other nations. Building on the efforts of the US 
        Congress, it is vital to broaden the alliance of those 
        parliaments willing to speak the truth about this issue and 
        take action. Let other parliaments do as Congress has done, 
        pass resolutions against anti-Semitism and develop national 
        action plans to combat it.

  <bullet> Urge support for the OSCE Berlin Follow-Up Conference. The 
        landmark June OSCE conference on anti-Semitism brought together 
        leaders from 55 states to recognize the problem and forge a 
        common commitment to follow up on a program of action. The 
        Berlin follow up meeting will be critical in seeing this 
        process through to meaningful implementation.

    5. Implement Anti-Bias Education. Anti-Bias Education is an 
essential building block of combating hatred. History has shown that, 
when people of conscience are given tools and skills to stand up 
against bigotry, they will do so. The ADL has many programs, some of 
which have been highlighted by European governments as ``best 
practices'' in the fight against racism. One of our earliest successes, 
which is used as a model worldwide, was implemented in Germany in 
response to hate crimes against Turkish Muslim immigrants in the early 
1990s. I have included a checklist of additional programs we have found 
to be successful internationally.

  <bullet> Parliaments should press education ministries to use schools 
        as a staging ground for anti-bias education. Governments must 
        act now to provide appropriate teacher training on anti-bias 
        education curricula and empower students through peer training 
        programs. From the ages of 3-5 years-old, where children begin 
        to recognize differences and form attitudes based on those 
        perceptions, to the college and university level, where inter-
        group understanding is critical to fostering a successful 
        learning environment, anti-bias education is necessary to equip 
        students with skills and confidence which enable them to 
        confront prejudice, to become activists against bigotry and 
        agents for change.

  <bullet> Resources should be allocated to institute and replicate 
        best practices and promising programs on prejudice awareness, 
        conflict resolution, and multicultural education through 
        public-private partnerships, as part of education exchange and 
        public diplomacy programs.

    6. Holocaust Education. The Holocaust serves as a grim reminder of 
where intolerance can lead if permitted to flourish and of the absolute 
necessity that it be stopped. Following up on the January 2000 
Declaration of the Stockholm International Forum on the Holocaust, 
parliamentarians should seek to implement Holocaust curricula to draw 
upon the lessons of this tragic period to illuminate the importance of 
moral decision.

  <bullet> ADL developed a comprehensive, interactive secondary level 
        Holocaust curriculum enhanced with state of the art audiovisual 
        supplements for use in American high schools. This kind of 
        curriculum could be easily adapted for use in classrooms 
        abroad.

  <bullet> One useful model is the ADL's Bearing Witness Program for 
        Religious Educators. This program helps teachers examine anti-
        Semitism and the Holocaust as a starting point for addressing 
        issues of diversity in contemporary society. Its goal is to 
        successfully implement Holocaust education in religious 
        schools. In order to do this effectively, teachers work to 
        confront and to acknowledge the history of the Holocaust 
        including the role of Churches and other religious 
        institutions. This is a collaborative effort between ADL, the 
        Archdiocese, and the US Holocaust Memorial Museum.

    7. Law Enforcement Training. In talking about grappling with 
bigotry with leaders, we often hear about the challenge of changing 
demographics. Beyond training in hate crimes response, anti-bias 
education for law enforcement professionals helps develop cross-
cultural skills and communication in order to enhance officer 
effectiveness and safety by building cooperation and trust with diverse 
communities.

  <bullet> A new proposed EU Law Enforcement Training Center would 
        provide an ideal venue for such training.

  <bullet> Respond to racism and hate crimes in the armed forces. 
        Ministries of Defense should provide anti-bias and prejudice 
        awareness training for all recruits and military personnel, 
        improve procedures for screening out racist recruits, and 
        clarify and publicize existing prohibitions against active duty 
        participation in hate group activity. In Austria, ADL training 
        has been implemented already for 8% of all law enforcement 
        professionals throughout Austria. In Russia, ADL has provided 
        training as part of the ``Climate of Trust'' hate crime 
        training program for law enforcement.

    8. Mobilize religious leaders to speak out. The religious context 
in which so much anti-Semitism festers--as we see in the Mahathir 
incident--compels a response from leaders of all faiths, including 
Muslims. At home and abroad, we maintain our vigilance and unequivocal 
opposition to intolerance against Muslims. But we respect the faith of 
Islam and its leaders enough to hold them accountable for their broad 
failure to speak out against anti-Jewish hatred being fed to youth and 
other believers as God's truth, as a tenet of faith.

                               CONCLUSION

    Despite the troubling assessment I bring to this committee today I 
come to you as an optimist, as a believer that we can go forward from 
this hearing, from this House of Congress, from this country, to make a 
difference. I am a survivor of the Holocaust. I emerged from that 
horrific period only because of the courage and compassion of my 
Catholic nanny and her priest who hid my true identity and saved me. 
But 1\1/2\ million other Jewish children were not fortunate enough to 
meet with those rare individuals of conscience. My story is a living 
reminder that individuals can make a difference, one life at a time. 
Imagine the impact you can continue to make from the Halls of Congress 
and through the bully pulpit of the US government to confront this 
pernicious hatred.
    We must raise our collective voices against any expression of hate 
and to challenge those whose ``violence of silence'' aids and abets its 
growth. Anti-Semitism has a particular place in the history of Europe 
and in the history of xenophobia. Focusing on it and combating it now 
can only advance the cause of eradicating all forms of hatred.
    We assembled here know that this is not the work of a day, but a 
long term strategy to build an alliance of values--one country at a 
time, one minister at a time, one parliamentarian at a time, to 
sensitize our allies so that, years from now, the Mahathirs of that 
generation will face wall-to-wall international condemnation.
    There is no greater challenge. There is no greater good.

                               Appendix I

  SPEECH BY PRIME MINISTER MAHATHIR MOHAMAD OF MALAYSIA TO THE TENTH 
                       ISLAMIC SUMMIT CONFERENCE*

                         [Source: OIC Web site]

    Prime Minister Mahathir:
    Alhamdulillah, All Praise be to Allah, by whose Grace and Blessings 
we, the leaders of the Organization of Islamic Conference countries are 
gathered here today to confer and hopefully to plot a course for the 
future of Islam and the Muslim ummah worldwide . . .
    The whole world is looking at us. Certainly 1.3 billion Muslims, 
one-sixth of the world's population are placing their hopes in us, in 
this meeting, even though they may be cynical about our will and 
capacity to even decide to restore the honor of Islam and the Muslims, 
much less to free their brothers and sisters from the oppression and 
humiliation from which they suffer today.
    I will not enumerate the instances of our humiliation and 
oppression, nor will I once again condemn our detractors and 
oppressors. It would be an exercise in futility because they are not 
going to change their attitudes just because we condemn them. If we are 
to recover our dignity and that of Islam, our religion, it is we who 
must decide, it is we who must act.
    To begin with, the Governments of all the Muslim countries can 
close ranks and have a common stand if not on all issues, at least on 
some major ones, such as on Palestine. We are all Muslims. We are all 
oppressed. We are all being humiliated. But we who have been raised by 
Allah above our fellow Muslims to rule our countries have never really 
tried to act in concert in order to exhibit at our level the 
brotherhood and unity that Islam enjoins upon us. . . .
    From being a single ummah we have allowed ourselves to be divided 
into numerous sects, mazhabs and tarikats, each more concerned with 
claiming to be the true Islam than our oneness as the Islamic ummah. We 
fail to notice that our detractors and enemies do not care whether we 
are true Muslims or not. To them we are all Muslims, followers of a 
religion and a Prophet whom they declare promotes terrorism, and we are 
all their sworn enemies. They will attack and kill us, invade our 
lands, bring down our Governments whether we are Sunnis or Syiahs, 
Alawait or Druze or whatever. And we aid and abet them by attacking and 
weakening each other, and sometimes by doing their bidding, acting as 
their proxies to attack fellow Muslims. We try to bring down our 
Governments through violence, succeeding to weaken and impoverish our 
countries. . . .
    With all these developments over the centuries the ummah and the 
Muslim civilization became so weak that at one time there was not a 
single Muslim country which was not colonized or hegemonised by the 
Europeans. But regaining independence did not help to strengthen the 
Muslims. Their states were weak and badly administered, constantly in a 
state of turmoil. The Europeans could do what they liked with Muslim 
territories. It is not surprising that they should excise Muslim land 
to create the state of Israel to solve their Jewish problem. Divided, 
the Muslims could do nothing effective to stop the Balfour and Zionist 
transgression.
    Some would have us believe that, despite all these, our life is 
better than that of our detractors. Some believe that poverty is 
Islamic; sufferings and being oppressed are Islamic. This world is not 
for us. Ours are the joys of heaven in the afterlife. All that we have 
to do is to perform certain rituals, wear certain garments and put up a 
certain appearance. Our weakness, our backwardness and our inability to 
help our brothers and sisters who are being oppressed are part of the 
Will of Allah, the sufferings that we must endure before enjoying 
heaven in the hereafter. We must accept this fate that befalls us. We 
need not do anything. We can do nothing against the Will of Allah.
    But is it true that it is the Will of Allah and that we can and 
should do nothing? Allah has said in Surah Ar-Ra'd verse 11 that He 
will not change the fate of a community until the community has tried 
to change its fate itself.
    The early Muslims were as oppressed as we are presently. But after 
their sincere and determined efforts to help themselves in accordance 
with the teachings of Islam, Allah had helped them to defeat their 
enemies and to create a great and powerful Muslim civilization. But 
what effort have we made especially with the resources that He has 
endowed us with.
    We are now 1.3 billion strong. We have the biggest oil reserve in 
the world. We have great wealth. We are not as ignorant as the 
Jahilliah who embraced Islam. We are familiar with the workings of the 
world's economy and finances. We control 57 out of the 180 countries in 
the world. Our votes can make or break international organizations. Yet 
we seem more helpless than the small number of Jahilliah converts who 
accepted the Prophet as their leader. Why? Is it because of Allah's 
will or is it because we have interpreted our religion wrongly, or 
failed to abide by the correct teachings of our religion, or done the 
wrong things? . . .
    Today we, the whole Muslim ummah are treated with contempt and 
dishonor. Our religion is denigrated. Our holy places desecrated. Our 
countries are occupied. Our people starved and killed.
    None of our countries are truly independent. We are under pressure 
to conform to our oppressors' wishes about how we should behave, how we 
should govern our lands, how we should think even.
    Today if they want to raid our country, kill our people, destroy 
our villages and towns, there is nothing substantial that we can do. Is 
it Islam which has caused all these? Or is it that we have failed to do 
our duty according to our religion?
    Our only reaction is to become more and more angry. Angry people 
cannot think properly. And so we find some of our people reacting 
irrationally. They launch their own attacks, killing just about anybody 
including fellow Muslims to vent their anger and frustration. Their 
Governments can do nothing to stop them. The enemy retaliates and puts 
more pressure on the Governments. And the Governments have no choice 
but to give in, to accept the directions of the enemy, literally to 
give up their independence of action.
    With this their people and the ummah become angrier and turn 
against their own Governments. Every attempt at a peaceful solution is 
sabotaged by more indiscriminate attacks calculated to anger the enemy 
and prevent any peaceful settlement. But the attacks solve nothing. The 
Muslims simply get more oppressed.
    There is a feeling of hopelessness among the Muslim countries and 
their people. They feel that they can do nothing right. They believe 
that things can only get worse. The Muslims will forever be oppressed 
and dominated by the Europeans and the Jews. They will forever be poor, 
backward and weak. Some believe, as I have said, this is the Will of 
Allah, that the proper state of the Muslims is to be poor and oppressed 
in this world.
    But is it true that we should do and can do nothing for ourselves? 
Is it true that 1.3 billion people can exert no power to save 
themselves from the humiliation and oppression inflicted upon them by a 
much smaller enemy? Can they only lash back blindly in anger? Is there 
no other way than to ask our young people to blow themselves up and 
kill people and invite the massacre of more of our own people?
    It cannot be that there is no other way. 1.3 billion Muslims cannot 
be defeated by a few million Jews. There must be a way. And we can only 
find a way if we stop to think, to assess our weaknesses and our 
strength, to plan, to strategize and then to counter attack. As Muslims 
we must seek guidance from the Al-Quran and the Sunnah of the Prophet. 
Surely the 23 years' struggle of the Prophet can provide us with some 
guidance as to what we can and should do.
    We know he and his early followers were oppressed by the Qhuraish. 
Did he launch retaliatory strikes? No. He was prepared to make 
strategic retreats. He sent his early followers to a Christian country 
and he himself later migrated to Madinah. There he gathered followers, 
built up his defense capability and ensured the security of his people. 
At Hudaibiyah he was prepared to accept an unfair treaty, against the 
wishes of his companions and followers. During the peace that followed 
he consolidated his strength and eventually he was able to enter Mecca 
and claim it for Islam. Even then he did not seek revenge. And the 
peoples of Mecca accepted Islam and many became his most powerful 
supporters, defending the Muslims against all their enemies.
    That briefly is the story of the struggle of the Prophet. We talk 
so much about following the sunnah of the Prophet. We quote the 
instances and the traditions profusely. But we actually ignore all of 
them.
    If we use the faculty to think that Allah has given us then we 
should know that we are acting irrationally. We fight without any 
objective, without any goal other than to hurt the enemy because they 
hurt us. Naively we expect them to surrender. We sacrifice lives 
unnecessarily, achieving nothing other than to attract more massive 
retaliation and humiliation.
    It is surely time that we pause to think. But will this be wasting 
time? For well over half a century we have fought over Palestine. What 
have we achieved? Nothing. We are worse off than before. If we had 
paused to think then we could have devised a plan, a strategy that can 
win us final victory. Pausing and thinking calmly is not a waste of 
time. We have a need to make a strategic retreat and to calmly assess 
our situation.
    We are actually very strong. 1.3 billion people cannot be simply 
wiped out. The Europeans killed 6 million Jews out of 12 million. But 
today the Jews rule this world by proxy. They get others to fight and 
die for them.
    We may not be able to do that. We may not be able to unite all the 
1.3 billion Muslims. We may not be able to get all the Muslim 
Governments to act in concert. But even if we can get a third of the 
ummah and a third of the Muslim states to act together, we can already 
do something. Remember that the Prophet did not have many followers 
when he went to Madinah. But he united the Ansars and the Muhajirins 
and eventually he became strong enough to defend Islam.
    Apart from the partial unity that we need, we must take stock of 
our assets. I have already mentioned our numbers and our oil wealth. In 
today's world we wield a lot of political, economic and financial 
clout, enough to make up for our weakness in military terms.
    We also know that not all non-Muslims are against us. Some are 
well-disposed towards us. Some even see our enemies as their enemies. 
Even among the Jews there are many who do not approve of what the 
Israelis are doing.
    We must not antagonize everyone. We must win their hearts and 
minds. We must win them to our side not by begging for help from them 
but by the honorable way that we struggle to help ourselves. We must 
not strengthen the enemy by pushing everyone into their camps through 
irresponsible and unIslamic acts. Remember Salah El Din and the way he 
fought against the so called Crusaders, King Richard of England in 
particular. Remember the considerateness of the Prophet to the enemies 
of Islam. We must do the same. It is winning the struggle that is 
important, not angry retaliation, not revenge.
    We must build up our strength in every field, not just in armed 
might. Our countries must be stable and well administered, must be 
economically and financially strong, industrially competent and 
technologically advanced. This will take time, but it can be done and 
it will be time well spent. We are enjoined by our religion to be 
patient. Innallahamaasabirin. Obviously there is virtue in being 
patient.
    But the defense of the ummah, the counter attack need not start 
only after we have put our houses in order. Even today we have 
sufficient assets to deploy against our detractors. It remains for us 
to identify them and to work out how to make use of them to stop the 
carnage caused by the enemy. This is entirely possible if we stop to 
think, to plan, to strategize and to take the first few critical steps. 
Even these few steps can yield positive results. . . .
    The enemy will probably welcome these proposals and we will 
conclude that the promoters are working for the enemy. But think. We 
are up against a people who think. They survived 2000 years of pogroms 
not by hitting back, but by thinking. They invented and successfully 
promoted Socialism, Communism, human rights and democracy so that 
persecuting them would appear to be wrong, so they may enjoy equal 
rights with others. With these they have now gained control of the most 
powerful countries and they, this tiny community, have become a world 
power. We cannot fight them through brawn alone. We must use our brains 
also.
    Of late because of their power and their apparent success they have 
become arrogant. And arrogant people, like angry people will make 
mistakes, will forget to think.
    They are already beginning to make mistakes. And they will make 
more mistakes. There may be windows of opportunity for us now and in 
the future. We must seize these opportunities.
    But to do so we must get our acts right. Rhetoric is good. It helps 
us to expose the wrongs perpetrated against us, perhaps win us some 
sympathy and support. It may strengthen our spirit, our will and 
resolve, to face the enemy. . . .
    There are many things that we can do. There are many resources that 
we have at our disposal. What is needed is merely the will to do it, As 
Muslims, we must be grateful for the guidance of our religion, we must 
do what needs to be done, willingly and with determination. Allah has 
not raised us, the leaders, above the others so we may enjoy power for 
ourselves only. The power we wield is for our people, for the ummah, 
for Islam. We must have the will to make use of this power judiciously, 
prudently, concertedly. Insyaallah we will triumph in the end.
    I pray to Allah that this 10th Conference of the OIC in Putrajaya, 
Malaysia will give a new and positive direction to us, will be blessed 
with success by Him, Almighty Allah, Arahman, Arahirn.

Prime Minister's Office

Putrajaya

                              Appendix II

          SELECTED INCIDENTS ACROSS EUROPE/EURASIA IN 2003 \1\
---------------------------------------------------------------------------
    \1\ This listing is in no way meant to be comprehensive or to be a 
quantitative representative of the number of incidents in specific 
countries but merely to provide examples.
---------------------------------------------------------------------------
Austria
    May 10, 2003--Vienna--A rabbi was physically assaulted by two 
youths as he was walking home from prayer in eastern Vienna. After 
shouting anti-Semitic slurs, the youths kicked the victim and struck 
his head with a beer bottle. According to the Austrian Anti-Terrorism 
Bureau for Protection of the Constitution, the suspects were in custody 
with charges pending.

Belarus
    August 27, 2003--Minsk--A synagogue in the Belarusian capital was 
set on fire by unidentified assailants who doused the building's main 
entrance with kerosene. Firefighters managed to save the edifice, but 
its facade was damaged, according to Yuri Dorn, President of the Jewish 
Religious Union of Belarus. The attack was the fifth attempt to burn 
the synagogue over the last two years.
    May 26, 2003--Minsk--Vandals desecrated a memorial to the thousands 
of Jews slain in Minsk during the Holocaust. The vandals scrawled 
swastikas, Nazi slogans and anti-Jewish threats on plaques at the Yama 
memorial, which marks the site of the ghetto where more than 100,000 
Jews were exterminated by Nazi troops during World War II.

Belgium
    June 13, 2003--Charleroi--A 32-year-old man of Moroccan descent 
attempted to explode a vehicle loaded with gas canisters in front of a 
synagogue. He was arrested by police shortly after the incident. The 
man reportedly set his own car on fire, but it did not explode. Belgian 
Prime Minister Guy Verhofstadt condemned the attempted attack but said 
he saw no need to raise security around Jewish buildings and 
institutions. In April 2002, the same synagogue, situated on the edge 
of the city, was hit by gunfire from unknown assailants .France

Paris
    July 25, 2003--Paris--A synagogue in the Paris suburb of Saint-
Denis was ransacked and desecrated with anti-Semitic graffiti. Prayer 
books were scattered on the floor, the Torah scrolls opened and money 
was stolen. ``Juif=mort'' (Jew = death) was scrawled on an outside 
wall.
    July 20, 2003--Venissieux--Two plaques at a Holocaust memorial were 
defaced and broken. The plaques mark the site of a transit camp where 
hundreds of Jews from the Lyon region were rounded up before being sent 
to Nazi death camps in August 1942.
    March 22, 2003--Paris--A number of Jews, including teenagers, were 
chased and attacked by anti-war protesters outside the headquarters of 
a Jewish youth organization. The protesters were described by witnesses 
as ``wearing kaffiyahs.'' One teenage boy was hospitalized for injuries 
he sustained while being beaten by demonstrators.

Germany
    August 15, 2003--Kassel--More than 50 graves were vandalized at a 
historic Jewish cemetery in the central German city of Kassel. Some 
gravestones were overturned, while others had headstones weighing up to 
2,000 pounds toppled on them. Police were investigating.
    July 28, 2003--Saxony-Anhalt--Vandals defaced a memorial to Nazi 
victims of a Buchenwald subcamp, plastering the buildings with anti-
Semitic newspapers. Visitors to the Langenstein-Zwieberge memorial 
reported the damage to the police, who said that the perpetrators had 
used copies of anti-Jewish newspapers from 1933 to 1945, the years the 
Nazis ruled Germany.
    July 8, 2003--Berlin--A Jewish memorial in Berlin was vandalized. 
The vandals apparently threw small paving stones, gouging the surface 
of a memorial dedicated to the former Levetzowstrasse synagogue, which 
was used by the Nazis as detention center to deport Jews. According to 
the police, the incident took place in broad daylight, but the 
perpetrators escaped before they could be arrested.
    June 27, 2003--Berlin--A 14-year-old girl wearing a Star of David 
necklace was attacked by a group of teenage girls on a bus in the 
German capital. According to reports, the group first insulted the girl 
because of her religion and her Ukrainian nationality and subsequently 
hit and kicked her, injuring her slightly. Police were investigating.

Greece
    August 4, 2003--Ioannina--Vandals sprayed swastikas and Greek 
nationalistic slogans on the outer walls of a synagogue. The town's 
Jewish community condemned the attack and urged the police to 
investigate.
    February 1, 2003--Thessaloniki (Salonica)--Two swastikas were spray 
painted on a Holocaust memorial. The memorial honoring the tens of 
thousands of Salonican Jews killed by the Nazis has been vandalized 
before.

Italy
    March 9, 2003--Milan--Anti-Semitic graffiti appeared on the office 
of the RAI, the Italian state-owned radio and television network, after 
a journalist of Jewish origin was named director. The graffiti read 
``RAI for Italians, no to Jews.'' The messages were condemned by 
political and popular figures.

Russia
    October 10, 2003--An anti-Semitic sign with a fake bomb attached to 
it was placed on a roadside south of Moscow in the latest in a series 
of copycat crimes that began last year in Russia, the ITAR-Tass news 
agency reported on October 10. The sign, with an unspecified anti-
Semitic slogan, was found by a motorist Thursday on a main highway 
about 60 kilometers south of the capital, ITAR-Tass reported, citing 
Moscow region police.
    September 2, 2003--Novgorod--An object resembling a bomb with an 
anti-Semitic slogan attached was found at a local synagogue in 
Novgorod, 400 miles northwest from Moscow. The ``bomb'' was determined 
to be a fake when no explosives were found.
    June 28, 2003--Pyatigorsk--On the last weekend in June, a Jewish 
cemetery in the town of Pyatigorsk, in the North Caucasus, was 
desecrated. Vandals smashed 10 tombstones, including those of Russian 
World War II soldiers. It is the only Jewish cemetery in the multi-
ethnic Stavropol Region.
    June 22, 2003--Yaroslavl--Windows were shattered and anti-Semitic 
graffiti painted on a synagogue in Yaroslavl, a town 300 miles 
northeast of Moscow. No one was injured in the incident. The police 
were investigating.

Slovakia
    January 21, 2003--Banovce nad Bedravou--A 19th-century Jewish 
cemetery was desecrated in the western Slovak town of Banovce nad 
Bedravou, about 100 kilometers northeast of the capital, Bratislava. 
Thirty-five tombstones were toppled and vandals drew a swastika in the 
snow by the gate to the cemetery.

Sweden
    April 27, 2003--Malmo--Unknown assailants attempted to set fire to 
the purification room in the Jewish cemetery in Malmo. The attackers 
threw firebombs into the building, but the structure was still 
standing. It was the eighth time the purification room at the cemetery 
has come under attack.

United Kingdom
    August 5, 2003--Manchester--Vandals smashed and toppled 20 
headstones in an attack at a Jewish cemetery in Prestwich, in Greater 
Manchester. Police are treating the incident at Rainsough Hebrew Burial 
Ground as racially motivated. The cemetery has been targeted in the 
past.
    July 8, 2003--Southampton--Eleven tombstones in the Jewish section 
of the Hollybrook cemetery were desecrated with Nazi slogans and 
swastikas. Six others were toppled. A spokesman for the Community 
Security Trust, which provides security and defense advice for the 
Jewish community across Britain, said it was the second attack on 
Jewish graves in Southampton in seven months. Police were 
investigating.
    May 15, 2003--London--Police discovered the desecration of 386 
Jewish graves at the Plashet Cemetery in East Ham. The gravestones had 
been pushed over. Police are treating the incident as a racially 
motivated attack. In addition to three youths, all under 17 and who 
were subsequently released on bail, four more youths have been arrested 
and were being held in custody.

                              Appendix III

  INTERNATIONAL ANTI-PREJUDICE PROGRAMS OF THE ANTI-DEFAMATION LEAGUE

Germany
    <bullet> A CLASSROOM OF DIFFERENCE Program integrated into Teacher 
Training Institutes of eleven German Laender.
    <bullet> Eine Welt der Vielfalt in Berlin implements ADL A 
WORKPLACE OF DIFFERENCE programs.
    <bullet> Participate in the Bertelsmann International Network on 
Education for Democracy, Human Rights, and Tolerance. This network 
identifies best practice models from programs that foster education, 
democracy, human rights and tolerance around the world.
    <bullet> Peer Training supported by Eine Welt der Viefalt, the 
Deutsche Kinder und Jugendstiftung and EPTO (European Peer Training 
Organization).

Belgium
    <bullet> In conjunction with Centre Europeen Juif d'Information 
(CEJI), the ADL Teacher and Peer Training programs are implemented in 
French and Flemish Belgium schools.
    <bullet> Foundation support--Evens and Bernheim Foundations.
Italy
    <bullet> In conjunction with CEJI, the ADL Teacher and Peer 
Training programs are implemented in the region of Milan.
    <bullet> Foundation support-Compagnia San Paolo.

France
    <bullet> In conjunction with CEJI and the French Catholic School 
Network (UNAPEC), the ADL Teacher and Peer Training programs are 
implemented in France.
    <bullet> Foundation support-Charles Leopold Mayer Foundation.

Netherlands
    <bullet> In conjunction with CEJI, the ADL Teacher and Peer 
Training programs will be implemented this year.
    <bullet> Funding support-Dutch Insurers Association.

Spain
    <bullet> In conjunction with CEJI, Peer Training programs exist and 
the ADL Teacher Training programs will begin this year in the region of 
Altea.

Greece
    <bullet> In conjunction with CEJI Peer Training programs exist.

Luxembourg
    <bullet> In conjunction with CEJI Peer Training programs exist.

Portugal
    <bullet> In conjunction with CEJI Peer Training programs exist.

The United Kingdom
    <bullet> In conjunction with CEJI Peer Training programs exist.

Austria
    <bullet> The A WORLD OF DIFFERENCE Institute office is responsible 
for implementing anti-bias education programs for all Law Enforcement 
professionals throughout Austria. To date 8% have participated in 
program. Funded by the Ministry of Interior.
    <bullet> In conjunction with CEJI Peer Training programs are being 
implemented.
    <bullet> Austrian ADL trainers deliver WORKPLACE programs.

Japan
    <bullet> In conjunction with the Diversity Education Network ADL 
Teacher Training programs are implemented in the region of Osaka.

Argentina
    <bullet> In conjunction with the Fundacion Banco De La Provincia 
Buenos Aires the ADL WORKPLACE program is being implemented in the 
areas of public administration, in the province of Buenos Aires.

Israel
    <bullet> Teacher and Peer Training programs exist in the schools 
and in after school programs. Materials are in Hebrew and Arabic.
    <bullet> Children of the Dream program exists initiating a cultural 
exchange between Ethiopian-Israeli teens and their native Israeli 
counterparts.

Russia
    <bullet> In conjunction with the Bay Area Council for Jewish Rescue 
and Renewal, the San Francisco Police Department and San Francisco 
District Attorney, ADL participates in the Climate of Trust Russian 
Hate Crime Training for Law Enforcement professionals.
    In conjunction with CEJI, Peer Training programs will begin in 
Hungary, Poland, Ireland and the Czech Republic this year.
    In every country materials are translated and culturally adapted.

    Senator Allen. Thank you, Mr. Foxman. Your entire statement 
and recommendations will be entered into the record. Thank you 
for your testimony.
    Now, I'd like to hear from Mr. Harris.

STATEMENT OF DAVID A. HARRIS, EXECUTIVE DIRECTOR, THE AMERICAN 
                 JEWISH COMMITTEE, NEW YORK, NY

    Mr. Harris. Thank you, Mr. Chairman.
    I, too, am honored to appear before this subcommittee 
today, and thank you for the opportunity.
    I have the privilege of speaking on behalf of the American 
Jewish Committee, the nation's oldest human relations 
organization. With offices in 33 cities in the United States 
and 14 overseas posts, including seven in Europe, we have an 
eye on the world.
    For nearly a century, Mr. Chairman, we have struggled 
against the scourge of anti-Semitism and its associated 
pathologies by seeking to advance the principles of democracy, 
the rule of law, and pluralism; by strengthening ties across 
ethnic, racial, and religious lines among people of good will; 
and by shining the spotlight of exposure on those who preach or 
practice hatred and intolerance.
    Mr. Chairman, never in recent memory has that work been 
more important. We have witnessed, as others have said today, 
in the last 3 years in particular a resurgence of anti-
Semitism. Some of its manifestations are eerily familiar; 
others appear in new guises. But the bottom line, Mr. Chairman, 
is that Jews throughout the world, and notably in Western 
Europe, are experiencing a level of unease not seen in the 
postwar years.
    I myself have been witness, through my frequent contact 
with Europe, to the changed situation. I've lived in Europe for 
7 years. I speak several European languages. And most recently 
I spent a sabbatical year in Geneva with my family when this 
new outbreak of anti-Semitism occurred. I have seen, within 
that outbreak, a new form of anti-Semitism--the use of 
criticism of Israel and Israeli practices as justification for 
violence against Jews, who become ``legitimate targets by 
virtue of their real or presumed identification with Israel, 
with Zionism, or simply with the Jewish people.''
    Mr. Chairman, European history, as we know so well, 
contains glorious chapters of human development and scientific 
breakthroughs, but it also contains too many centuries filled 
with an ever-expanding vocabulary of anti-Semitism, from the 
teaching of contempt for the Jews, to the Spanish and 
Portuguese Inquisitions, from forced conversions to forced 
expulsions, from restrictions on employment and education to 
the introduction of the ghetto, from blood libels to pogroms, 
and from massacres to the gas chambers at Auschwitz.
    Who better than the Europeans should grasp the history of 
anti-Semitism? Who better than the Europeans should understand 
the slippery slope that can lead to demonization, 
dehumanization, and, ultimately, destruction of a people?
    What then can Europe do at this moment to address the 
changed situation of the past 3 years? First and foremost, it 
can wake up. Precisely because of Europe's history, it is the 
countries of Europe that still could take, however belatedly, 
the lead in confronting and combating the growing tide of 
global anti-Semitism, whatever its source, whatever its 
manifestation. That would be an extraordinarily positive 
development. And given Europe's substantial moral weight in the 
world today, and especially in bodies like the United Nations, 
that could have real impact.
    To date, however, too many European governments and 
institutions have chosen to live in denial or have sought to 
contextualize or even rationalize manifestly anti-Semitic 
behavior.
    Whether anti-Semitism comes in its old and familiar guises 
from the extreme right; in its various disguises from the 
extreme left, including the combustible mix of anti-
Americanism, anti-globalization, and anti-Zionism; or from 
Muslim sources that peddle malicious conspiracy theories 
through schools, mosques, and the media to spread hatred of 
Jews, Europe's voice must be loud, and it must be consistent. 
More importantly, its actions need to match its words.
    One encouraging note in this regard has been the strong 
condemnation, as my colleague just said a moment ago, by some 
individual European governments, including Italy, Spain, the 
Netherlands, Germany, and the United Kingdom, in response to 
the outrageous anti-Semitic remarks of Malaysian Prime Minister 
Mahathir. But, as Senator Biden said, the failure of the 
European Union to speak as one last week must be regarded as a 
profound disappointment and morally indefensible. Silence has 
never destroyed hate.
    Apropos Prime Minister Mahathir's speech, it reminds us 
once again that, tragically, the center of gravity of anti-
Semitism today lies within the Islamic world. And I would 
respectfully urge the larger Committee on Foreign Relations to 
consider, at the earliest possible moment, a separate hearing 
on this pressing issue.
    Mr. Chairman, preserving the memory of the Holocaust is 
highly laudable, as many European countries have sought to do 
through national days of commemoration, educational 
initiatives, as Ambassador-Designate O'Donnell spoke of, and 
memorials and monuments, but demonstrating sensitivity for the 
legitimate fears of living Jews is no less compelling a task. 
Whether it is a relatively large Jewish community in France, or 
a tiny remnant Jewish community in Greece, the fact remains 
that no Jewish community today comprises more than 1 percent of 
the total population of any European country, if that. And many 
remain deeply scarred by the lasting impact of the Holocaust on 
their numbers, their institutions, and, not least, their 
psyche.
    When the Greek Jewish community awoke one morning shortly 
after 9/11 to read mainstream press accounts filled with wild 
assertions of Jewish or Israeli complicity in the plot to 
attack America, they understandably felt shaken and vulnerable, 
even if the charges were patently false. With fewer than 5,000 
Jews remaining in Greece after the devastation wrought by the 
Holocaust in a nation of over 10 million, is it any wonder that 
these Jews might worry for their physical security at just such 
a moment?
    Second, political leaders need to set an example. Joschka 
Fischer, the Foreign Minister of Germany, is someone who does 
have a grasp of the lessons of European history--certainly when 
it comes to the Jews--and he also understands Israel's current 
difficulties and dilemmas. He has not hesitated to speak out, 
to write, and to act.
    After all, it is political leaders who set the tone for a 
nation. By their actions or inactions, they send a clear and 
unmistakable message to their fellow citizens. But how many 
such principled and outspoken leaders can we point to today? I 
can count no more than the fingers on my two hands. And, to the 
contrary, when a French Ambassador to Britain is not penalized 
for trashing Israel in obscene terms, what is the message to 
the French people?
    Third, many European countries have strict laws, stricter 
than our own country, regarding anti-Semitism, racism, and 
Holocaust denial. In fact, to its credit, the French Parliament 
recently toughened the nation's laws still further. These laws 
throughout Europe must be used.
    In that regard, we were pleased to hear French President 
Jacques Chirac, at a meeting last month in New York, speak now 
of a ``zero-tolerance policy'' toward acts of anti-Semitism, 
and penalties for those found guilty of such acts that would 
be, he said, ``swift and severe.'' Better late than never.
    No one should ever again be compelled to question the 
determination of European countries to investigate, prosecute, 
and seek maximum penalties for those involved in incitement and 
violence. To cite one specific example, we are watching, with 
particular interest, what the British home office will do about 
two British Muslim youths who were quoted earlier this year on 
page 3 of the New York Times--May 12, 2003--openly calling for 
the murder of Jews and whose cases were brought to the 
attention of the British authorities in the spring.
    Fourth, Europe faces an enormous long-term challenge in 
light of major socio-demographic changes. This will require 
strategies for acculturation and education in the norms and 
values of postwar democratic Europe, including inculcating a 
spirit of tolerance and mutual respect.
    A recent book in France, the English title of which is 
``The Lost Territories of the Republic,'' illustrates the 
degree of challenge facing schools and teachers in educating 
new generations of young French who have recently arrived in 
the country regarding Jews, French history, including the 
Dreyfus trial, the Holocaust, the status of women, and 
religious tolerance generally.
    We are working with some schools in Europe, as I know the 
Anti-Defamation League is as well, in an effort to share our 
experience in America and to expand the zone of tolerance and 
mutual understanding.
    And, finally, all countries that aspire to the highest 
democratic values, including, but not limited to, European 
nations, must constantly remind themselves that anti-Semitism 
is a cancer that may begin with Jews, but never ends with Jews. 
Anti-Semitism, left unchecked, metastasizes and eventually 
afflicts the entire democratic body. Given the global nature of 
anti-Semitism, there is an opportunity here for the democratic 
nations of the world to act cooperatively.
    The United States, to its great credit, has always shown 
leadership in this regard in the postwar period. It has been an 
issue that unites our legislative and executive branches and 
our main political parties.
    Much discussion has been heard today about the OSCE 
process. This is a step forward, offering the chance to assess 
developments, compare experiences, and set forth both short- 
and long-term strategies for combating anti-Semitism. This 
mechanism, while not in itself a panacea, should be regularized 
for as long as necessary and ought to be viewed as an important 
vehicle for addressing the issue, but by no means the only one. 
And we should always remember that such meetings are a means to 
an end, not ends unto themselves.
    Mr. Chairman, I have deliberately omitted any reference to 
the nations of the former Soviet Union, because my colleague 
Mark Levin will address that subject in his testimony.
    But before closing, let me offer a positive note regarding 
some of the nations of Central Europe, ten of which have been 
included in the first and second rounds of NATO enlargement. 
And I am proud that the American Jewish Committee supported 
both rounds of NATO enlargement. While the history of anti-
Semitism in many countries in this region runs very deep 
indeed, we've witnessed important progress in recent years, 
particularly with the collapse of communism and the ensuing 
preparations for membership in both NATO and the European 
Union. There has been a praiseworthy effort by the countries of 
Central Europe to reach out to Israel and to the larger Jewish 
world, and to encourage the rebuilding of Jewish communities 
that suffered enormously under Nazi and, later, Communist rule.
    In other words, there's some good news to report here. And 
one of the reasons for this good news has been the welcome 
recognition by post-Communist leaders that their commitment to 
building truly open and democratic societies will be judged in 
part by how they deal with a range of Jewish issues emanating 
from the Nazi and Communist eras.
    Yet problems remain. In some countries, extremist voices 
seek votes and attempt to rehabilitate Nazi collaborators, but, 
fortunately, they are in a distinct minority. And some 
countries lag behind in bringing to closure the remaining 
restitution issues arising from Nazi and, later, Communist 
seizure of property. We hope these matters will soon be 
addressed with the ongoing encouragement of our government.
    Mr. Chairman, by convening this hearing today, the United 
States has once again underscored its vital role in defending 
basic human values and human rights around the world. Champions 
of liberty have always looked to our great country to stand 
tall and strong in the age-old battle against anti-Semitism. In 
examining the scope of anti-Semitism today and exploring 
strategies for combating it, this subcommittee, under your 
leadership, looms large as a beacon of hope and a voice of 
conscience. As always, the American Jewish Committee stands 
ready to assist you and your distinguished colleagues in your 
admirable efforts.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Harris follows:]

Prepared Statement of David A. Harris, Executive Director, The American 
                     Jewish Committee, New York, NY

    Mr. Chairman, permit me to express my deepest appreciation to you 
and to your distinguished colleagues for holding this important and 
timely hearing, and for affording me the opportunity of testifying 
before the Subcommittee on European Affairs of the Committee on Foreign 
Relations regarding the state of anti-Semitism in Europe.
    I have the privilege of speaking on behalf of the American Jewish 
Committee, the oldest human relations organization in the United 
States. I am proud to represent over 125,000 members and supporters of 
the American Jewish Committee and a worldwide organization with 33 
offices in the United States and 14 overseas posts, including offices 
in Berlin, Geneva, and Warsaw, and association agreements with the 
European Council of Jewish Communities and with the Jewish communities 
in Bulgaria, the Czech Republic, Slovakia, and Spain.
    Founded in 1906, our core philosophy for nearly a century has been 
that wherever Jews are threatened, no minority is safe. We have seen 
over the decades a strikingly close correlation between the level of 
anti-Semitism in a society and the level of general intolerance and 
violence against other minorities. Moreover, the treatment of Jews 
within a given society has become a remarkably accurate barometer of 
the state of democracy and pluralism in that society. In effect, though 
it is a role we most certainly did not seek, it can be said that by 
dint of our historical experience, Jews have become the proverbial 
miner's canary, often sensing and signaling danger before others are 
touched.
    For nearly a century we have struggled against the scourge of anti-
Semitism and its associated pathologies by seeking to advance the 
principles of democracy, the rule of law, and pluralism; by 
strengthening ties across ethnic, racial, and religious lines among 
people of good will; and by shining the spotlight of exposure on those 
who preach or practice hatred and intolerance.
    Never in recent memory has that work been more important. We have 
witnessed in the last three years in particular a surge in anti-
Semitism. Some of its manifestations are eerily familiar; others appear 
in new guises. But the bottom line is that Jews throughout the world, 
and notably in Western Europe, are experiencing a level of unease not 
seen in the postwar years.
    I myself have been witness to the changed situation. I spent a 
sabbatical year in Europe in 2000-01, and continue to travel regularly 
to Europe, stay in close contact with European political and Jewish 
leaders, and follow closely the European media.
    What sparked this new sense of unease? It cannot be separated from 
developments on the ground in the Middle East.
    If I may be permitted to generalize, too many European governments, 
civic institutions, and media outlets rushed to condemn Israel after 
the promising peace talks of 2000 collapsed, despite the determined 
efforts of the Israeli government, with support from the United States, 
to reach a historic agreement with the Palestinians. Once the 
Palestinians returned to the calculated use of violence and terror in 
September 2000, for many Europeans it was as if those peace talks had 
never taken place. It was as if there had never been a proposal pushed 
relentlessly by Prime Minister Ehud Barak, with strong backing from 
President Bill Clinton, to achieve a two-state solution that included a 
partition of Jerusalem. And it was as if Chairman Yasir Arafat had not 
even participated in the talks, much less sabotaged them by rejecting 
out of hand the landmark deal offered him.
    Israel was widely portrayed in Europe as an ``aggressor'' nation 
that was ``trampling'' on the rights of ``stateless'' and ``oppressed'' 
Palestinians. As Israel faced the daunting challenge of defending 
itself against terrorism, including suicide bombings, some in Europe 
went still further, seeking to deny it the right reserved to all 
nations to defend itself against this vicious onslaught. Such an 
attitude, if you will, became a new form of anti-Semitism.
    I fully understand that Israel's actions, like those of any nation 
trying to cope with a similar threat, may engender discussion and 
debate or, for that matter, criticism, but what was taking place in 
these circles was something far more malicious. Tellingly, those 
engaged in portraying Israel as the ``devil incarnate'' for every 
imaginable ``sin'' were totally silent when it came to the use of 
Palestinian suicide bombers to kill innocent Israeli women, men, and 
children; they were even less prepared to address other compelling 
issues in the region surrounding Israel, such as Syria's longstanding 
and indefensible occupation of neighboring Lebanon or persistent 
patterns of gross human rights violations in such countries as Iran, 
Iraq, Saudi Arabia, and Syria.
    The frenzied rhetoric, especially in the media and human rights 
circles, kept escalating, to the point where some, including a 
Portuguese Nobel laureate, began recklessly using Nazi terminology to 
describe Israeli actions. Others, particularly at the time of the 
stand-off at the Church of the Nativity, reawakened the deadly deicide 
charge, which had been put to rest by Vatican Council II in 1965.
    In highly publicized incidents, a few British intellectuals and 
journalists called into question Israel's very right to exist, and 
there were a number of attempts to impose boycotts on Israeli 
academicians and products. In one notorious case at Oxford University, 
a professor sought to deny admission to a student applicant based 
solely on the grounds that he had served in the Israel Defense Forces. 
Of course, we remember the shocking expletive used by the French 
ambassador to the Court of St. James regarding Israel, just as we 
recall that he was never punished by the French Foreign Ministry. And 
who can forget the travesty in Belgium as Prime Minister Ariel Sharon 
and a number of Israel military officials were threatened with legal 
action under the country's universal jurisdiction law, as were several 
prominent Americans, including former President George Bush, until the 
country's political leaders finally came to their senses and amended 
the law?
    I could go on at length describing a highly charged atmosphere in 
Western Europe. Israel was accused, tried, and convicted in the court 
of public opinion. Furthermore, that court was encouraged, however 
inadvertently, by governments too quick to condemn Israel's defensive 
actions and by media outlets that, with a few notable exceptions, 
presented consistently skewed coverage, frequently blurring the line 
between factual reporting and editorializing. It would be enough to 
follow the reporting of some prominent Greek, Italian, Spanish, or even 
British media outlets for a few days to get a feeling for the 
inherently unbalanced, at times even inflammatory, coverage of the 
Middle East. The coverage of the Jenin episode in the spring of 2002 
was particularly revealing. Israel was accused of everything from 
``mass murder'' to ``genocide,'' when the reality was a far cry from 
either, as confirmed by outside human rights experts.
    Mr. Chairman, I personally witnessed a pro-Palestinian 
demonstration in Geneva, just opposite the United Nations headquarters, 
in which the chant alternated between ``jihad, jihad'' and ``Mort aux 
juifs,'' ``Death to the Jews.'' Similar chants could be heard in the 
streets of France and Belgium. To the best of my knowledge, no action 
was taken by the authorities in any of these cases.
    My children attended a Swiss international school where a 16-year-
old Israeli girl was threatened with a knife by a group of Arab pupils. 
When she complained to school officials, the response was, and I quote, 
``This is a matter between countries. It does not involve our school.'' 
My youngest son had a more or less similar experience on the campus 
with, again, no action taken by the school authorities.
    Is it any wonder that in such an atmosphere many Jews in the 
countries of Western Europe became concerned on two fronts? First, they 
were worried for their physical safety as they encountered a new form 
of anti-Semitism--the use of criticism of Israel and Israeli practices 
as justification for violence against Jews, who became ``legitimate'' 
targets by virtue of their real or presumed identification with Israel, 
Zionism, or simply the Jewish people. This became evident in the many 
documented threats and attacks that took place against Jews and Jewish 
institutions in Europe, especially France. And second, to varying 
degrees, they were no longer quite as certain that they could rely on 
the sympathy and understanding of their governments for the physical 
and, yes, emotional security they needed--the certainty that the state 
would be there to ensure their protection.
    Strikingly, those governments and institutions to a large degree 
professed ignorance of the problem.
    For example, the American Jewish Committee met in November 2001 
with the then-foreign minister of France. We raised our concern about 
growing threats to Jews, as well as growing tolerance for intolerance. 
In turn, we were treated to a revealing lecture from the minister. 
Initially, he denied there was any problem at all, though the facts 
contradicted him. Jews in France were being assaulted, synagogues were 
being torched, and Jewish parents were anxious about the safety of 
their children. Then he tried to muddy the problem by suggesting that 
crime had increased in France and Jews were among its many victims, but 
certainly not singled out. That, too, was belied by the facts, namely 
the specificity of the attacks against Jews and Jewish institutions. 
And finally, he attempted to rationalize the problem by linking it to 
the Middle East and inferring that, tragic though the anti-Jewish 
incidents were, they were an inevitable consequence of the Israeli-
Palestinian conflict and would likely continue until that conflict was 
resolved.
    Frankly, we were appalled by this response. Could it be that the 
foreign minister of a country which had given birth to the Declaration 
of the Rights of Man, and which had been the first European country to 
extend full protection to its Jewish community, had been unwilling or 
incapable of understanding and responding to what was going on in his 
own nation? In reality, France fell short in its responsibility to 
provide protection to its citizens from the fall of 2000 until the 
summer of 2002, a 20-month period during which many French Jews felt 
abandoned and left to their own devices.
    Meanwhile, French officials created a straw man--the false charge 
that France was being depicted as an anti-Semitic country--and went 
about refuting it. In reality, those concerned with developments in 
France were talking about anti-Semitic acts within France and never 
sought to describe the nation as a whole as anti-Semitic, which would 
have been an unfair and inaccurate characterization.
    While much attention has been focused on France because it is home 
to Europe's largest Jewish community and the greatest number of violent 
acts against Jews have taken place there in the past three years, the 
discussion by no means should be limited to France. During this period, 
we have also met with European Union commissioners in Brussels to 
discuss our concerns, but with little apparent success. Further, we 
have met with government leaders in other Western European countries 
and, with the exception of Germany, our efforts to call attention to a 
festering problem have fallen on largely deaf ears.
    The obvious question is why there has been such a widespread 
failure to acknowledge and address a problem as obvious as it is real.
    Could it be linked to hostility to Israel, particularly after the 
left-of-center Barak government gave way to the right-of-center Sharon 
government? Could it be an unwillingness to confront the reality that 
within the remarkable zone of prosperity and cooperation created by the 
European Union, a cancer was still lurking that needed treatment? Could 
it be a fear of antagonizing growing Muslim populations in countries 
like Belgium and France, where they were rapidly becoming an electoral 
factor and, in some cases, were proving restive because of their 
difficulty in integrating? Or could it be a subliminal reaction, 
perhaps, to the decade of the 1990s when many countries had been 
compelled to look at their wartime actions in the mirror yet resented 
those who held up the mirror?
    Whatever the reason, it is clear that anti-Semitism still lurks in 
Europe, but not only in Europe, of course. Its main center of gravity 
today is in the Muslim world. The speech earlier this month by 
Malaysian Prime Minister Mahathir Mohamad at the Organization of the 
Islamic Conference was a prime example of the use of classical anti-
Semitic themes. And not only did none of the many political leaders in 
attendance walk out of the hall to protest his offensive remarks, but 
he was greeted with a standing ovation and, subsequently, laudatory 
comments to the media by such leading officials as Egypt's foreign 
minister.
    European history, as we know so well, contains glorious chapters of 
human development and scientific breakthroughs. But it also contains 
too many centuries filled with an ever expanding vocabulary of anti-
Semitism--from the teaching of contempt of the Jews to the Spanish and 
Portuguese Inquisitions; from forced conversions to forced expulsions; 
from restrictions on employment and education to the introduction of 
the ghetto; from blood libels to pogroms; and from massacres to the gas 
chambers at Auschwitz.
    Who better than the Europeans should grasp the history of anti-
Semitism? Who better than the Europeans should understand the slippery 
slope that can lead to demonization, dehumanization, and, ultimately, 
destruction of a people?
    What, then, can Europe do at this moment to address the changed 
situation of the past three years?
    First and foremost, precisely because of their history, it is the 
countries of Europe that could take the lead in confronting and 
combating the growing tide of global anti-Semitism, whatever its 
source, whatever its manifestation. That would be an extraordinarily 
positive development. And given Europe's substantial moral weight in 
the world today, it could have real impact.
    Whether anti-Semitism comes in its old and familiar guises from the 
extreme right; in its various disguises from the extreme left, 
including the combustible mix of anti-Americanism, anti-globalization, 
and anti-Zionism; or from Muslim sources that peddle malicious 
conspiracy theories through schools, mosques, and the media to spread 
hatred of Jews, Europe's voice must be loud and consistent. Its actions 
need to match its words.
    To date, experience has shown that a strong European response is 
far more likely when anti-Semitism emanates from the extreme right than 
when it comes from either the extreme left or the Islamic world. The 
reaction must be the same regardless of who is the purveyor.
    Preserving the memory of the Holocaust is highly laudable, as many 
European countries have sought to do through national days of 
commemoration, educational initiatives, and memorials and monuments. 
But demonstrating sensitivity for the legitimate fears of living Jews 
is no less compelling a task. Whether it is a relatively large Jewish 
community in France or a tiny, remnant Jewish community in Greece, the 
fact remains that no Jewish community comprises more than one percent 
of the total population of any European country, if that, and many 
remain deeply scarred by the lasting impact of the Holocaust on their 
numbers, their institutions, and, not least, their psyche.
    When the Greek Jewish community awoke one morning shortly after 9/
11 to read mainstream press accounts filled with wild assertions of 
Jewish or Israeli complicity in the plot to attack America, they 
understandably felt shaken and vulnerable, even if the charges were 
patently false. With less than five thousand Jews remaining in Greece 
after the devastation wrought by the Holocaust in a nation of over ten 
million, is it any wonder that these Jews might worry for their 
physical security at such a moment?
    Second, political leaders need to set an example. Joschka Fischer, 
the foreign minister of Germany, is someone who has a grasp of the 
lessons of history when it comes to Europe and the Jews, and he 
understands Israel's current difficulties and dilemmas. He has not 
hesitated to speak out, to write, and to act. After all, it is 
political leaders who set the tone for a nation. By their actions or 
inactions, they send a clear and unmistakable message to their fellow 
citizens. When a French ambassador is not penalized for trashing Israel 
in obscene terms, what are the French people left to conclude? The same 
can be said of Lech Walesa, the former Polish president, who in 1995 
remained silent in the face of a fiery anti-Semitic sermon delivered in 
his presence by his parish priest in Gdansk. He only reluctantly 
addressed the issue ten days later after pressure from several 
governments, including the United States.
    Third, many European countries have strict laws on the books 
regarding anti-Semitism, racism, and Holocaust denial. In fact, to its 
credit, the French parliament recently toughened the nation's laws 
still further. These laws throughout Europe must be used. In that 
regard, we were pleased to hear French President Jacques Chirac, at a 
meeting last month in New York with American Jewish leaders, speak now 
of a ``zero-tolerance'' policy toward acts of anti-Semitism and 
penalties for those found guilty of such acts that would be ``swift and 
severe.'' He also expressed concern about the unchecked influence of 
the Internet in spreading anti-Semitism and other forms of racism, and 
indicated a desire to explore means for restricting this influence.
    No one should ever again be compelled to question the determination 
of European countries to investigate, prosecute, and seek maximum 
penalties for those involved in incitement and violence.
    To cite one specific example, we are watching with particular 
interest what the British Home Office will do about two British Muslim 
youths who were quoted earlier this year in the New York Times (May 12, 
2003) calling for the murder of Jews and whose cases were brought to 
the attention of the authorities.
    And finally, all countries that aspire to the highest democratic 
values, including but not limited to European nations, must constantly 
remind themselves that anti-Semitism is a cancer that may begin with 
Jews but never ends with Jews. Anti-Semitism left unchecked 
metastasizes and eventually afflicts the entire democratic body.
    Given the global nature of anti-Semitism, there is an opportunity 
for the democratic nations of the world to work cooperatively. The 
United States has always shown leadership in this regard. It has been 
an issue that unites our executive and legislative branches and our 
main political parties.
    One venue that currently exists for such cooperation is the 55-
member Organization for Security and Cooperation in Europe (OSCE), 
which in June held its first conference devoted exclusively to the 
subject of anti-Semitism. This is a step forward, offering the chance 
to assess developments, compare experiences, and set forth short- and 
long-term strategies for combating anti-Semitism. This mechanism, while 
not in itself a panacea, should be regularized for as long as 
necessary, and ought to be viewed as an important vehicle for 
addressing the issue, but by no means the only one.
    Mr. Chairman, I have deliberately omitted any reference to the 
nations of the Former Soviet Union because my colleague, Mark Levin of 
NCSJ, will address that subject in his testimony. But let me offer a 
positive note regarding the nations of Central Europe, ten of which 
have been included in the first and second rounds of NATO enlargement. 
I should add in this context that the American Jewish Committee was 
among the first nongovernmental organizations in this country to 
enthusiastically support both rounds of NATO enlargement.
    While the history of anti-Semitism in many countries in this region 
runs very deep indeed, we have witnessed important progress in recent 
years, particularly with the collapse of communism and the ensuing 
preparations for membership in both NATO and the European Union. There 
has been a praiseworthy effort by the countries of Central Europe to 
reach out to Israel and the larger Jewish world, and to encourage the 
rebuilding of Jewish communities that suffered enormously under Nazi 
occupation and later under communist rule.
    In other words, there is good news to report here. And one of the 
reasons for this good news has been the welcome recognition by post-
communist leaders that their commitment to building truly open and 
democratic societies will be judged in part by how they deal with the 
range of Jewish issues resulting from the Nazi and communist eras.
    Yet problems remain. In some countries, extremist voices seek votes 
and attempt to rehabilitate Nazi collaborators, but, fortunately, they 
are in the distinct minority. And some countries lag behind in bringing 
to closure the remaining restitution issues arising from Nazi and, 
later, communist seizure of property. We hope these matters will soon 
be addressed, with the ongoing encouragement of the United States 
government.
    Mr. Chairman, by convening this hearing today, the United States 
Senate has once again underscored its vital role in defending basic 
human values and human rights around the world. Champions of liberty 
have always looked to our great country to stand tall and strong in the 
age-old battle against anti-Semitism.
    In examining the scope of anti-Semitism today and exploring 
strategies for combating it, this subcommittee, under your leadership, 
looms large as a beacon of hope and a voice of conscience. As always, 
the American Jewish Committee stands ready to assist you and your 
distinguished colleagues in your admirable efforts.
    Thank you, Mr. Chairman.

                               APPENDIX A

     Anti-Americanism and Anti-Semitism: A New Frontier of Bigotry

                       By Dr. Alvin H. Rosenfeld*

    * Alvin H. Rosenfeld is a professor of English and Jewish Studies 
and Director of the Institute for Jewish Culture and Arts at Indiana 
University. He was named by President George W. Bush to the United 
States Holocaust Memorial Council in May 2002. This essay was published 
by the American Jewish Committee in August 2003.

    ``Hitler Had Two Sons: Bush and Sharon'' reads the slogan on a so-
called ``peace-poster'' carried in European anti-war rallies; and in 
this and countless other crude formulations of a similar nature, one 
finds expressed a hostility toward America, Israel, and the Jews that 
has been gaining force across much of Europe in the last few years. The 
American-led war against Saddam Hussein's Iraq, launched in March 2003, 
may have brought this animus to a head, but it was in evidence well 
before the war began. Indeed, an American Jew visiting Europe in the 
spring of 2002 would have been justified in feeling doubly uneasy, for 
these passions were then at their most intense: Anti-Semitism of a 
vocal and sometimes violent variety was in greater evidence than at any 
time since the end of World War II; and anti-Americanism was making 
itself felt as an increasingly common and acceptable form of public 
expression.
    As I intend to show, anti-Semitism and anti-Americanism reveal 
certain structural similarities and often take recourse to a common 
vocabulary of defamation and denunciation. While their developmental 
histories may differ, the hostilities they release may converge, driven 
as they are by the same negative energies of fear, anger, envy, and 
resentment. We are witnessing such a convergence today, with 
consequences that have the potential to do serious harm.
    In the news media, over the Internet, in street demonstrations, and 
in common parlance, anti-Semitism and anti-Americanism have taken on 
global dimensions and now have a worldwide reach. They have become 
intimately bound up with one another, so much so that it sometimes 
seems that the growing hatred of America is but another form of 
Judeophobia--and vice versa. Precisely what drives these animosities is 
not always clear, but their resurgence in our time is an ominous 
development and should not be treated lightly. Observing the extremity 
of some of the rhetoric being voiced these days about America, Israel, 
and the Jews, one becomes aware that it moves well beyond principled 
disagreements with American or Israeli policies and into the realm of 
the fantastic.
    To demonstrate how anti-American and anti-Semitic attitudes mingle 
in this bizarre realm and to expose the kinds of trouble they can 
create, I turn first to an examination of these trends in Germany, a 
country in which even the slightest offense of this nature makes one 
sit up and take notice. Thereafter I shall look at some of the same 
issues on a broader front, examining in particular France, the European 
country that seems most seriously infected with anti-American and anti-
Semitic biases.\1\

                      THE SIGNIFICANCE OF GERMANY

    Europe's largest and economically most powerful country, Germany 
exerts a sizable influence on the continent's political priorities and 
some of its more prominent social and cultural trends. In addition, its 
close diplomatic alliance with France and determined effort to act with 
that country as a European counterweight to American interests in 
foreign affairs puts Germany in the foreground of attention. Add to 
these reasons Germany's Nazi past, and it should be clear why any signs 
of hostility to Jews and others within its borders warrant serious 
attention. German authorities are well aware of the damage their 
country could suffer if these tendencies get out of hand, and they 
usually make special efforts to restrain the open expression of anti-
Semitic and anti-American biases.
    These animosities sometimes seem to have a will of their own, 
however, and erupt periodically in ways that can introduce a note of 
discord into the country's cultural life and disrupt its normally well-
managed international relations. Tensions of this kind surfaced this 
past year on both the cultural and diplomatic fronts.
    I was in Germany for two weeks in May 2002, when some of these 
trends were coming to the fore. Before describing what I observed, 
however, it will be helpful to advance the calendar by a few months and 
recall that on September 22, 2002, German voters reelected Gerhard 
Schroder to a second term as chancellor. Schroder's victory was by no 
means a certainty in the months leading up to the election. In fact, 
for most of that time, the polls showed him several points behind his 
chief rival, Edmund Stoiber, the prime minister of Bavaria and the 
candidate of the conservative alliance of the Christian Democratic 
Union and the Christian Social Union parties. In the final weeks of the 
campaign, Schroder closed this gap and ultimately prevailed.
    According to most commentators, he won the election as a result of 
two key factors: his media-savvy handling of a crisis in the eastern 
part of the country brought on by a destructive flood; and his clever 
but costly strategy of running the last leg of his race not so much 
against Stoiber as against President George W. Bush. The American 
president, who was accused of ``playing around with war,'' became a 
prominent election issue, and Schroder did not hesitate to level heavy 
rhetorical assaults against him. The chancellor declared that he would 
not ``click his heels'' to an American commander-in-chief and 
categorically refused any German support for American military 
``adventures'' in Iraq, even if such action had the sanction of a 
United Nations mandate. These moves were calculated to attract voters 
on the left of the German political spectrum, among whom a militant 
pacifism is part of the cultural norm. (In fact, an ingrained pacifism 
has become a part of the postwar mentality of much of the younger 
generation of Germans.) At the same time, Schroder's evocation of a 
special ``German way'' in the formulation of foreign policy might sit 
well with nationalist sentiment on the political right. His open 
defiance of the United States would also appeal to voters in the former 
communist states in the eastern part of Germany, who had been educated 
to see America as the enemy and still hold lingering resentments 
against it. The strategy worked, and Schroder managed to squeak through 
by the thinnest of margins.
    But at a price. Angela Merkel, leader of the opposition Christian 
Democrats, went on record on the day of the election as saying, 
``German-American relations were never as bad as they are this evening. 
. . . This is a high price to pay for this campaign.'' \2\ Wolfgang 
Schauble, a fellow Christian Democrat, agreed, stating, ``German-
American relations are at their lowest level since the founding of the 
state in 1949.'' \3\ Coming from two prominent members of the political 
opposition, these views are not surprising, but other, less partisan 
voices confirmed this negative assessment. Christian Hacke, a political 
scientist at Bonn University, for instance, declared: ``For the first 
time in fifty years a German government has become anti-American in 
both style and substance. This is a catastrophe.'' \4\ Seemingly 
agreeing with this sentiment, Donald Rumsfeld, the U.S. secretary of 
defense, saw German-American relations as ``poisoned'' and refused to 
meet with Peter Struck, his German counterpart, at an international 
meeting of allied defense ministers in Warsaw shortly after Schroder's 
victory.
    Whether for opportunistic or other reasons, a change of attitude 
toward America was becoming apparent in Germany. Moreover, while 
Schroder certainly exploited anti-American feelings for his own 
purposes, he did not have to newly create them. Such sentiments were 
there already and, as Henry Kissinger wrote at the time, may now be a 
``permanent feature of German politics.'' \5\ It did not take long for 
these sentiments to surface aggressively under the sanction that the 
German chancellor's blunt and highly public criticism of the American 
president had seemed to give them. In one especially notorious 
incident, Schroder's justice minister, Herta Daubler-Gmelin, reportedly 
compared President Bush's tactics toward Iraq to those of Hitler: 
``Bush wants to divert attention from his domestic problems. It's a 
classic tactic. It's one that Hitler also used.'' \6\ In another 
instance, Ludwig Stiegler, a member of Parliament from Mr. Schroder's 
party, likened Mr. Bush to an imperialist Roman emperor bent on 
subjugating Germany. (Embarrassed by these incidents, Schroder relieved 
both of his colleagues of their jobs in the postelection period, but by 
then the damage had already been done.) If further proof were needed 
that the climate had turned nasty, it was provided by Rudolf Scharping, 
Schroder's former defense minister, who reportedly stated, at a meeting 
in Berlin on August 27, 2002, that President Bush was being encouraged 
to go to war against Iraq by a ``powerful--perhaps overly powerful--
Jewish lobby'' in the United States.\7\ In Scharping's formulation, 
reminiscent of older, far-right claims about excessive Jewish power, 
anti-Americanism and anti-Semitism come together as common bedfellows.

                        ANTI-BUSH DEMONSTRATIONS

    I was in Berlin on May 22, 2002, when President Bush came for a 
stay of less than twenty-four hours. It was his first trip to Germany 
and followed an earlier visit to the White House by Chancellor 
Schroder. (As matters transpired, it was probably to be the last visit 
to the White House by Schroder or any other German government official 
for a long time.) Anti-Bush sentiments, including popular derision of 
the American president as an unruly Texas ``cowboy,'' had surfaced long 
before this visit and intensified notably during the president's brief 
stay in Berlin. Ten thousand German police, some in riot gear and 
backed up by armored vehicles, were assigned to safeguard him. The 
center of Berlin was cleared of all traffic, and the area around the 
Brandenburg Gate, where the president's hotel was located, was closed 
off almost entirely.
    Public protests began on Tuesday and carried on for two more days. 
On Wednesday, a crowd estimated at 20,000 was out on the streets, most 
peacefully demonstrating, but some determined to be more aggressive in 
voicing their opposition to the American president. Signs denouncing 
Bush as a ``terrorist'' and a ``warmonger'' were on display, together 
with others declaring that ``war is terror'' and demanding a ``stop 
[to] Bush's global war.'' By now, such public displays of oppositional 
politics had become common fare throughout Europe and were hardly 
restricted to Germany. But to be in Berlin at the same time as the 
American president and observe that it was deemed necessary to field a 
small army of German police to protect him was startling. One is no 
longer surprised to learn of virulent anti-Americanism in places like 
Cairo, Tehran, and Ramallah, but to witness the public torching of 
America's flag in the capital of a European country that supposedly is 
a close ally was disconcerting and brought me to reflect on what was 
stirring in Germany to fuel such passions.
    German spokesmen took pains at the time to explain that these 
protests were not directed at America per se or at the American people 
but only against specific policies being promoted by President Bush. In 
part, such explanations ring true, but only in part. There is 
widespread dislike of what is commonly denounced as American 
``unilateralism'' and open displeasure over America's pulling away from 
international agreements on the environment, ballistic missiles, trade, 
and other things. Many West Europeans do not take well to this American 
president's personal style any more than they like his policies, and 
this generation of Germans, in particular, has been nervous about what 
they see as his penchant for aggressive use of the military to solve 
international problems.
    These and a host of other differences had contributed to a widening 
gap between Washington and Europe--a ``continental drift'' that had 
preceded President Bush's assumption of office, but his coming into 
power brought numerous problems to the fore. It was precisely to quiet 
German nerves on these matters, and especially on the matter of a 
possible war with Iraq, that President Bush came to Berlin and 
addressed the German Parliament. As one commentator put it at the time, 
he could not possibly settle people's minds on all of these issues with 
even the best of speeches, but he gave a ``moving and important speech, 
if there's anyone left in Europe to be moved.'' \8\
    The skepticism in these words is justified, for the more closely 
one looks at anti-American rhetoric, the more one sees that it often 
moves beyond criticism of specific policies to expose envies, fears, 
and resentments of a deeper kind. These are not new, and no matter what 
it is that may prompt them, their recurrence and exaggerated expression 
suggest that a cultural repetition compulsion is at play. Consider the 
following news items, for instance, taken from the German press:

        A cover page of Stern magazine . . . showed an American missile 
        piercing the heart of a dove of peace. . . . Prominent German 
        politicians also freely [have] expressed such attitudes. Oskar 
        Lafontaine, deputy cochairman of the Social Democratic Party 
        [SPD], called the United States ``an aggressor nation.'' Rudolf 
        Hartnung, chairman of the youth organization of the SPD, 
        accused the United States of ``ideologically inspired 
        genocide'' in Central America, among other places. Another SPD 
        politician, state legislator Jurgen Busack, had this to say: 
        ``The warmongers and international arsonists do not govern in 
        the Kremlin. They govern in Washington. The United States must 
        lie, cheat, and deceive in an effort to thwart resistance to 
        its insane foreign policy adventures. The United States is 
        headed for war.'' \9\

    Students of German political history will recognize that, while the 
language quoted is of a piece with today's accusatory rhetoric, it 
actually comes from the Germany of the early 1980s. Some twenty years 
ago, when another American president was regularly identified with the 
Wild West and denounced as a trigger-happy cowboy, Germany's media and 
many of its political figures were voicing the same charges against 
President Reagan now made against President Bush. The images in both 
cases were virtually identical: Governed by political leaders who are 
not only crude philistines but reckless and aggressive warriors, 
America is a menacing country that threatens world peace. It is for 
this reason that, in confronting German and other European views of 
America, one is tempted to consider anti-Americanism not just as a form 
of cultural and political criticism but as a form of psychopathology.

                     DEFINITION OF ANTI-AMERICANISM

    To understand its nature, let's borrow a working definition of 
anti-Americanism from Paul Hollander's book on the subject: The term 
``anti-Americanism,'' Hollander writes, denotes a ``particular mind-
set, an attitude of distaste, aversion, or intense hostility the roots 
of which may be found in matters unrelated to the actual qualities or 
attributes of American society or the foreign policies of the United 
States. In short, . . . anti-Americanism refers to a negative 
predisposition, a type of bias which is to various degrees unfounded. . 
. . It is an attitude similar to [such other] hostile predispositions 
as racism, sexism, or anti-Semitism.'' \10\
    Hollander is correct in recognizing that anti-Americanism implies 
more than taking a critical view of real American shortcomings, but 
rather has an irrational side. It expresses a sharp distrust and 
dislike not just of what America sometimes does but of what it is 
alleged to be--a mighty but willful, arrogant, self-righteous, 
domineering, and dangerously threatening power. What we confront here 
are fantasies that posit an untamed, ferocious country, unrestrained by 
moral conscience or international laws--in short, an ``American 
abomination'' or ``American peril.'' Observing that America is 
sometimes seen in just such terms, Hollander correctly notes the 
resemblance of anti-Americanism to other kinds of deeply felt aversions 
and hostilities, including those that fuel anti-Semitism. The link 
between these two biases became evident during my time in Germany last 
spring.

             GEORGE BUSH AND ARIEL SHARON: PARALLEL IMAGES

    One way to observe this linkage is to reflect on the two figures 
who, more than any others, seem to occupy the German and general 
European imagination today as larger-than-life figures of menace: 
George Bush and Ariel Sharon. Popular images of the American president 
as a wild man and a warmonger have already been cited. As exaggerated 
as these are, they are at least matched, and sometimes even superceded 
in their extremity, by the images projected of Ariel Sharon. Ever since 
the Israeli prime minister's visit to Jerusalem's Temple Mount, on 
September 28, 2000, Sharon has been regularly described in the German 
media in terms that demonize him as a ``bull,'' a ``bulldozer,'' a 
``warmonger,'' and a ``slaughterer.'' He has been compared to Hitler 
and Nero and said to be ``Israel's highest-ranking arsonist.'' Other 
references peg him as a ``political pyromaniac,'' an ungainly ``old war 
criminal,'' a ``right-wing extremist,'' a ``warhorse,'' and 
``catastrophe personified.'' In addition to these epithets, Sharon is 
frequently referred to in terms of his physical traits and mocked as 
being ``constipated'' and ``pot-bellied,'' a ``fat, lonely old man' 
with the ``sluggish gait of an elephant.'' He is also described as 
being ``politically deranged'' and thirsty for Palestinian blood. 
(According to Die Welt, ``a lot of blood clings to his hands, starting 
from his Kibiya days in the 1950s, to Sabra and Shatila, up to his most 
recent provocation in the mosque in [September] 2000.'') In sum, the 
Israeli prime minister is seen as a loathsome monster running amok, the 
very personification of ``the ugly Israeli.''
    Insofar as Ariel Sharon is seen as representative of his country's 
Jewish populace, Israeli society too is being portrayed as implacably 
brutal and as associated with the rule of war criminals.11 It is little 
wonder, then, that Israel has taken on something like pariah status and 
is sometimes even referred to as ``the most hated country in the 
world.''\12\
    The distinction of being reviled in such terms is one that Israel 
shares with only one other country: the United States of America. The 
two are now commonly denounced as ``outlaw nations'' or, in the 
demonology of Muslim orators, as ``the Great Satan'' and ``the Little 
Satan.''
    German political rhetoric does not generally approach anything so 
extreme, although the German philosopher Peter Sloterdijk not long ago 
named America and Israel as the only two countries today that strike 
him as being ``rogue states.''\13\ More typically, Germans are content 
if they feel they have the right to ``criticize'' Israel. At the same 
time, they bristle at the thought that some of the more extreme forms 
their criticism may take might themselves be subjected to criticism not 
to their liking. In the run-up to the German elections in the spring of 
2002, for instance, when the FDP politician Jurgen Mollemann seemed to 
lend public sanction to the murderous assaults of Palestinian suicide 
bombers against Israeli civilians, Jews in Germany were troubled. 
Michel Friedman, a prominent figure in the Jewish community of 
Frankfurt and the host of a popular television talk show, was 
especially sharp in his criticism of Mr. Mollemann, who in turn 
excoriated Mr. Friedman, declaring that it was figures like Ariel 
Sharon and Friedman himself, ``with his intolerant and malicious 
manner,'' who provoke anti-Semitism in Germany.\14\ Although Mr. 
Mollemann's colleagues in the FDP were slow to react to these ill-
tempered charges, Jews in the country immediately recognized that in 
blaming the Jews for anti-Semitism and then complaining that he was 
being unfairly called to task for doing so, Mollemann was employing a 
tactic from the familiar repertoire of anti-Semitic cliches. At about 
the same time, Martin Walser, a prominent German writer, published a 
highly controversial novel, Tod eines Kritikers (``The Death of a 
Critic''), which liberally exploited this same repertoire by projecting 
an altogether contemptible Jew as one of his main characters. Walser's 
novel was roundly denounced as a ``document of hate'' by some critics 
and defended by others. Before long, a debate about lifting the taboos 
regarding criticism of Israel and Jews living in Germany became another 
in a long series of German debates about anti-Semitism and the burden 
of Holocaust memory on postwar German society.\15\

               PAIRING AMERICA AND ISRAEL AS ROGUE STATES

    To return to Sloterdijk's singling out of America and Israel as 
rogue states: Pairing the two countries in this way is hardly new, nor 
is the temptation to link them as outlaw nations indulged in only by 
German intellectuals. Some thirty years ago, the British historian 
Arnold Toynbee remarked that ``the United States and Israel must be 
today the two most dangerous of the 125 sovereign states among which 
the land surface of this planet is at present partitioned.''\16\ And 
more recently the British columnist Polly Toynbee, granddaughter of 
Arnold, has written that ``ugly Israel is the Middle East 
representative of ugly America.''\17\ Numerous other references of this 
kind could be cited as well, linking the Jewish state and the United 
States as paramount threats to world peace. The message is unsubtle and 
can be handily summed up by a few words on a popular sign-board carried 
at European peace rallies: ``Bush and Sharon, Murderers,'' or, in a 
more extreme formulation of this same charge, ``Bush + Sharon = 
Hitler.''
    What lies behind these obscenities is worth pondering. The easy 
application of Nazi-era references to Israel and America is one of the 
most repugnant features of present-day anti-Semitic and anti-American 
rhetoric. It is also becoming commonplace, and not only in the 
sensationalizing language of the mob talk that often accompanies street 
demonstrations. The Portuguese writer and Nobel Prize laureate Jose 
Saramago famously likened the Israeli siege of Yasir Arafat's compound 
in the West Bank city of Ramallah to nothing less than Nazi actions 
against Jews in Auschwitz.
    The Israeli incursion into Jenin, which cost the lives of twenty-
three Israeli soldiers while killing some fifty-two Palestinians, most 
of them armed fighters, was likened to ``Leningrad'' and denounced as 
``genocide.'' Others in Europe, mainly on the intellectual left, think 
in similarly extravagant terms. When they say ``Israeli'' or ``Jew''--
and in the minds of many, the two have become almost one--they are not 
far from thinking ``oppressor'' or ``murderer.'' The shorthand term for 
this despised type is now ``Sharon'' or, stated simply but perversely, 
``Nazi.''
    President Bush is similarly branded, his visage adorned with 
swastikas and his name changed to ``George W. Hitler.'' As in the case 
of the former German Minister of Justice, such coarse semantic switches 
are now made all too easily, as if an off-the-cuff association of the 
president of the United States with the most monstrous figure in German 
history were both natural and acceptable.
    As Dan Diner has shown convincingly in two recent books on this 
subject, anti-Americanism has a well-established history in Germany 
dating back at least to the nineteenth century. Animated at times by 
cultural motives and at other times by political motives, German 
hostility to America crystallized ideologically in the early twentieth 
century as a reaction to modernity itself. Urbanization, 
commercialization, secularization, social mobility, mass culture, 
meritocracy, democracy, feminism--these and other components of 
modernity were considered unwelcome encroachments on traditional ways 
of life. In opposing them, German critics of the United States tended 
to conflate fears and resentments regarding America's alleged imperial 
hegemony with similar fears regarding imagined Jewish money, power, 
influence, and control. Diner quotes Max Horkheimer to this effect: ``. 
. . everywhere that one finds anti-Americanism, anti-Semitism is also 
prevalent.'' Horkheimer further explains that America is frequently 
singled out as the scapegoat for a host of German and general European 
problems, brought on, at the time he was writing, by ``the general 
malaise caused by cultural decline.'' In seeking causes for this 
malaise, people ``find the Americans and, in America itself, once again 
the Jews, who supposedly rule America.''\18\
    Horkheimer was hardly alone in this analysis. Following the defeat 
of Germany in World War I, numerous others expressed anti-American 
sentiments in ways that directly implicated the Jews. According to 
Diner:

        It became commonplace to characterize America, according to the 
        words of Werner Sombart, as a ``state of Jews'' (Judenstaat). 
        In particular after Taft's presidency, this view saw the 
        ``Jewish'' influence on public life in the United States as 
        having gained the upper hand. Jews were thought to be pulling 
        the strings in the trade unions, which were also centers of 
        power and influence. During the war they succeeded in moving 
        into big capital and supposedly profited substantially from 
        Allied war loans. Jews were also believed to have considerable 
        intellectual influence. In early nationalist literature, for 
        instance, Wilson's Fourteen Points were depicted as a product 
        of Jewish minds. The ``enslavement'' of Germany was also 
        ascribed to the Jews.\19\

    In the aftermath of World War I and into the Nazi period, charges 
of this kind became prevalent in Germany, and an ideologically tempered 
anti-Americanism intimately linked to anti-Semitism became commonplace. 
It saw American culture as degenerate, its debased condition a function 
of Jewish influence. ``My feelings against America are those of hatred 
and repugnance,'' Hitler said, ``half-Judaized, half-negrified, with 
everything built on the dollar.''\20\ Beyond purportedly corrupting 
culture, however, this presumed Jewish influence was seen to be 
everywhere: in the person of Bernard Baruch, Wilson's hand-picked 
representative at the Versailles Conference, who was prominently 
identified as a Wall Street financial magnate who allegedly had pushed 
hard for war to advance his personal fortune as well as the aims of 
Jewish world domination; in the person of Henry Morgenthau, Roosevelt's 
secretary of finance during World War II, who was widely seen as a 
Jewish avenger out to destroy Germany economically; and other 
``Jewish'' influentials who were regarded as hostile to German 
interests, such as New York mayor Fiorello LaGuardia; Felix 
Frankfurter, the law professor and Roosevelt confidante; and even 
President Roosevelt himself, sometimes (mis)identified as being really 
named ``Rosenfeld.'' America, in sum, was under a ``Jewish 
dictatorship'' and, as such, implacably anti-German. Indeed, it was the 
Jews, so the charge went, who forced the United States to enter the war 
in the first place.\21\
    Following the defeat of Nazi Germany, blatant conspiracy theories 
were not commonly voiced in Germany. Nevertheless, the notion that 
Jewish ``influence'''' continued to make itself felt in invidious ways 
hardly disappeared, and to this day polls of German public opinion 
regularly show sizable numbers of Germans affirming the notion that 
Jews exercise too much power in world affairs. Jews are believed to do 
so in their own right and through their alleged ``control'' over 
American foreign policy. For instance, in 1991, prominent figures on 
the German left held Jews responsible for the first Persian Gulf war, 
alleging that the battle was being waged on Israel's behalf, not 
Kuwait's. As Sander Gilman summed up the mood at the time, the Gulf War 
``showed how anti-Americanism in Germany and especially anti-Jewish 
resentment in the peace movement and among its fellow travelers saw the 
war as an American/Jewish/Israeli invasion. The virulent shouts that it 
was Israel that was causing the Gulf War, rather than Iraqi 
expansionism, simply echoed the cries against American imperial 
hegemony that carried on the anti-Semitic associations of Jew and 
American from the nineteenth century.''\22\

                    A ``CABAL'' OF NEOCONSERVATIVES

    The issues examined here within a German context are now observable 
on a much broader front, and the Jews once again have been blamed for 
propelling America into war in the Persian Gulf. A powerful ``cabal'' 
of American supporters of Israel--Paul Wolfowitz, Richard Perle, 
Douglas Feith, Elliott Abrams, William Kristol, and others of the so-
called ``neoconservative war party''--are said to be shaping American 
foreign policy and to have pushed President Bush into attacking Iraq to 
serve the ends of a stronger Israel. In this view, President Bush is 
portrayed as little more than a client of Ariel Sharon, and American 
national security interests remain in the grip of the ``Zionist lobby'' 
or powerful ``East Coast'' influentials--code words employed by writers 
who seem to believe, but generally will not bring themselves to say 
outright, that the Jews are really running America's affairs.
    The use of coded language has gone so far that it is no longer 
unusual for writers who comment on the neoconservative movement to use 
the term ``neocon'' as synonymous with ``Jew,'' excepting those with 
similar views who lack Jewish roots. Whenever such inferences are 
drawn, it is now common to point to ``plots'' underway that threaten to 
steer American policy in the wrong direction--namely, the direction its 
Jewish manipulators, and not America's elected officials, would have it 
go.
    Antiwar conservatives like Patrick J. Buchanan espoused conspiracy 
theories regarding the origins of the war against Iraq. Buchanan wrote 
in the American Conservative on March 24, 2003:

        Here was a cabal of intellectuals telling the Commander-in-
        Chief, nine days after an attack on America, that if he did not 
        follow their war plans, he would be charged with surrendering 
        to terror. . . . What these neoconservatives seek is to 
        conscript American blood to make the world safe for Israel. 
        They want the peace of the sword imposed on Islam and American 
        soldiers to die if necessary to impose it.\23\

    But it wasn't only right-wingers like Buchanan who claimed that the 
war served Israel's, not America's, security objectives. On the left, 
too, there were those who saw the war as being waged at the behest of 
Israel and, more cynically, also in pursuit of American Jewish 
political support. In writing about the ``power'' of the neocons in the 
New York Review of Books, Elizabeth Drew refers to both of these 
motives.

        Because some--but certainly not all--of the neoconservatives 
        are Jewish and virtually all are strong supporters of the Likud 
        Party's policies, the accusation has been made that their aim 
        to ``democratize'' the region is driven by their desire to 
        surround Israel with more sympathetic neighbors. . . . But it 
        is also the case that Bush and his chief political adviser Karl 
        Rove are eager both to win more of the Jewish vote in 2004 than 
        Bush did in 2000 and to maintain the support of the Christian 
        right, whose members are also strong supporters of Israel.\24\

    To those who share these views, the Jewish hand is to be seen 
virtually everywhere. Robert J. Lieber, summing up the conspiracy 
theory in the Chronicle of Higher Education, found that it had many 
proponents:

        A small band of neoconservative (read, Jewish) defense 
        intellectuals, led by the ``mastermind,'' Deputy Secretary of 
        Defense Paul Wolfowitz (according to Michael Lind, writing in 
        the New Statesman), has taken advantage of 9/11 to put their 
        ideas over on an ignorant, inexperienced, and ``easily 
        manipulated'' president (Eric Alterman in The Nation), his 
        ``elderly figurehead'' Defense Secretary (as Lind put it), and 
        the ``dutiful servant of power'' who is our secretary of state 
        (Edward Said, London Review of Books).\25\

    The tendency to ascribe exaggerated power to Jews in public life is 
not new--nor is the belief that ``Jewish power'' is deployed to achieve 
Israeli objectives. Here, for instance, is how the historian Perry 
Anderson puts it:

        Entrenched in business, government, and media, American Zionism 
        has since the sixties acquired a firm grip on the levers of 
        public opinion and official policy toward Israel. . . . The 
        colonists have in this sense at length acquired something like 
        the metropolitan state--or state within a state--they initially 
        lacked.\26\

    Sentiments of this nature exist among Germans, but they are usually 
muted, especially with reference to Jews. With regard to America, the 
German rhetoric became less inhibited in the time leading up to the 
invasion of Iraq. The writer Peter Schneider recently said that he has 
``never seen so much anti-Americanism in my life, not in the Vietnam 
war, never.''\27\
    The public voicing of such sentiments regarding both Jews and 
Americans is by no means confined to Germany. Abandoning coded language 
altogether, Tam Dalyell, a member of the British Parliament from the 
Labour Party, told an interviewer for Vanity Fair flat out that both 
Tony Blair and George Bush were ``being unduly influenced by a cabal of 
Jewish advisers.'' Never mind that most of George Bush's closest 
advisers are Protestants or that most of those helping to guide British 
Middle East policy are also not Jewish.\28\ To Mr. Dalyell and others 
like him, it has become open hunting season on Jews, and even the 
suspicion of Jewish ancestry is enough to inspire wild accusations.
    We are living at a time when hostility to America has become almost 
a worldwide phenomenon, and a parallel dislike of Israel and distrust 
of the Jews frequently accompany this hostility. When a member of the 
Canadian Parliament can be heard to declare on television, ``Damn 
Americans. I hate those bastards''; when a French diplomat posted to 
England is widely quoted as referring to Israel as that ``shitty little 
country'' pushing the world toward war; when a prominent Irish poet 
denounces Jewish settlers living on the West Bank as ``Nazis [and] 
racists'' who ``should be shot dead'' and is on record as stating, ``I 
never believed that Israel had the right to exist at all,'' we are in a 
troubled time.\29\

               FRENCH ANTI-SEMITISM AND ANTI-AMERICANISM

    Much of the worst of this trouble has taken place over the past two 
years in France, where anti-Americanism has become highly vocal in both 
political and cultural life and anti-Semitism has turned more openly 
aggressive than at any time since the end of World War II. These 
antagonisms reflect a political disposition toward the Middle East 
conflict that is highly critical of Israel and also sharply at odds 
with the United States, understood to be Israel's guardian. French 
attitudes toward both countries are often negative. It is small wonder 
then that militant members of France's large Muslim communities openly 
proclaim their hatred of the United States and regard French Jews as 
surrogate Israelis whom they feel entitled to abuse at will. Some have 
been doing just that, as if the verbal violence against Israel in the 
French media can be taken as justification for physical assaults 
against French Jews.
    At the same time, teachers who are prepared to teach about the 
Holocaust in French classrooms are often intimidated from doing so by 
angry Muslim students, some of whom act aggressively to prevent 
knowledge of Jewish victimization during World War II from being 
disseminated in the schools. The subject has fallen effectively under a 
taboo, and many of these schools are now almost extraterritorial 
enclaves.\30\ The suppression of this history, together with frequently 
expressed attitudes of hostility toward Israel, adds to the unease of 
Jews in today's France.
    Anti-Jewish hostilities began to surge in France in the fall of 
2000 and have continued in waves of greater or lesser virulence to this 
day. On the night of October 3, 2000, a synagogue in the town of 
Villepinte, not far from Paris, was set ablaze. French police at first 
explained the incident as accidental, but six Molotov cocktails 
discovered at the site belied the notion that the building's near 
destruction was the result of nothing more than a trash fire.\31\ 
Within the next ten days, four more synagogues in the greater Paris 
area also were burned, and nineteen Jewish homes and businesses 
likewise became the target of arson attempts. There have been hundreds 
of other assaults against individual Jews and Jewish property 
throughout France, most of them perpetrated by young Muslims. In the 
spring of 2002, the front gates of a synagogue in Lyon were 
intentionally rammed by two cars driven by masked and hooded men, and 
the synagogue itself was then set on fire. In April, the Or Aviv 
Synagogue in Marseilles was torched, and in Toulouse shots were fired 
at a kosher butcher shop. A bus carrying Jewish children to the Tiferet 
Israel School in Sarcelle was stoned; shortly afterward, the school 
itself was destroyed by fire; the same happened to the Gan Pardess 
School in Marseilles; Molotov cocktails were thrown at a Jewish school 
in Creteil and at a synagogue in Garges-les-Gonesse; Jewish students 
have been assaulted at Metro stops in central Paris and subjected to 
verbal and physical abuse in schools; Jews walking to synagogue have 
been variously insulted and harassed; a Jewish soccer team was roughed 
up at Bondy, a suburb of Paris; and in March 2003 Jewish teenagers were 
beaten with metal bars during antiwar protest marches in the French 
capital; banners equating Sharon with Hitler and intermingling the Star 
of David with the Nazi swastika have become familiar sights at these 
marches; and at some, shouts of ``Kill the Jews!'' can be heard.
    French authorities were slow to acknowledge the true character of 
these outrageous actions and for too long passed them off as part of a 
general social unruliness that reigns in France's often destitute 
immigrant suburbs. Criminal acts against Jews, in other words, were to 
be understood as merely part of a more general phenomenon of heightened 
criminality in French cities as a whole. Or the anti-Jewish violence 
was explained away as part of a ``natural'' interethnic rivalry, an 
inevitable spillover onto French shores of the continuing violence 
between Arabs and Jews in the Middle East. President Jacques Chirac for 
a time even insisted, ``There is no anti-Semitism at all in France.'' 
Jewish houses of worship were being set on fire, but during the height 
of these outrages, neither Chirac nor then Prime Minister Lionel Jospin 
saw fit to visit the sites of the desecrated synagogues. (Only later, 
on the eve of his reelection campaign in the spring of 2002, did the 
French president bother to pay a sympathy call to Le Havre, where a 
small synagogue had been attacked.)
    The sheer volume of assaults on Jews and Jewish institutions render 
such public denial untenable, however, and in recent months, with the 
appointment of Nicolas Sarkozy as the new interior minister, a greater 
resolve to curb such violence seems in evidence. And well it should, 
for the dynamic of French anti-Semitism long ago moved beyond public 
slurs against Jewish symbols to open aggression against Jews and Jewish 
property. Between January and May 2001, more than 300 attacks against 
Jews took place in France. By the spring of 2003, the number of such 
hate crimes since January 2001 stood at over 1,000. Marie Brenner, who 
has reported on these incidents extensively, notes that in the first 
three months of 2003 there were already 326 verified reports of anti-
Jewish violence in Paris alone. While any analogies to Vichy would be 
far-fetched, the social environment has clearly changed for Jews in 
today's France, and the country no longer seems so hospitable. As 
French writer Alain Finkelkraut recently put it, ``To their own 
amazement, [French] Jews are now sad and scared.''\32\ Some are leaving 
the country for Israel or are giving serious thought to settling in the 
United States or Canada.
    The outbreak of violent anti-Semitism in France has occurred at a 
time when anti-Americanism has also become a more prominent feature of 
French political and intellectual life. Hostile attitudes toward 
America are not new but have a history in France that dates back to the 
eighteenth century. The degree of French antipathy to the United States 
has heightened in the last few years, however, for reasons that are as 
much related to France's ambivalence about its place in the new Europe 
and its reduced standing in the world as about real policy differences 
with America. The latter are not insignificant, as became all too clear 
in the diplomatic feud that Paris aggressively waged with Washington 
during the run-up to the war against Iraq. However, over and beyond the 
tensions between the two countries that accompany France's 
determination to present itself as a rival power to America in the 
international arena, the polemical nature of French anti-Americanism 
has deeper causes.
    The best analysts of this phenomenon are the French themselves, and 
in the past two years French authors have produced a number of 
perceptive books on the obsession with and national disdain for 
America. Among the best of these are Philippe Roger's L'Ennemi 
americain: Genealogie de l'antiamericanisme francais (``The American 
Enemy: A Genealogy of French Anti-Americanism'') and Jean-Francois 
Revel's L'Obsession anti-americaine: Son fonctionnement, ses causes, 
ses inconsequences (``The Anti-American Obsession: Its Functioning, 
Causes, and Inconsistencies'').\33\ In addition to these studies, there 
has also been a spate of books on ``Why the Whole World Hates 
America,'' which exemplify the very phenomenon that the analytical 
studies set out to clarify. The most extreme of these is Thierry 
Meyssan's L'Effroyable imposture (``The Frightening Deception''). Its 
bizarre thesis is that the received accounts of the 9/11 terror attacks 
are mostly an American government fabrication; in fact, so Meyssan 
alleges, the strikes were actually carried out by reactionary elements 
of the American military. Yet this outlandish work quickly became a big 
hit, selling almost a quarter of a million copies in the first few 
months of publication. While one would be hard put to find many serious 
people in France who would credit Meyssan's argument as plausible, his 
book's popularity underscores the basically irrational, but evidently 
appealing, character of French anti-Americanism.
    David Pryce-Jones partly clarifies the psychological grounds of 
this appeal in commenting on Phillipe Roger's study: ``Since the 
eighteenth century, the French have been treating America less as a 
real country than as a theater in which to work out fears and fantasies 
of their own.''\34\ Or, in the words of Roger himself, ``We keep 
creating a mythological America in order to avoid asking ourselves 
questions about our real problems.''\35\

           WHY ANTI-AMERICANISM FUNCTIONS LIKE ANTI-SEMITISM

    Anti-Americanism, in this understanding, clearly has some benefits 
for those who embrace it. It functions as both a distraction and a 
relief, diverting attention from issues that can be divisive within 
French society: ongoing economic concerns, political discord, the 
challenges of absorbing large and still growing immigrant populations, 
and vexed questions of national identity in a society rapidly becoming 
more diverse in its ethnic, racial, and religious makeup. To one degree 
or another, many European countries have problems of this nature, but 
not all of them look to place the blame for their troubles on America. 
To the degree that France does, it gains neither credit nor effective 
help. Far from being an efficient way to engage real problems, anti-
Americanism is no more than a trumped-up means of diverting attention 
from them.
    Seen in this light, anti-Americanism functions in much the same way 
that anti-Semitism has over the centuries--as a convenient focus for 
discontents of many different kinds and a ready-made explanation of 
internal weaknesses, disappointments, and failures. It is, in short, 
both fraudulent and counterproductive.
    The French writer Pascal Bruckner precisely captures the self-
deluding nature of anti-Americanism and sees its link to anti-Semitism: 
``We delight in casting all our sins onto this ideal scapegoat, because 
everything that goes wrong in the world can be laid at Washington's 
door. In the imagination of many intellectuals and political leaders, 
America plays the role the Jews once did in National Socialist 
demonology.''\36\
    If hostility to America were confined to the French elites that 
Bruckner singles out, it would be bad enough, but there is evidence 
that anti-Americanism is now broadly shared by the French public at 
large. At the height of the war against Iraq, for instance, Le Monde 
published the results of a poll that showed 30 percent of the French 
actually wanted Iraq, and not the coalition led by America, to win the 
war.\37\ This view is of a piece with notions, also broadly held in 
France and elsewhere, that between George Bush and Saddam Hussein, it 
was the American president who was the more menacing figure and the 
greater threat to world peace. Such judgments are less political in 
nature than pathological, but they can take on a political resonance of 
a harmful kind. In light of such extreme prospects, Bruckner concludes: 
``It is hard to tell what is most hateful in present-day anti-
Americanism: the stupidity and bitterness it manifests or the willing 
servitude that it presupposes toward a superiority it denounces. . . . 
The time for being anti-American has passed.''\38\
    One can only voice a hearty ``amen'' to Bruckner's words and add to 
them the wish that the time for being hateful to Jews might also 
quickly pass. Unfortunately, though, most of the signs point to an 
increase rather than a lessening of anti-American and anti-Semitic 
hostilities. Indeed, many of the same kinds of developments described 
within the borders of Germany and France have been occurring across 
much of Europe over the past two years or so and show no signs of 
diminishing. According to a recent report, the number of anti-Semitic 
attacks in Great Britain increased by 75 percent during the first three 
months of 2003.\39\ There has also been a rise of such incidents in the 
Netherlands, Belgium, Italy, the former Soviet Union, and elsewhere. In 
all of these countries, anti-American resentments have surfaced 
alongside resentments of Israel, and allegations are commonly made that 
``Zionist interests'' and the ``Jewish lobbies'' are working 
manipulatively behind the scenes to the detriment of the world order.
    In an especially irresponsible display of such accusations, the New 
Statesman of London on January 14, 2002, ran a cover displaying a gold 
Star of David piercing the British Union Jack over the caption ``A 
Kosher Conspiracy?'' Similarly vicious graphics have appeared in 
newspapers and journals elsewhere in Europe. Almost everywhere, the 
passions that give rise to regular denunciations of Israel and 
conspiratorial charges against the Jews are blended with sentiments 
that British writer Michael Gove says produce ``myths of America the 
Hateful.'' ``Yankee-phobia,'' as Gove calls it, and Judeophobia have 
now coalesced, and what they have produced is not good: ``Both America 
and Israel were founded by peoples who were refugees from prejudice in 
Europe. Europe's tragedy is that prejudice has been given new life, in 
antipathy to both those states.''\40\

                         WHO IS AN ANTI-SEMITE?

    What has brought us to such a sorry moment, how long it is likely 
to last, and what its consequences may be are matters that deserve 
serious reflection. Yet not everyone agrees that Europe is witnessing a 
serious increase in hostility to either Jews or America. The former, it 
is argued, is an unpleasant but limited affair, carried out mostly by 
disaffected Muslim immigrants, who are themselves subjected to acts of 
racial hatred and discrimination. What Jews label as anti-Semitism is 
something that really does not exist in Europe in any substantial way, 
but whose ``purported existence is being cynically manipulated by some 
in the Israeli government to try to silence debate about the policies 
of the Sharon government.''\41\ In this view, the Jews are seeking to 
squelch criticism of Israeli actions against the Palestinians by 
putting those who make such criticisms beyond the pale. In the words of 
one British commentator, ``Criticize Israel and you are an anti-Semite 
just as surely as if you were throwing paint at a synagogue in 
Paris.''\42\ To cite the words of another, Timothy Garton Ash, ``Pro-
Palestinian Europeans [are] infuriated by the way criticism of Sharon 
is labeled anti-Semitism.''\43\ Those who are so accused, the argument 
goes, then turn against their accusers and brand them as media 
manipulators working on behalf of the ``Jewish lobby'' to advance 
Jewish and Israeli interests.
    This is a vexed and increasingly contentious issue. No one likes to 
be called an anti-Semite, and no one should be called an anti-Semite 
who is not one. At the same time, anti-Semites exist, and their words 
and actions cause great harm. It should come as no surprise, then, that 
Jews who are alert to the resurgence of anti-Jewish hostilities in 
Europe are naturally concerned and are not reluctant to call attention 
to them. They understand that Israel, like all states, makes its share 
of mistakes and should not be immune from criticism. At the same time, 
legitimate criticism of Israeli policies sometimes escalates into 
condemnation of Israel as an entity. Especially on the left, the 
European debate about the Arab-Israeli conflict has taken on the 
character of a polemic about the Zionist project itself and calls into 
question the moral standing of the Jewish state and sometimes even its 
right to exist. At its furthest extreme, such ``criticism'' of Israel 
amounts to a rejection of Israel, mirrored in the vilification of the 
Israeli prime minister as a ``war criminal'' comparable to Milosevic 
and of the Israeli people as latter-day fascists or Nazis. In the 
Muslim world, these views are standard fare, but they show up in Europe 
as well. To call them anti-Semitic is to call them by their proper 
name.
    On another level, the European media debate about Israel is less 
crude and not necessarily hostile in tone, but its obsessional quality 
and its espousal by people who focus their criticism almost exclusively 
on Israel and show little interest in injustice elsewhere in the world 
raise questions of another kind. Shalom Lappin, a professor at King's 
College, London, has written about this phenomenon in an especially 
perceptive way and comes to conclusions that are sobering. After making 
the by-now ritual acknowledgment that not all criticism of Israel is 
unfair, he demonstrates that a lot of European commentary is in fact 
excessive, historically inaccurate, and distorted by ideological 
prejudices:

        A large part of the contemporary European left has inherited 
        the liberal and revolutionary antipathy toward a Jewish 
        collectivity, with Israel becoming the focus of this attitude. 
        While acculturated intellectuals and progressive Jewish 
        activists are held in high esteem, a Jewish country is treated 
        as an illegitimate entity not worthy of a people whose history 
        should have taught them the folly of nationalism. The current 
        intifada is regarded as decisively exposing the bankruptcy not 
        so much of a policy of occupation and settlement, but of the 
        very idea of a Jewish polity.\44\

    In other words, the arguments that some of Israel's most determined 
critics now pose are no longer about 1967 and political issues 
involving territories that Israel has held since the Six-Day War, but 
about 1948 and existential issues involving the fundamental right of 
the Jews to a state of their own. Hostility to Israel along these 
lines, in sum, is the result of a basic failure to reconcile with the 
idea of Jewish political independence and national sovereignty. Such 
opposition was prominent in some circles prior to the establishment of 
the Jewish state. No less a figure than Karl Marx, for example, 
famously held that a ``state which presupposes religion is not yet a 
true, real state'' and that ``the political emancipation of the Jew . . 
. is the emancipation of the state from Judaism.''\45\ But the 
reappearance of this idea after more than half a century of Jewish 
statehood is astonishing. Lappin correctly claims that attitudes of 
this kind render illicit any idea of the Jewish people as a nation. 
Deeply rooted in both religious and secular European culture, as well 
as in the Islamic world, such attitudes represent an aversion to the 
idea of Jewish empowerment itself and, in essence, delegitimize the 
State of Israel in its present configuration. Most Jews would see the 
public voicing of such an aversion as inherently anti-Semitic. But 
whatever one calls the propagation of such ideas is less important than 
the recognition of their fundamentally hostile character. Not to see 
them for what they are and not to resist them would be to live in 
denial, a luxury that Jews, of all people, cannot afford.

                       DENIAL OF ANTI-AMERICANISM

    Just as there are those who deny that anti-Semitism exists, there 
are also those who deny that anti-Americanism exists. They stress that 
the world publicly expressed its sympathy for America in the immediate 
aftermath of the September 11, 2001, terrorist strikes against New York 
and Washington, and they claim America has squandered the goodwill it 
enjoyed at the time through its arrogant and ill-conceived policies in 
the international arena.
    It is true that large numbers of people in many countries displayed 
solidarity with America following the shocks of 9/11, a solidarity they 
evidently could express readily so long as they perceived Americans to 
be victims. (As Pascal Bruckner reminds, us, though, ``By the evening 
of September 11, a majority of our citizens, despite their obvious 
sympathy for the victims, were telling themselves that the Americans 
had it coming.'' \46\) At times, the world's sympathy has also flowed 
toward the Jews, when it has been perceived that they, too, have been 
victimized. Assertions of American or Jewish strength, however, seem to 
quickly neutralize these benevolent reactions and turn them into their 
opposite.
    Some of what animates anti-Americanism and anti-Semitism, in other 
words, is distrust of American and Jewish power and the fear that such 
power will be used in menacing ways. ``The American administration is 
now a bloodthirsty wild animal,'' declared British playwright Harold 
Pinter, long before a drop of blood was spilled in the second Gulf War; 
\47\ and, similarly, bloodthirsty behavior was also widely attributed 
to Ariel Sharon. In both cases, it is the specter of the unrestrained 
use of force that seems to generate such concerns. They are heightened 
many times over when the Jews are imagined to be the ones who actually 
control such might and can unleash it anytime, against anyone, and in 
unpredictable ways. In a climate of such exaggerated feeling, 
restraints on political rhetoric fall away. So an American congressman, 
Representative James Moran, Democrat of Virginia, charges in public, 
``If it were not for the strong support of the Jewish community for 
this war with Iraq, we would not be doing this. The leaders of the 
Jewish community are influential enough that they could change the 
direction of where this is going, and I think they should.'' \48\ An 
American poet, Amiri Baraka, links Israel to the terrorist attacks 
against the World Trade Center, alleging that the Jews had advance 
warning of what was coming on September 11 and stayed home from work in 
the Twin Towers on that day; and various people throughout the world 
indulge in the fantasy that the space shuttle Columbia disaster was 
actually the work of ``a secret Jewish-Israeli conspiracy.'' \49\ As 
evidenced by these and other similarly wild charges, conspiracy 
theories about the pernicious effects of American-Jewish ``power'' seem 
widespread.
    As already noted, some of what drives this lunacy may be fear, but 
analysts of anti-Americanism and anti-Semitism also recognize other 
factors at work. Writing shortly after 9/11, the British historian 
Bernard Wasserstein noted:

        A century ago, anti-Semitism was called ``the socialism of 
        fools.'' Now something similar threatens to become rampant: 
        anti-Americanism. Psychologically, it fulfills some of the same 
        functions as anti-Semitism. It gives vent to a hatred of the 
        successful, and is fueled by envy and frustration. . . . Like 
        historical anti-Semitism, [anti-Americanism] transcends 
        ideological barriers and brings together economic, social, 
        religious, and national animosities in a murderous brew.\50\

    The brew is a poisonous one, mixing such noxious ingredients as 
classical anti-Semitic blood libel charges and conspiracy theories 
about a Jewish drive for world domination with annihilationist 
rhetoric, directed against both Israel and America. As part of this 
destructive mix, Hitler-era language, as we have seen, is often used to 
smear the American president and the Israeli prime minister, and 
Holocaust denial also sometimes figures in. In such a climate, Jews are 
regularly denounced as ``Zionist pigs'' and Americans as rapacious 
thugs and murderers. In general, when Jews are now demonized, anti-
American charges are likely to proliferate as well. It is a heady 
combination, especially in the Muslim world, where the language of 
violence has helped to unleash the most destructive forces aimed at 
those who are routinely condemned as ``the enemies of Islam''--
preeminently ``Crusaders'' (= Americans) and ``Jews.'' \51\
    In analyzing this situation, Josef Joffe, editor of the prominent 
German newspaper Die Zeit, finds a number of common links:

        Images that were in the past directed against the Jews are now 
        aimed at the Americans: the desire to rule the world; the 
        allegation that the Americans, like the Jews in the past, are 
        invested only in money and have no real feeling for culture or 
        social distress. There are also some people who connect the two 
        and maintain that the Jewish desire to rule the word is being 
        realized today . . . by the ``American conquest.''

    Joffe also sees envy as a factor contributing to a common hostility 
against Americans and Jews:

        They are the two most successful states in their surroundings--
        the U.S. in global surroundings, and Israel in the Middle East. 
        Israel is in fact a constant reminder to the Arab world of its 
        failure in economic, social, political, and gender-related 
        development. So much so that it is difficult to decide whether 
        the Jews are hated because of their close alliance with the 
        U.S., or whether the U.S. is hated because of its alliance with 
        the Jews.\52\

    To many, Americans and Jews are not only paired but are now 
virtually interchangeable as targets of a common hostility. During the 
Nazi period, a popular slogan clearly identified the source of 
Germany's troubles: ``The Jews are our misfortune.'' Today it is the 
Americans who are the focus of such an exaggerated grievance. But the 
Jews have hardly disappeared. Rather, negative images of them have 
blended with negative images of Americans, and the two together--
symbolized by the ubiquitous bogeymen, ``Bush and Sharon''--are 
commonly denounced in a single breath. Indeed, in France one now finds 
the new coinage ``Busharon'' to designate this invented ogre. As a 
French Jewish woman recently put it, ``When they say 'America' they 
think 'Israel,' and when they think 'Israel,' they think 'Jewish.' '' 
\53\

                     FANTASIES AND THEIR ANTIDOTES

    Or, one could say more accurately, they don't think at all. For 
what I have been describing has very little to do with real Americans 
and real Jews and points instead to largely phantasmagoric figures that 
inhabit the heads of growing numbers of people throughout the world. In 
confronting the passions that fuel anti-Americanism and anti-Semitism, 
in other words, we enter the realm of symbolic identities and see 
mostly spectral figures--imagined Americans, imagined Jews.
    A phenomenon as widespread and intensely animated as this one is 
not likely to soon pass from the scene. The branding of the United 
States and Israel as outlaw nations is a serious matter, and the 
political, ideological, and religious passions that give rise to such 
hostility will not quickly dissipate. Writing in 1985, years before the 
American-led wars in the Persian Gulf, Stephen Haseler predicted: 
``Anti-Americanism is here to stay, as long as the United States 
retains its powerful role on the world stage.'' Since it is unlikely 
that America will soon reduce its power or the reach of its global 
presence, it is also unlikely that opposition to it will lessen; on the 
contrary, it is likely to only increase. Some fifteen years ago, 
Haseler, in fact, accurately predicted the present moment with uncanny 
insight:

        The United States will continue to be isolated at the United 
        Nations; anti-American protests and rioting will increase; 
        tensions within America's alliance systems will continue; and a 
        powerful intellectual and emotional critique of the direction 
        of American foreign and defense policy can be expected at 
        home.\54\

    The new era ushered in by the terror attacks of 9/11 was not in 
sight when Haseler offered this view, but otherwise his prognosis is 
accurate.
    As to what might be done to counter such developments, the best 
antidote to anti-American animosities, Haseler avers, is not a 
lessening of American power and resolve but the opposite--a reassertion 
of American strength and self-confidence. Such assertions of national 
will were marshaled impressively in the war against Iraq, and yet it is 
precisely the projection of such power that unnerves people abroad and 
contributes to their wariness of the United States. Ironically, 
therefore, while it may be true that nothing succeeds like success, 
success American-style seems to have the unintended consequence of 
provoking the kinds of fear and resentment that help to foster anti-
American sentiments.
    As for antidotes to anti-Semitism, these are harder to identify, 
largely because anti-Jewish passions have been around for so long and 
are energized today on so many different fronts. In the Muslim world, 
Jew-hatred is now pervasive, but in Europe and elsewhere, anti-
Semitisms of every imaginable kind--political, social, cultural, 
theological, economic--are no longer held in check by the taboos that 
have restrained them in recent years but circulate openly and broadly. 
Judeophobias are so many and various today, in fact, that a full 
taxonomy would require a large book. The reemergence of such hostility 
has come as a shock, especially to those who have thought that the 
scandal of the Holocaust was so great as to inhibit public 
manifestations of anti-Jewish feelings for generations to come. In 
fact, though, that sense of the scandalousness of the Holocaust has 
greatly weakened over the years or been perversely transferred to 
Israel, which is repeatedly accused of resembling a Nazi state for its 
allegedly ``genocidal'' treatment of the Palestinians, who have been 
elevated to supreme victim status as the ``new Jews.''
    Among the many pernicious elements in the repertoire of anti-
Semitic stereotypes, the inversion and manipulation of the Holocaust is 
potentially the most lethal. For those intent on usurping the history 
of Jewish suffering and mobilizing it against the Jewish state are also 
intent on bringing about the end of that state by delegitimizing the 
very ground of its existence. If, after all, there really is no 
difference between Israelis and Nazis, then Israel itself has no moral 
basis for continuing. That is what the sinister equation ``Sharon = 
Hitler'' really means. Adding the name of the president of the United 
States to this formula, as in the vile epithet at the beginning of this 
essay, only deepens the aggression and adds to the challenges that we 
face in a world in which anti-Semitism, a notoriously light sleeper, is 
now awake and stirring and has been joined by a resurgent anti-
Americanism. Neither is new, but their convergence is potent and the 
obsessive focus of so much of their negative energies on Israel and on 
America as a faithful ally of Israel is ominous. Unless they are 
effectively checked, the two together will influence the condition of 
life for Americans and Jews in the years ahead in ways that will not be 
easy for either.

June 27, 2003

                                 NOTES

    \1\ The National Consultative Committee on Human Rights, a French 
government watchdog organization, reports an ``explosion'' in anti-
Semitic incidents in France in 2002--a sixfold increase over 2001 in 
acts of violence against Jewish property and persons. See Elaine 
Sciolino, ``French Rallies against War Shift Focus to Israel,'' New 
York Times, March 30, 2003.
    \2\ New York Times, September 23, 2002.
    \3\ Wolfgang Schauble, ``How Germany Became Saddam's Favorite 
State,'' Wall Street Journal, September 19, 2002.
    \4\ Charles P. Wallace, ``Recalcitrant Ally,'' Time, September 23, 
2002.
    \5\ Henry Kissinger, ``Why U.S.-German Rift Could Set Europe Back 
100 Years,'' Scotland on Sunday, October 20, 2002.
    \6\ New York Times, September 20, 2002.
    \7\ William Safire, ``The German Problem,'' New York Times, 
September 19, 2002.
    \8\ Robert Kagan, as quoted by Steven Erlanger, ``Wary Praise for 
Berlin Speech,'' International Herald Tribune, May 24, 2002. For a 
well-informed analysis of the growing divisions between Europe and 
America, see Kagan's brief but important book, Of Paradise and Power 
(New York: Alfred A. Knopf, 2003).
    \9\ Paul Hollander, Anti-Americanism: Critiques at Home and Abroad 
1965-1990 (New York: Oxford University Press, 1992), p. 381. Hollander 
republished this book, adding some new material to it, under the title 
Anti-Americanism: Irrational and Rational (New Brunswick, N.J.: 
Transaction Publishers, 1995). For more on anti-Americanism, see 
Stephen Haseler, ed., The Varieties of Anti-Americanism: Reflex and 
Response (Washington, D.C.: Ethics and Public Policy Center, 1985) and 
Anti-Americanism: Origins and Context, a special edition of the Annals 
of the American Academy of Political and Social Science, ed. by Thomas 
Perry Thornton (Newbury Park, CA: Sage Publications, 1988). For studies 
specifically focused on manifestations of anti-Americanism within 
Germany, see Andrei S. Markovits, ``On Anti-Americanism in West 
Germany,'' New German Critique, Issue 34 (Winter 1985), pp. 3-27 and, 
by the same author, ``Anti-Americanism and the Struggle for a West-
German Identity,'' in Peter H. Merkl, ed., The Federal Republic of 
Germany at Forty (New York: New York University Press, 1989), pp. 35-
54; see also Konrad Jarausch, ``Intellectual Dissonance: German-
American (Mis)Understandings in the 1990s,'' and Berndt Ostendorf, 
``The Americanization-of-Germany Debate: An Archaeology of Tacit 
Background Assumptions,'' in Frank Trommler and Elliott Shore, eds., 
The German-American Encounter: Conflict and Cooperation between Two 
Cultures, 1800-2000 (New York: Berghan Books, 2001), pp. 219-33, 267-
84. For a highly informed study of the history of German anti-
Americanism and its links to anti-Semitism, see Dan Diner, Verkerhrte 
Welten (Frankfurt: Vito von Eichborn Verlag, 1993), published in 
English translation under the title America in the Eyes of the Germans: 
An Essay on Anti-Americanism (Princeton, N.J.: Markus Wiener 
Publishers, 1996); Diner republished this book, with new material, 
under the title Feindbild Amerika: Uber die Bestandigkeit eines 
Ressentiments (Munich: Propyla4en Verlag, 2002).
    \10\ Hollander, Anti-Americanism: Critiques at Home and Abroad, 
p.viii.
    \11\ Citations are from a report commissioned by the American 
Jewish Committee entitled ``The Mideast Coverage of the Second Intifada 
in the German Print Media, with Particular Attention to the Image of 
Israel,'' June 2002, http://www.ajc.org/InTheMedia/Publications.-
asp?did=539. The report was done by scholars at the Duisburger Institut 
fur Sprach-und Sozialforschung and covered the period from September 
2000 to August 2001.
    \12\ Avishai Margalit, ``The Suicide Bombers,'' New York Review of 
Books, January 16, 2003.
    \13\ Sloterdijk made these remarks in an interview that appeared in 
the Austrian journal Profil, September 24, 2002.
    \14\ Michel Friedman, vice president of the Central Council of Jews 
in Germany, came under a barrage of negative publicity recently when he 
was the object of a drug raid that allegedly turned up traces of 
cocaine in his home and office. His subsequent suspension from his 
television talk show and the lack of charges against him brought new 
discussions of what is ``normal'' in German Jewish life. See Mark 
Landler, ``German TV Host Finds Shoe on Other Foot,'' New York Times, 
June 27, 2003. Mollemann died on June 5, 2003, in a parachuting 
accident in Marl-Loehmuhle that police officials consider a possible 
suicide. There were hostile comments made after Friedman's drug raid 
that Mollemann should have lived to see Friedman's humiliation.
    \15\ For more on Mollemann, Walser, and related matters, see Alvin 
H. Rosenfeld, ``Feeling Alone, Again'': The Growing Unease among 
Germany's Jews (New York: American Jewish Committee, International 
Perspectives 49, 2002).
    \16\ Toynbee's words are cited by David Brooks in ``Among the 
Bourgeoisophobes: Why the Europeans and Arabs, Each in Their Own Way, 
Hate America and Israel,'' The Weekly Standard, April 15, 2002.
    \17\ Polly Toynbee's words are quoted by Murray Gordon in The ``New 
Anti-Semitism'' in Western Europe, American Jewish Committee, 
International Perspectives 50, 2002.
    \18\ Diner, ``America in the Eyes of the Germans,'' pp. 26, 21.
    \19\ Ibid., p. 62
    \20\ Hitler's words are cited in ibid., p. 83.
    \21\ Ibid., pp. 63, 97.
    \22\ Sander Gilman, in the Introduction to ibid., p. xiv.
    \23\ Patrick J. Buchanan, ``Whose War?,'' The American 
Conservative, March 24, 2003.
    \24\ Elizabeth Drew, ``The Neocons in Power,'' New York Review of 
Books, June 12, 2003, p. 22.
    \25\ Robert J. Lieber, ``The Neoconservative-Conspiracy Theory: 
Pure Myth,'' The Chronicle of Higher Education, May 2, 2003. See also 
David Frum, ``Unpatriotic Conservatives: A War Against America,'' 
National Review, April 7, 2003, pg. 40. Frum labels this movement 
``paleoconservatism'' and describes it as wishing ``to see the United 
States defeated in the War on Terror.''
    \26\ Perry Anderson, ``Scurrying Towards Bethlehem,'' New Left 
Review (July-August 2001). For a brief but penetrating analysis of 
Anderson's position, see Shalom Lappin, ``Israel and the New Anti-
Semitism,'' Dissent, Spring 2003, pp. 18-24.
    \27\ Schneider's words are cited in Nina Bernstein, ``Young Germans 
Ask: Thanks for What?'' New York Times, March 9, 2003.
    \28\ Colin Brown and Chris Hastings, ``Brit MP Dalyell Attacks Bush 
and Blair's `Jewish Cabal,' '' The Telegraph, May 3, 2003.
    \29\ Nicholas D. Kristof, ``Losses, Before Bullets Fly,'' New York 
Times, March 7, 2003. For further examples of North American invective 
against Israel and the Bush administration, see Lawrence F. Kaplan, 
``Toxic Talk on War,'' Washington Post, February 18, 2003. See also 
``Hateful Name-Calling vs. Calling for Hateful Action,'' New York 
Times, November 23, 2002.
    \30\ Emmanuel Brenner, Les Territoires Perdus de la Republique 
(Paris: Mille et une nuits, 2002).
    \31\ For a report of this incident and much else of a similar 
nature, see Marie Brenner, ``France's Scarlet Letter,'' Vanity Fair, 
June 2003, pp. 106-128. See also Murray Gordon, The ``New Anti-
Semitism'' in Western Europe (New York: American Jewish Committee, 
International Perspectives 50, 2002), and Michel Gurfinkel, ``France's 
Jewish Problem,'' Commentary, July-August 2002, pp. 38-45. I owe much 
of the information here recorded about French anti-Semitism to material 
in these sources.
    \32\ Finkelkraut's words are taken from a paper he delivered at a 
YIVO-sponsored conference on anti-Semitism, held in May 2003 at the 
Center for Jewish History in New York.
    \33\ For a well-informed review of this literature, see Tony Judt, 
``Anti-Americans Abroad,'' New York Review of Books, May 1, 2003, pp. 
24-27.
    \34\ David Pryce-Jones, ``The Latest Paris Fashion . . . and Also 
an Old One: Anti-Americanism in the Land of Tocqueville,'' National 
Review, November 11, 2000.
    \35\ Quoted in John Vinocur, ``Why France Disdains America,'' 
International Herald Tribune, October 9, 2002.
    \36\ Pascal Bruckner, ``Europe: Remorse and Exhaustion,'' Dissent, 
Spring 2003, p.14.
    \37\ Brenner, ``France's Scarlet Letter,'' p. 128.
    \38\ Bruckner, ``Europe: Remorse and Exhaustion,'' p. 15.
    \39\ The figures are from the Community Security Trust, which 
monitors anti-Semitic incidents in the U.K. ``Hundreds of Graves 
Desecrated,'' BBC News (May 9, 2003), http://news.bb.co.uk/2/hi/uk.
    \40\ Michael Gove, ``The Hatred of America Is the Socialism of 
Fools,'' The Times (London), January 8, 2003.
    \41\ Peter Beaumont, ``The New Anti-Semitism?'' The Observer, 
February 17, 2002.
    \42\ Ibid.
    \43\ Timothy Garton Ash, ``Anti-Europeanism in America,'' New York 
Review of Books, February 13, 2003, p. 34.
    \44\ Shalom Lappin, ``Israel and the New Anti-Semitism,'' Dissent, 
Spring 2003, p. 23.
    \45\ Karl Marx, ``On the Jewish Question,'' Deutsch-
FranzosischeJahrbucher, 1844, http://www.yorku.ca/hjackman/Teaching/
1000.06b-fall2002/ojq.html. Deutsch-Franzosische Jahrbucher, find date 
or.
    \46\ Bruckner, ``Europe: Remorse and Exhaustion,'' p. 12.
    \47\ Pinter's words are quoted by Norman Mailer in ``Only in 
America,'' New York Review of Books, March 27, 2003, p. 49.
    \48\ Representative Moran's remarks are quoted in ``Congressman Is 
Chastised for Remarks on Jews and Iraq Policy,'' New York Times, March 
12, 2003.
    \49\ Shlomo Shamir, ``Anti-Semitic Shuttle Conspiracy Theories 
Swamp the Internet,'' International Herald Tribune Online, http://
www.iht.com /cgi-bin/generic.cgi?template=articleprint.tmplh&Articled= 
87387.
    \50\ Bernard Wasserstein, ``Anti-Semitism and Anti-Americanism,'' 
Chronicle of Higher Education, September 28, 2001.
    \51\ On anti-Semitism in the Muslim world, see Bernard Lewis, 
``Semites and Antisemites: An Inquiry into Conflict and Prejudice, with 
a New Afterword'' (New York: Norton, 1999), and Robert S. Wistrich, 
``Muslim Anti-Semitism: A Clear and Present Danger'' (New York.: The 
American Jewish Committee, 2002).
    \52\ Joffe's words are quoted in Yair Peleg, ``Enemies, a Post-
National Story,'' Ha'aretz, English edition, March 9, 2003.
    \53\ See Craig Smith, ``French Jews Tell of a New and Threatening 
Wave of Anti-Semitism,'' New York Times, March 22, 2003.
    \54\ Stephen Haseler, ``The Varieties of Anti-Americanism,'' pp. 
42, 43.

                               APPENDIX B

                  Letter from the Anti-Semitism Front

   BY DAVID A. HARRIS, EXECUTIVE DIRECTOR, AMERICAN JEWISH COMMITTEE

                             July 31, 2003

    Much has been written and said--and rightly so--about changing 
attitudes toward Jews. There is no need to restate the case at length. 
Suffice it to say that an increasing number of Jews--and some non-Jews 
as well--have noted a growth in anti-Semitism, including new mutations 
of the world's oldest social pathology, and, as disturbingly 
importantly, a steady decline in the antibodies that have fought it off 
in the postwar period.
    This change appears most pronounced in Western Europe, where 
various combinations of anti-Americanism, anti-Semitism, anti-Zionism, 
and anti-globalization are merging in a dangerous mix. Purveyors tend 
to come overwhelmingly from the precincts of the universities, the 
intelligentsia, the media, and the extreme left.
    And, of course, the extreme right, finding new life in railing 
against the growing immigrant populations in Western European 
countries, may have put the Jews on the back burner for the moment, but 
the essential ingredients of racism, xenophobia, and, yes, anti-
Semitism remain intact as the pillars of their ideology and pose no 
less a long-term threat to us.
    The principal danger, though, emanates from within the Islamic 
world. Since Muslims comprise a majority in 56 countries and a growing 
minority in scores of others, in essence, this represents a global 
phenomenon.
    IIt would be highly irresponsible to paint with a broad brush 
stroke and suggest that all Muslims are implicated, when in fact this 
is far from the truth. At the same time, it would be equally 
shortsighted to pretend that anti-Semitism is non-existent in the 
Islamic world, or restricted to a tiny number of extremists, or nothing 
more than discontent with this or that Israeli policy. The problem is 
real, it is serious, and it can't be swept under the rug.
    By contrast, in the United States, Jews have felt relatively secure 
and immune from the disturbing trends abroad, believing in the 
``exceptionalism'' of American society. Yet a series of recent and 
highly publicized events on American campuses and in the lead-up to the 
war in Iraq has raised concerns about whether these are simply isolated 
and ephemeral incidents or, conversely, harbingers of more to come from 
a country undergoing profound sociocultural changes.
    What's been less discussed, however, is what to do about all this.
    Let's be realistic. Given its longevity, anti-Semitism in one form 
or another is likely to outlive us all. That seems like a safe, if 
unfortunate, bet. No Jonas Salk has yet come along with an immunization 
protocol to eradicate forever the anti-Semitic virus, nor is any major 
breakthrough likely in the foreseeable future.
    Even the devastation wrought by the Shoah did not engender any 
moral compunction on the part of the Kremlin about pursuing its own 
postwar anti-Semitic policies, including what can only be labeled as an 
attempt at cultural genocide. The same was true in Poland, a Soviet 
satellite, when a new wave of anti-Semitism in 1968 targeted the few 
remaining survivors of the Holocaust.
    Europe's sense of responsibility and guilt for acts of commission 
and omission during the Shoah, such as it may have been, is rapidly 
waning. Instead, we hear any number of unapologetic references from 
various quarters to Israelis as the ``new Nazis,'' descriptions of Jews 
as ``manipulative,'' ``clannish,'' and ``excessively influential,'' and 
even paeans to terrorists and suicide bombers as ``freedom fighters.'' 
Not very encouraging, is it, especially against the backdrop of a 
Holocaust that took place on European soil and that was preceded by 
centuries of mistreatment of Jews?.
    And not long after celebrating the milestone of an observant Jew 
being selected by a major political party for the second spot on its 
presidential ticket, American Jews have witnessed the ``poet laureate'' 
of New Jersey, who bizarrely ascribed placed blame for 9/11 to on 
Israel, being given a standing ovation by audiences at such leading 
universities such as Yale. Meanwhile, pro-Palestinian students are 
planning a national conference at Rutgers in October that calls for a 
Palestinian state ``from the river to the sea'' and glorifies homicide 
bombers who kill Israeli women, men and children. And a U.S. 
congressman publicly called on Jews to press the Bush administration 
regarding Iraq, suggesting that Jews, having allegedly pushed for war, 
were uniquely positioned, by dint of the power ascribed to them, to 
stop it.
    At the same time, we've learned something about how best to try to 
contain anti-Semitism, marginalize it, discredit it, and build a 
firewall around it. In other words, we've come to understand what's 
likely to work and, for that matter, what's not.
    Given everything that's going on, this may be a good moment to 
review, however briefly (even if this letter is not short), various 
strategies. I've identified at least eight key ``actors'' in the fight 
against anti-Semitism.
    First, let's get down to basics.
    Even aAt the risk of stating the obvious, societies based on 
democracy, pluralism, and equality before the law are the best 
guarantors for Jews or any minority (and, unquestionably, for the 
majority as well). Freedom and respect for all mean freedom and respect 
for everyone.
    When that notion is deeply entrenche, the results can speak for 
themselves. Among the best examples, perhaps, was the Danish rescue of 
its Jewish population, who were targeted for deportation by the 
occupying Nazis exactly sixty years ago. The Jews were seen as Danes 
who happened to attend a different house of worship. In helping the 
Jews, non-Jewish Danes felt they were simply assisting fellow Danes, an 
entirely natural and unexceptional thing in their own minds.
    Second, democraticsuch societies are a necessary but insufficient 
condition for defending against anti-Semitism (or other forms of 
racially, religiously, or ethnically motivated hatred). Translating 
lofty ideals into daily realities requires many things, not least the 
exercise of political leadership. And this is where we meet head-on the 
challenge of what works and what doesn't.
    Let me explain this point at some length because it is especially 
important. Political leaders set the tone for a country. By their 
actions or inactions, by their words or silence, by their engagement or 
indifference, they are able to send messages of one kind or another to 
the nation as a whole.
    With few exceptions, leaders in Europe in recent years have fallen 
short when it comes to confronting anti-Semitism.
    It's hardly worth considering the role of leaders in those Muslim 
countries where the problem is most virulent because they've either 
been encouraging anti-Semitism, perhaps with just a wink and a nod, or 
else they've lacked the courage and will to tackle it. In any case, 
democracy, pluralism, and equality before the law are rare commodities 
in such places.
    Still, I can't help but wonder what would happen if a prominent 
Arab leader like President Hosni Mubarak of Egypt would wake up one 
morning and decided that enough is enough--anti-Semitism is not only 
wrong, but a stain on the Arab self-image of tolerance and moderation--
and lead a campaign in the Arab world against those who demonize and 
otherwise dehumanize Jews. The effect would be electrifying. Dream on, 
you probably say, and I can't argue with you, but hope does spring 
eternal.
    In Europe, with few exceptions, leaders in recent years have fallen 
short when it comes to confronting anti-Semitism.
    Take the case of Lech Walesa, the hero of the Solidarity movement. 
In 1995, as president of democratic Poland, he attended a church 
service at a Catholic church in Gdansk. The priest, Rev. Henryk 
Jankowski, a known anti-Semite, did not disappoint. He referred to the 
Star of David as ``associated with the symbols of the swastika as well 
as the hammer and sickle,'' and that wasn't the half of it.
    What did President Walesa do in response? Did he walk out of the 
sermon? Did he issue a statement immediately after the service? Did he 
disassociate himself from Father Jankowski? No, none of the above. 
Instead, he simply chose to remain silent.
    The American Jewish Committee met with President Walesa shortly 
after this incident took place. It was a revealing session.
    We pressed the Polish leader to speak out and quickly. We argued 
that any further delay would only reinforce the image that Father 
Jankowski's venomous remarks were acceptable to Walesa and that such 
unabashed expressions of anti-Semitism were, as a consequence, 
legitimate in mainstream Polish society.
    He pushed back, contending that he knew Father Jankowski well 
enough to know that he was not an anti-Semite and, furthermore, there 
was no point in turning a small incident into a national story.
    We responded that the presence of the Polish president in the 
church during such a sermon made it, by definition, a national, indeed, 
an international, story. and the onus was on Walesa to repudiate the 
priest's bigotry.
    Our message, we feared, fell on deaf ears. We left the meeting 
feeling we had utterly failed in our mission.
    Ten days after the sermon, though, and with pressure coming from 
the U.S. and Israeli governments, the president grudgingly issued a 
statement, but the damage had been done. A not-so-subtle message had 
already been sent to the people of Poland. And, in any case, there was 
no specific condemnation of the priest, only some general words about 
Walesa's repugnance of anti-Semitism and his appreciation of the Star 
of David.
    Or take the case of Jacques Chirac, the French president. No one 
who knows him would ever suggest that he harbors any anti-Semitic 
feelings. To the contrary, he has always demonstrated friendship for 
the French Jewish community, even if his foreign policy is heavily 
tilted toward the Arab world.
    Yet this leader, who had the courage in 1995 to accept French 
responsibility for the crimes of Vichy--something none of his 
predecessors had done--was painfully slow to react to the wave of anti-
Semitic attacks that hit France starting in the fall of 2000.
    And, to be fair, since there was a government of ``cohabitation'' 
between Chirac and Lionel Jospin, the prime minister at the time and a 
Chirac foe, Jospin's cabinet was no quicker to respond than the 
president. Yet Jospin, like Chirac, was known as a friend of the Jewish 
community.
    Why, then, the delayed reflexes when these leaders must have 
understood that not only Jews were under attacked, but--and this point 
must be emphasized again and again--the highest values of democratic 
France as well?
    Whatever the reasons, and there is much speculation about them, the 
bottom line is that, however unintentionally, inevitably, a message was 
sent out to the perpetrators--North African youth living in the suburbs 
of major French cities--that their despicable acts were not taken 
terribly seriously. The result: they concluded they could act with 
impunity.
    Incidentally, in the past year since a new prime minister and 
cabinet have taken office, a very different--and much tougher--message 
has been projected, especially by the Mminister of the Iinterior, 
responsible for law enforcement, and the Mminister of Eeducation. Some 
positive results have been achieved, even if though the challenge is 
enormous, and the French Jewish community at least no longer feels a 
sense of total abandonment by the government.
    Let me offer one other example, though it involves only indirectly 
non- Jews. Nonetheless, it is instructive.
    Beginning in the early 1990s, shortly after German unification, 
right-wing violence against so-called foreigners erupted. The towns of 
Rostock, Molln, Hoyerswerda, and Solingen became synonymous with 
expressions of hatred. In Solingen, for example, five women of Turkish 
origin were killed when skinheads torched a home. And in Rostock, not 
only was a shelter for foreigners, mostly Vietnamese and Romanian 
gypsies, burned to the ground, but many town residents took to the 
streets and openly encouraged the right-wing extremists.
    Chancellor Helmut Kohl, a decent man who skillfully presided over 
the mammoth task of German unification, underestimated the significance 
of these tragic events.
    Rather than speak out forcefully and seek opportunities to identify 
with the targeted victims, thereby sending a message of inclusion and 
compassion to the nation, he adopted a low profile, to put it 
charitably. When the American Jewish Committee and others urged the 
chancellor to be more visible, a spokesman indicated that Kohl did not 
engage in ``condolence tourism.'' I wish he had.
    I could offer many more examples.
    It's striking how many times we've raised the issue of anti-Semitis 
with European leaders in the last couple of years, and raised the issue 
of anti-Semitism, only to be told, in the case of a European Union 
commissioner, that she was ``unaware of its existence,'' or, in the 
case of a foreign minister, that there was no evidence of anti-
Semitism, even as a poll had just come out indicating that anti-Semitic 
stereotypes were a serious problem indeed in his country. Why the blind 
spot? Why the denial? Again, there are several possible explanations, 
none of which offers any reassurance.
    By way of contrast, Joschka Fischer, the German foreign minister, 
challenged his compatriots to confront the problem of anti-Semitism 
frontally. In a newspaper article he wrote:

        Do we actually comprehend what Nazi barbarism and its genocidal 
        anti-Semitism did to us, to Germany, its people and its 
        culture? What Hitler and the Nazis did to Germany's Jews they 
        did first and foremost to Germans, to Germans of the Jewish 
        faith! Albert Einstein was as much a German as was Max Planck. 
        . . . That is why the question whether German Jews feel secure 
        in our democracy and, though even today this can only be a 
        hope, might one day be able to feel ``at home'' in it again, is 
        not a minor one, but a question par excellence about the 
        credibility of German democracy.

    More such thoughtful and courageous statements from political 
leaders, bolstered by appropriate actions, are precisely what's are 
needed. In America, perhaps, we've come to expect them, as when our 
government publicly condemned the rash of anti-Semitic canards blaming 
Jews for 9/11 or, just before, boycotted the hate fest under UN 
auspices at Durban. But elsewhere, at least when it comes to Jews, such 
statements and actions have been far less frequent or forceful.
    Frankly, given Europe's historical record, it should be precisely 
these countries--knowing as they do where the slippery slope of hatred 
can lead--which assume worldwide leadership in the struggle against the 
cancer of anti-Semitism. Wouldn't that send a powerful message about 
learning from the past? We've challenged many European leaders to play 
just such a role, but admittedly with only limited success to date.
    The words of Soren Kierkegaard, the nineteenth-century Danish 
philosopher, ought to serve as a useful reminder: ``Life must be lived 
forward, but can only be understood backward.''
    The third area for consideration is the role of law, law 
enforcement, and the judiciary.
    This gets tricky, I realize. American and European laws on what 
constitutes a punishable crime in the realm of incitement can be quite 
different. There are varying approaches to the proper balance between 
protecting free speech and criminalizing the propagation of racial or 
religious hatred.
    For instance, a number of European countries, including Austria, 
Belgium, France, Germany, Spain, and Switzerland, have laws that make 
denial of the Holocaust a criminal offense, whereas the United States 
does not.
    As one illustration, Switzerland adopted a law in 1994 that outlaws 
``public denial, trivialization and disputation of genocide or other 
crimes against humanity,'' with a maximum prison sentence of three 
years.
    Ironically, we hear persistent complaints from countries like 
Austria and Germany that much of their anti-Semitic material, including 
video games and books, originates in the United States. The problem has 
only grown more acute because of the rapidly increasing popularity of 
the Internet. We are often asked if there isn't a way around First 
Amendment protections to stop these unwelcome American ``exports.''
    Meanwhile, in the United Kingdom, as we learned in a recent meeting 
with the Parliamentary Under Secretary of State:

        It is an offense to use threatening, abusive, or insulting 
        words or behavior with intent or likelihood to stir up racial 
        hatred against anyone on the grounds of color, race, 
        nationality, or ethnic or national origins. Under recent anti-
        terrorism legislation, the maximum penalty for the offense was 
        increased from two to seven years' imprisonment. Under the same 
        legislation, it is also now an offense to stir up hatred 
        against a racial group abroad, such as Jews in Israel [emphasis 
        added].''

    The range of ways in which democratic, law-based societies seek to 
deal with hate speech and hate crimes could fill volumes, as would an 
evaluation of such efforts.
    Moreover, there is an entire body of international conventions (and 
organizations) to consider in the struggle against anti-Semitism.
    The Soviet Jewry movement relied heavily on such instruments as the 
Universal Declaration of Human Rights and the Helsinki Final Act to 
buttress the case for the rights of Jews in the USSR.
    So, too, do we need to consider as tools the protections enshrined 
in documents like the UN Convention on the Elimination of All Forms of 
Discrimination and the International Covenant of Civil and Political 
Rights. Article 20 of the latter document, as one example, includes the 
following language: ``Any advocacy of national, racial, or religious 
hatred that constitutes incitement to discrimination, hostility, or 
violence shall be prohibited by law.''
    One recent and effective use of an international organization was 
the two-day meeting in Vienna devoted to anti-Semitism that was 
convened by the Organization for Security and Cooperation in Europe. 
Importantly, there is agreement among the governments involved to 
gather again next year.
    The topic of national and international law and covenants, touched 
on only briefly here, is unquestionably important. In the final 
analysis, it goes without saying, what really counts is not just the 
laws and mechanisms on the books, significant though they may be, but 
the degree of commitment to their implementation and enforcement.
    Fourth, there is the media, which, as we all well know, plays an 
extraordinarily powerful role not only in shaping individual attitudes, 
but also in influencing the public policy agenda and priorities of 
decision-makers. As someone once suggested, ``If CNN didn't report on 
it, did it ever actually happen?''
    In parts of the Muslim world, of course, the media, whether in 
government or private hands, or the murky space in between, is a 
convenient vehicle for propagating anti-Semitism. Professor Robert 
Wistrich, an expert on anti-Semitism and the author of a superb 
monograph for the American Jewish Committee entitled ``Muslim Anti-
Semitism: A Clear and Present Danger,'' offers several examples of the 
media's role in peddling unadulterated anti-Semitism.
    In Europe over the past three years, there have also been numerous 
documented instances of anti-Semitic images and stereotypes seeping 
into mainstream, not fringe, outlets.
    Among the most disturbing developments were during the period of 
the Church of the Nativity standoff, when some newspapers reawakened 
the deicide charge--finally put to bed by the Catholic Church, in 1965, 
at Vatican Council II--and, more generally, the transference of Nazi 
images onto Israel, with the Israeli prime minister equated with the 
Fuehrer, the Israeli military likened to the Wehrmacht or even the SS, 
and the West Bank represented as an Israeli-run concentration camp.
    Such depictions go well beyond any conceivable legitimate criticism 
of Israel to something far deeper and more pernicious, and must not be 
left unchallenged.
    Here in the United States, while there have been some distressing 
images, my principal concern has more to do with belated--and 
insufficient--reporting on anti-Semitism in the Arab world as well as 
its reemergence in Europe. The media must be helped to understand the 
significance and newsworthiness of these issues. It's certainly not a 
lost cause, but it is an uphill battle.
    To be sure, there have been stories here and there and the 
occasional column or editorial. But they have been relatively few and 
far between. I was especially struck by the lack of media interest in 
the Wistrich study, which, incidentally, makes for hair-raising 
reading.
    Released at a press conference at the National Press Club in May 
2002, it generated only a few articles, all in the Jewish or Israeli 
press. A Reuters reporter covered the event and filed a long story, 
but, we later learned, her editors apparently didn't find the topic of 
sufficient interest. One wonders what it would take to capture their 
attention on the subject. And this is not the only such example, 
either.
    The study of Saudi textbooks, cosponsored by the American Jewish 
Committee and released in January 2003, met essentially the same fate. 
The major media outlets never reported on what was the first detailed 
report documenting the hatred and contempt of the West that Saudi 
children are taught from Grade One. Is this not deemed relevant to a 
fuller understanding both of 9/11 and the larger war on international 
terrorism?
    Fifth, there is the role of the ``values'' community, including 
religious, ethnic, racial, and human rights leaders and their 
institutions.
    Ideally, each of these actors should regard an assault on any one 
constituency, e.g., an anti-Semitic or racist incident, as an attack on 
all--and on the kind of world we are seeking to create--and respond 
forcefully. In a way, without wishing to stretch the analogy, it would 
be akin to a NATO member seeking support from other members under 
Article 5, which deems an attack on one as an attack against all.
    Alas, there is no charter binding the values community, although 
there is an important provision in the Fundamental Agreement between 
the Holy See and the State of Israel, signed in December 1993, which 
might provide a model. Article 2 includes the following language:
    The Holy See and the State of Israel are committed to appropriate 
cooperation in combating all forms of anti-Semitism and all kinds of 
racism and of religious intolerance, and in promoting mutual 
understanding among nations, tolerance among communities and respect 
for human life and dignity.
    Virtually identical language could be used to create a charter for 
nongovernmental organizations committed to advancing human relations 
and mutual respect. What's needed, in effect, is a Coalition of 
Conscience in the voluntary sector.
    Meanwhile, there are best-practice examples that can help guide us.
    Shockingly, a cinder block was thrown through a bedroom window 
displaying a Chanukah menorah in Billings, Montana, ten years ago. It 
was the room of a five-year-old boy. Fortunately, he wasn't hurt. What 
followed was quite remarkable.
    Led by local church leaders, the police chief, and the editor of 
the Billings Gazette, the town, previously quite apathetic, responded 
by placing thousands of paper menorahs in the windows of shops and 
homes. It was an exceptional and effective way of reacting. It said to 
the hate mongers: We are one community and we will not allow you to 
divide us.
    In the same spirit, responding to the wave of arson attacks 
targeting African-American churches in the south in the 1990s, the 
American Jewish Committee joined with the National Council of Churches 
and the National Conference of Catholic Bishops, in a display of 
ecumenical partnership, to raise millions of dollars to rebuild the 
damaged houses of worship. Moreover, AJC adopted the Gay's Hill Baptist 
Church in Millen, Georgia, and helped construct it from the ground up 
after it was completely destroyed in an act of hate.
    The concept of a Coalition of Conscience also explains why the 
American Jewish Committee sent a delegation to a mosque in Cologne, 
Germany, in 1993 to attend the funerals of the five women of Turkish 
origin killed in their home in Solingen, and why, more recently, we 
chose to mobilize our resources to assist Muslim victims of Serbia's 
ethnic cleansing in Kosovo.
    Every major religion has a variation of the golden rule. As Rabbi 
Abraham Joshua Heschel once remarked, ``We are commanded to love our 
neighbor: this must mean that we can.'' We can, but do we?
    Words are important, but timely and principled actions are what 
really count. And those within each faith tradition committed to the 
values of compassion and concern for all must lead the way.
    Sixth, there is the long-term and irreplaceable role of education. 
As the Southern Poverty Law Center put it:

          Bias is learned in childhood. By the age of three, children 
        are aware of racial differences and may have the perception 
        that ``white'' is desirable. By the age of 12, they hold 
        stereotypes about numerous ethnic, racial, and religious 
        groups, according to the Leadership Conference Education Fund. 
        Because stereotypes underlie hate, and half of all hate crimes 
        are committed by young men under 20, tolerance education is 
        critical.
          About 10 percent of hate crimes occur in schools and 
        colleges, but schools can be an ideal environment to counter 
        bias. Schools mix youths of different backgrounds, place them 
        on equal footing and allow one-on-one interaction. Children are 
        naturally curious about people who are different.

    There are a number of tested and successful school-based programs 
designed to teach mutual respect. Incidentally, I'm not a big fan of 
using the word ``tolerance'' in this particular case; it strikes me as 
rather weak. The goal should not be simply to teach people to 
``tolerate'' one another, but, ideally, to respect and understand one 
another.
    That said, organizations like the Southern Poverty Law Center, 
Facing History, the Anti-Defamation League, and the American Jewish 
Committee have all developed acclaimed programs used in schools across 
the U.S. and, increasingly, in other countries where diversity is a 
factor in the population, which these days is just about everywhere. 
And the State of New Jersey has led the way in creating a curriculum 
based on the lessons of the Holocaust for all high-school students.
    The challenge in the United States, given its vast size and 
decentralized school system, is to reach enough schools, then to get a 
long-term commitment to inclusion of such programs in the curriculum. 
Moreover, there is a need, of course, for adequate teacher training and 
also for monitoring impact, both over the short term and the longer 
term as well.
    In addition to such programs, the American Jewish Committee has 
developed another model for schools. Named the Catholic/Jewish 
Educational Enrichment Program, or C/JEEP, it links Catholic and Jewish 
parochial schools in several American cities. Priests and rabbis visit 
each other's schools to break down barriers and familiarize students 
with basic elements of the two faith traditions. Students who might 
otherwise never meet have an opportunity to come to know one another. 
The goal is to ``demystify'' and ``humanize'' the ``other,'' and it 
works.
    Again, as with the curriculum-based programs, the biggest challenge 
here is the sheer number of schools and the resources involved--not to 
mention the occasional bureaucratic hurdle--in order to reach anything 
approaching a critical mass of students.
    (It remains to be seen what impact Mel Gibson's upcoming film, 
``The Passion,'' will have on Catholic attitudes toward Jews, but, 
given current reports, it is hardly likely to be positive.)
    One more word on education. When schools in Saudi Arabia or 
madrassas in Pakistan teach contempt, distrust, or hatred of others, be 
they Christians, Jews, or Hindus, or, for that matter women, we face a 
whole other challenge.
    Shining the spotlight of exposure on these school systems is vital, 
which is why the American Jewish Committee cosponsored the Saudi study. 
Sharing the information with governments that have influence in these 
countries is necessary. For instance, Saudi spin doctors talk of the 
``enduring values'' between their country and the United States. 
Surely, then, that gives Washington some leverage in Riyadh. And from 
our long experience in dealing with problematic curricula and 
textbooks, perseverance is the key; Things seldom happen overnight.
    Seventh, there is the role of the individual. In a more perfect 
world, the combination of family environment, education, religious 
upbringing, and popular culture all lead in the same direction--to 
molding individuals with a strong commitment to the values of mutual 
respect and mutual understanding, social responsibility, and moral 
courage.
    Our world is far from perfect. We may never succeed in completely 
eliminating anti-Semitism or other forms of hatred. Still, we must 
always strive to build the kinds of societies in which the altruistic 
personalities of the good women and men of Denmark, or the French 
village of Le Chambon-sur-Lignon (described as ``the safest place in 
[Nazi-occupied] Europe for Jews''), or the likes of an Abraham Joshua 
Heschel, Jan Karski, Raoul Wallenberg, Martin Luther King, Jr., or 
Andrei Sakharov, are increasingly the norm, not the exception.
    As I look around today, I see countless decent people, whether in 
the United States or elsewhere, who reject any form of anti-Semitism. 
But, frankly, there are too few prominent non-Jews of the likes of a 
Per Ahlmark, the former deputy prime minister of Sweden, prepared to 
speak out on the danger posed by contemporary anti-Semitism.
    And finally, in the struggle against anti-Semitism, new or old, we 
must take into account the key role of the Jewish world, including the 
State of Israel and local, national, and international Jewish 
organizations.
    The Jewish community looks radically different than it did, say, 
sixty or seventy years ago. Today, there is an Israel; then, there was 
not. Today, there are sophisticated, savvy, and well-connected Jewish 
institutions; then, Jewish institutions were much less confident and 
sure-footed.
    Collectively, we have the capacity to track trends in anti-
Semitism, exchange information on a timely basis with other interested 
parties, reach centers of power, build alliances within and across 
borders, and consider the best mix of diplomatic, political, legal, and 
other strategies for countering troubling developments.
    We may not succeed in each and every case. But we've come a very 
long way thanks to a steely determination, in Israel and the Diaspora, 
to fight vigorously against anti-Semitism, while simultaneously helping 
to build a world in which anti-Semitism--and everything it stands for--
is in irreversible decline.

                               APPENDIX C

  Testimony of Ambassador Alfred H. Moses, Former President, American 
Jewish Committee, before the Commission on Security and Cooperation in 
 Europe, On ``Combating anti-Semitism in the OSCE Region.''--December 
                                10, 2002

    Mr. Chairman,
    I would like to thank you for the privilege of addressing this 
inter-parliamentary forum on behalf of the American Jewish Committee 
and its more than 125,000 members and supporters.
    As a Past President of the American Jewish Committee and current 
Chairman of its Geneva-based UN Watch institute, and as an American 
with a record of four decades of service to my country and to the 
causes it champions around the world, I have viewed the resurgence of 
anti-Semitism in Europe the past two years with alarm.
    Prior to the fall of the Berlin Wall in 1989, I visited Europe 
regularly to assist in the flight of Jews and Christians from Communist 
oppression, particularly in Romania, where I later served as U.S. 
Ambassador.
    While anti-Jewish sentiment was still apparent after World War II, 
it was visibly and encouragingly in decline in the ensuing decades, 
only to reemerge in the last few years in forms not previously seen. We 
are witnessing a reemergence of anti-Semitism that has left many 
European Jews feeling more vulnerable and, as a consequence, 
disillusioned and even more frightened than at any time since the 
Holocaust.
    Mr. Chairman, the past two years have seen hundreds of aggressive, 
often violent, acts targeting Jewish individuals and institutions in 
the OSCE region.
    Just last Wednesday night, 300 skinheads interrupted a Chanukah 
candle-lighting ceremony in downtown Budapest for over an hour with 
shouts of ``Hungary is for Hungarians, and it's better that those who 
are not Hungarians leave.''
    In Ukraine earlier this year, 50 youths marched two miles to attack 
a synagogue in Kiev, where they beat the Lubavitch principal of a 
yeshiva.
    In France, the problem has been particularly acute. Scores of 
synagogues and Jewish day schools have been firebombed and desecrated. 
In the month of April 2002 alone, the French Jewish community reported 
119 anti-Semitic acts and 448 anti-Semitic threats--while the 
Government was dismissing these outrages as simple acts of vandalism.
    In Belgium, where politically motivated legal proceedings (now 
dismissed) have been brought against Israeli Prime Minister Ariel 
Sharon, the Chief Rabbi and a friend were assaulted and spit upon by a 
gang as they left a restaurant.
    In Denmark, the widely circulated newspaper, Jutland Posten, ran a 
radical Islamic group's offer of a $35,000 reward for the murder of a 
prominent Danish Jew.
    In Germany, morbid reminders of the Holocaust have appeared in the 
form of slogans like ``Six million is not enough,'' which was scrawled 
on the walls of synagogues in Berlin and elsewhere. Jewish memorials 
have been defaced with swastikas, Jews have been attacked in the 
streets--leading some German municipal officials to warn Jews not to 
wear identifiable Jewish symbols.
    In Greece, newspapers have bombarded readers with anti-Semitic 
editorials and cartoons comparing the Israeli military operation in 
Jenin--where false cries of ``massacre'' have since been disproven--to 
the Holocaust and likening Prime Minister Sharon to Adolph Hitler. Such 
polemics reached a fevered pitch of hysteria and antisemitism in 
Greece.
    These manifestations of Jew-hatred are rooted in a tradition of 
anti-Semitism that has plagued Europe for centuries. The historic, 
theologically based Judeophobia gave way to an ethno-centric 
nationalism in the nineteenth and twentieth centuries in which Jews 
were viewed as an alien presence in the states of Europe, leading to 
suspicion, vilification, exclusion, expulsion and, ultimately, for two-
thirds of the Jews of Europe, extermination.
    The historical anti-Semitism of Europe has been given new life by 
voices on both the political right and the left. There are a number of 
factors at work here:

  <bullet> The Israeli-Palestinian conflict, and its distorted image in 
        much of the popular media in Europe, has provided a pretext for 
        anti-Semitic characterizations of Israel and its leaders and 
        attacks on Jews and Jewish institutions.
  <bullet> Israel, closely identified with the United States, has 
        become a surrogate target for anti-American and anti-
        globalization protests--making Jew-bashing an all-too-common 
        mode of attack.
  <bullet> Holocaust restitution issues have opened much that was long 
        dormant--both bank accounts and anti-Semitic feelings.
  <bullet> Those right-wing parties that have always been anti-Semitic 
        at their roots have gained new vigor in Europe by playing on 
        anti-immigrant and anti-foreigner sentiments, which easily 
        spill over into anti-Semitism. Jean-Marie Le Pen and Joerg 
        Haider may be the best-known proponents of these views--but 
        lesser-known and just as dangerous political personalities are 
        on the rise in other Western European states.

    These factors have provided traditional antisemites with new 
intellectual cover to rationalize their anti-Semitism--and swell the 
ranks of the new forces of hate.
    Comments such as the reference by the French ambassador to Britain, 
who described Israel with a well-reported epithet not to be repeated 
here, or the criticism by a Swiss politician of ``international 
Judaism'' in the wake of the Swiss bank negotiations, are but examples, 
as are the words of a Liberal member of Britain's House of Lords: 
``Well, the Jews have been asking for it and now, thank God, we can say 
what we think at last.''
    I know from my personal experience that anti-Semitism is never far 
below the surface in Central and Eastern Europe. Openly anti-Semitic 
political figures--among them Vadim Tudor of Romania, Vladimir 
Zhirinovsky of Russia, and Istfan Czurka of Hungary--are among the 
names most familiar to this Commission, but they are not alone.
    Against this backdrop, the pronounced growth of Europe's Arab and 
Muslim population presents another factor. The Muslim community in 
Europe today may number close to 20 million. In France alone, some six 
million inhabitants with roots in the Maghreb region of North Africa 
are not integrated into French society nor held to the same standards 
when it comes to acts of violence. It is generally understood that most 
of the recent attacks on Jews and Jewish institutions in France have 
been carried out by members of this community.
    Arabic-language cable TV networks such as Al Jazeera, print 
publications, and Internet sites, which offer predictably one-sided, 
inflammatory coverage of the Israeli-Palestinian conflict, are also 
spreading virulent anti-Semitism. The Arabic media is awash in a 
``tidal wave of antisemitism,'' according to Professor Robert Wistrich 
in an American Jewish Committee report, Muslim Anti-Semitism: A Clear 
and Present Danger. These outlets employ primitive Jewish stereotypes 
in service of their anti-Zionist message, often borrowing symbols and 
motifs from Nazi propaganda. Thus, one sees images of Jews as ghoulish, 
even satanic, caricatures with misshapen noses, and of Israelis bearing 
swastikas or drinking the blood of children. During the Ramadan that 
just ended, Arabic communities were treated to satellite broadcasts 
from Cairo and throughout the Middle East of a televised version of the 
Protocols of the Elders of Zion. Today, Arabic editions of Mein Kampf 
sell briskly in London and other European capitals.
    Sadly, many officials in the OSCE region persist in viewing anti-
Semitism as a purely political phenomenon related to the Middle East 
conflict; once the Middle East conflict subsides, violence against 
Jews, they claim, will also diminish. They have refused to recognize 
the severity of the problem as a longstanding issue of hate, racism, 
discrimination and, ultimately, human rights. Too often, they have 
failed to speak out against anti-Semitism with a pragmatism, intensity 
and a conviction that the current situation demands. They have also 
ignored the way in which the ``new anti-Semitism'' uses criticism of 
Israel and Israeli practices as a justification for acts of violence 
against Jews. As I stated at the outset, the problem of anti-Semitism 
today is more acute than it has been in decades.
    There are exceptions to the prevailing lack of official will and 
vision in confronting anti-Semitism--few, unfortunately, as inspiring 
as that offered by German Foreign Minister Joschka Fischer. But since 
many leaders in the OSCE region still cannot accept the gravity of 
present circumstances, they need to hear often and emphatically from 
U.S. officials, in the Administration and in the Congress, that anti-
Semitism is again a serious problem in Europe, one that they must 
address. The United States has a great deal of positive influence at 
its disposal, and should use it.
    The most recent round of NATO enlargement, announced at the Prague 
Summit last month, provided an example of the constructive role that 
the U.S. can play in this arena. Thanks to America's determined 
insistence over the past decade, governments in Central and Eastern 
Europe understand that they must address problems related to their 
Holocaust-era past before they can finally join NATO. The actions these 
countries have taken in this regard are directly connected to the NATO 
aspirations of their governments. For example, Romania--one of the 
seven republics formally invited to NATO accession talks last month, 
and a country I know well--has officially rejected the rehabilitation 
of its fascist war-time dictator, Marshal Antonescu, while the 
government has instituted a Holocaust studies program at its military 
academy in Bucharest and a course on tolerance at the University of 
Cluj, long a hotbed of Romanian-Hungarian tension--and even violence.
    As Romania and the other six countries slated for NATO accession in 
2004 undergo further review in the lead-up to ratification, the United 
States must remain vigilant lest these governments backslide on these 
issues. The Prague Summit is not the end; the Administration and the 
Congress must continue to hold these countries accountable in combating 
anti-Semitism and should encourage their ongoing efforts at Holocaust 
education and commemoration.
    At the same time, the European Union should be encouraged to hold 
EU-aspirant countries to the same standard as that structure enlarges. 
Germany, as the country with the greatest awareness of the Holocaust 
and of the dangers of anti-Semitism, has a special responsibility in 
this regard.
    Through its membership in OSCE--its ``seat at the table'' of a 
multilateral organization centered in Europe--the United States should 
work with EU member-states to make the problem of anti-Semitism a top 
priority.
    Inter-governmental mechanisms such as the Council of Europe's 
European Commission on Racism and Intolerance and the European Union 
Monitoring Centre on Racism and Xenophobia have not effectively 
addressed the scourge of anti-Semitic acts. The United States and 
Germany have already shown leadership to overcome this failure.
    The resolution adopted at the Parliamentary Assembly in Berlin was 
the key step initiated by you, Congressman Smith, together with German 
Parliamentarian Gert Weisskirchen, to mobilize participating states. 
Later, U.S. Ambassador to the OSCE Stephan Minikes led the way in 
Warsaw and beyond to garner support for the first-ever separate OSCE 
meeting on anti-Semitism, which we expect to take place in 2003. By 
focusing on the issue through an international forum, national experts 
and policy-makers will be able to create a system to assess and analyze 
the origins of anti-Semitism in order to build the legal and 
educational standards to eradicate the scourge.
    Mr. Chairman, only last week Jews around the world marked the 
holiday of Chanukah, a festival that celebrates the triumph of freedom 
over tyranny--in which leadership made the critical difference. In our 
lifetimes, we have seen freedom's hard-won victory over oppression 
across Europe--vanquishing Nazism and throwing off the yoke of 
Communism. And we have seen the unique, irreplaceable role of political 
leadership in these struggles.
    I recall, twenty years ago, celebrating Chanukah with my then-young 
daughters in a small Romanian village deep in the Carpathian Mountains. 
As we marked the Festival of Lights with our Romanian brethren, a 
menacing group marched on the synagogue in darkness. Suddenly, a 
Romanian police force appeared, turned back the mob--and saved this 
small remnant of Romanian Jewry that had gathered to light the lights 
of Chanukah. Violence was averted by official action, and the Chanukah 
celebration continued on.
    Mr. Chairman, the history that befell European Jewry in my lifetime 
is a tragic one. With anti-Semitism now at its greatest peak since the 
most tragic of all human episodes, the Holocaust, let us be mindful of 
this history. Let us speak out; let us use our influence; let us 
remember the price of inaction or denial; and let us act now.
    Thank you.

    Senator Allen. Thank you for your very strong statement, 
and we will stand strong for freedom on this committee, and I 
know I speak for my colleagues, as well. In Virginia, we call 
religious freedom the first freedom, since Mr. Jefferson 
authored the Declaration, the Statute of Religious Freedom, and 
we're very proud of that. And thank you for your strong 
statement.
    Now, we're going to conclude the panel with Mr. Levin.

   STATEMENT OF MARK B. LEVIN, EXECUTIVE DIRECTOR, NATIONAL 
           CONFERENCE ON SOVIET JEWRY, WASHINGTON, DC

    Mr. Levin. Mr. Chairman, it is also my privilege to appear 
before you today.
    I ask that my full prepared statement be entered into the 
record.
    Senator Allen. It will be.
    And, Mr. Harris, your full statement and recommendations 
are in the record, as well.
    Mr. Levin. As you know, NCSJ is an umbrella organization of 
nearly 50 national agencies, including the ADL and the American 
Jewish Committee, and over 300 local community federations and 
community councils across the United States.
    Mr. Chairman, I would like to begin by recognizing the 
leadership you have demonstrated since assuming the helm of 
this subcommittee, as reflected by your initiative in calling 
this hearing. I also want to recognize the leadership and 
commitment of your colleagues, who I'm sorry aren't here right 
now, but I've had the privilege of working with Senator Biden 
and Senator Sarbanes for more than 20 years on the plight of 
Jews in the now former Soviet Union, but on human rights issues 
in general, and with Senator Voinovich over the last couple of 
years. And it's through the commitment of you and your 
colleagues that we've been able to move forward on so many 
issues. And that's why, again, it is a privilege to be here.
    My testimony will focus on governmental responses to anti-
Semitism, region-wide efforts at coordination, and how the 
United States can play, and is playing, an instrumental role.
    American leadership has already advanced the campaign 
against European anti-Semitism in significant ways. By 
facilitating a new consensus to support concerted action, 
primarily through the OSCE, the U.S. Government and Congress 
have begun breaking down the excuses for inaction.
    The Senate has an opportunity to continue the U.S. role in 
ensuring respect for human rights at home and abroad. This 
committee can help dispel the myth that anti-Semitism is a 
consequence of Israeli or American policies.
    Fittingly, several post-Soviet states have demonstrated 
their early support for the OSCE initiative. Some of these 
societies harbor endemic anti-Semitism, but they are taking 
steps to confront and neutralize it, to educate the public, and 
protect minorities from popular or politically motivated 
threats. Most still have a distance to travel, but they realize 
the imperative.
    Last June, in Vienna, the OSCE launched a new framework 
that explicitly recognizes anti-Semitism as a distinct human-
rights concern and a real threat to regional stability. This 
historic step would have been impossible without strong support 
from Capitol Hill, including Senator Voinovich's intervention 
at a particularly critical moment.
    It is vital to begin collecting information and proposals 
from all 55 OSCE participating states--now--so that the data on 
anti-Semitic hate crimes, constructive legislation, and 
education and media initiatives can be assembled in time for 
next spring's OSCE conference in Berlin. It is vital that the 
United States sustain this momentum with high-level 
representation at the OSCE ministerial in December, ideally by 
Secretary of State Powell.
    Government response to anti-Semitism in the successor 
states has been improving during the past few years. Several 
countries, with a long history of anti-Semitism, have 
undertaken efforts to implement laws against incitement, to 
speak out against anti-Semitism, and to promote research and 
education regarding Jewish heritage, the holocaust, and 
tolerance. But many difficulties remain.
    While official or state anti-Semitism has been relegated to 
the past, popular anti-Semitism persists. Even leaders who 
speak out strongly against anti-Semitic rhetoric or activities 
often avoid repudiating anti-Semitic speeches by political 
allies and challengers.
    We hold the leaders responsible, not for the sentiments of 
their constituents, but for their commitment to impacting those 
sentiments. To be truly free societies, whether in France or 
Russia, anti-Semitism cannot be considered a risk-free 
political device. There must be consequences, be they legal, 
political, or social.
    Important elections are approaching in Russia and Ukraine. 
In the past, politicians in both of these countries have been 
tempted to resort to anti-Semitic appeals to further their 
standing in the polls. We are watching the situation very 
closely. It is our hope that we don't see a repeat of what we 
have seen in past parliamentary and Presidential elections in 
both of these countries.
    In several countries, government officials still tend to 
classify anti-Semitic violence as hooliganism rather than anti-
Semitism. Belarus has a mixed record, reflecting the need for 
more involvement by the national, regional, and local 
authorities in addressing issues of vandalism, cemetery 
desecration, and construction over Jewish graves. These 
difficulties are only compounded by a sweeping new religion law 
which enshrines the Orthodox Church as the preeminent faith. In 
the last several weeks, Mr. Chairman, in Belarus, there have 
been several anti-Semitic acts, acts of desecration, acts 
against Jewish institutions.
    Our work is far from complete, and we must not allow the 
latest Western European eruption of anti-Semitism to make us 
forget about the very real and ongoing societal undercurrent of 
anti-Semitism which persists, especially in the former Soviet 
Union. Beyond bolstering frameworks like the OSCE, there is 
much that we, as a nation, must do to fill them with substance 
and content. Some programs and laws that have succeeded at home 
may be applicable to situations in Western and Eastern Europe. 
We must work with the local communities in the successor states 
and elsewhere to tailor our approach as much as to empower 
emerging leaders on the ground. Close contact and cooperation 
with local activists reinforces their role in society and 
enhances the legitimacy of citizen-based advocacy.
    The responsibility of the United States, as a nation 
steeped in its own history of intolerance, must be to motivate, 
but we must also be willing to bear some of the cost of 
realizing this investment in humanity. If some of these nations 
in the former Soviet Union continue to lag in their democratic 
progress, the response should be to increase, rather than 
reduce, assistance to non-governmental and citizen groups. 
Rather than reducing American-funded broadcasts to Central and 
Eastern Europe, these should be broadened and infused with even 
greater attention to pluralism and minority issues. Mr. 
Chairman, NCSJ and a host of organizations here and abroad know 
of the Senate's commitment and effectiveness on this issue.
    Thank you, again, for this opportunity and for the 
continued leadership that you and your colleagues have shown. 
Mr. Chairman, in my prepared statement, I have a series of 
recommendations for the OSCE, specifically, and for the U.S. 
Government, in general.
    Thank you.
    [The prepared statement of Mr. Levin follows:]

    Prepared Statement of Mark B. Levin, Executive Director, NCSJ: 
 Advocates on Behalf of Jews in Russia, Ukraine, the Baltic States and 
                                Eurasia

    Mr. Chairman, Senator Biden and Members of the Subcommittee, it is 
my privilege to appear before you today. I am joined here today by my 
colleagues, Shai Franklin, NCSJ's Director of Governmental Relations, 
and Lesley Weiss, NCSJ's Director of Community Services and Cultural 
Affairs.
    As you know, NCSJ is an umbrella of nearly 50 national 
organizations and over 300 local community federations and community 
councils across the United States. We coordinate and represent the 
organized American Jewish community on advocacy relating to the former 
Soviet Union, and our membership includes the American Jewish 
Committee, Anti-Defamation League, B'nai B'rith International, 
Conference of Presidents of Major American Jewish Organizations, Hebrew 
Immigrant Aid Society, Jewish Council for Public Affairs, United Jewish 
Communities, and many other well-known agencies devoted to promoting 
tolerance and combating prejudice and anti-Semitism around the world. 
This combined experience and expertise has significantly informed my 
comments to you today.
    Mr. Chairman, I would like to begin by recognizing the leadership 
you have demonstrated since assuming the helm of this Subcommittee, as 
reflected by your initiative in calling this hearing. We have long 
appreciated Senator Biden's leadership on our issues of concern, 
particularly this body's consistent bipartisan commitment to combating 
anti-Semitism. I must also pay tribute to Senator Voinovich, whose 
personal role during the past two years--including his service on the 
U.S. Helsinki Commission--has been instrumental in securing concerted 
international coordination on today's topic.
    My testimony will focus on governmental responses to anti-Semitism, 
region-wide efforts at coordination, and how the United States can play 
and is playing an instrumental role.
    A major feature of European history--both recent and distant--is 
deep-seated anti-Semitism and anti-Jewish violence. The upsurge of 
anti-Semitism in Europe during the past two years is often attributed 
to Muslim or Middle Eastern communities. The responsibility for law 
enforcement and shaping public attitudes, however, resides with 
European society as a whole, with European governments, and with 
multilateral security and humanitarian agencies. Since the 19th 
century, the United States Senate has actively addressed European anti-
Semitism with the understanding that European stability is incompatible 
with unchecked popular or state-sponsored anti-Semitism.
    Mr. Chairman, American leadership has already advanced the campaign 
against European anti-Semitism in significant ways. Europe's 
instinctive tendency to address anti-Semitism as a mere manifestation 
of broader xenophobia and bigotry, rather than as a distinct and 
separate form of human rights violation, is a misreading of history. 
Rather than an outgrowth of generalized ethnic hatred, anti-Semitism is 
the medieval and modern prototype for the racial and ethnic bigotry 
that has sadly become diversified throughout the continent. Only by 
addressing anti-Semitism as a unique phenomenon can Europeans begin to 
correct the social ills of broad-based xenophobia.
    By facilitating a new consensus to support concerted action, 
primarily through the Organization for Security and Cooperation in 
Europe (OSCE), the United States Government and Congress have begun 
breaking down the excuses for inaction. Against the backdrop of U.S. 
leadership in the Middle East crisis, and given the history of U.S. 
leadership during the decades of Cold War confrontation, the Senate has 
an opportunity to continue the U.S. role in ensuring respect for human 
rights at home and abroad--focusing on concern for renewed anti-Semitic 
violence in Western Europe and the former Soviet Union.
    In highlighting the efforts by Members of Congress and the United 
States Government, this Committee can help dispel the myth that anti-
Semitism is a consequence of Israeli or American policies, that anti-
Semitism is somehow an outgrowth of newer strains of intolerance, or 
that combating anti-Semitism need not be a priority for nations seeking 
to emulate the progress of Western nations.
    Fittingly, it is such newly democratic nations that have stepped to 
the forefront in this cooperative effort. Among the post-Soviet states, 
Latvia, Lithuania, Russia, Azerbaijan, Ukraine, Georgia and others 
demonstrated their early support. Bulgaria, Poland and Romania, 
reemerging from decades of Soviet domination, have also led the way 
with the United States, Germany, and a few other Western nations. Some 
of these post-Communist societies still harbor endemic anti-Semitism, 
but they are taking steps to confront and neutralize it, to educate the 
public and protect minorities from popular or politically motivated 
threats. Most still have a distance to travel along this path, but they 
realize the imperative. They also realize the necessity of 
transnational cooperation, and have supported the effort to open a new 
track of the historic Helsinki process, one devoted to combating anti-
Semitism.
    Last June, at the first-ever OSCE Conference on Anti-Semitism, 
governments began to share information, ideas and commitments for 
combating anti-Semitism at home and throughout the OSCE region, under 
the chairmanship of the Netherlands. They did so within a new framework 
that implicitly recognizes anti-Semitism as a distinct human rights 
concern and a real threat to regional stability. This historic step 
would have been impossible without strong support from Capitol Hill, 
including Senator Voinovich at a critical point, and in turn the 
commitment and talents of American diplomats including former Special 
Envoy for Holocaust Issues Randolph Bell, and Stephan Minikes, U.S. 
Ambassador to the OSCE. The leadership and presence of former New York 
Mayor Rudolph Giuliani set the tone for delegations from the other 54 
participating states.
    Concretizing this break with ``business as usual'' means providing 
an effective mandate through this winter's OSCE Ministerial Council, 
setting a high profile for next year's Berlin conference on anti-
Semitism, assigning a specific responsibility within the Office for 
Democratic Institutions and Human Rights (ODIHR), and ongoing 
consultation and oversight among participating States. It is vital to 
begin collecting information and proposals from all 55 OSCE 
participating states now, so that data on anti-Semitic hate crimes, 
constructive legislation and education and media initiatives can be 
assembled in time for next spring's conference in Berlin. It is vital 
that the United States sustain this momentum with high-level 
representation at the Maastricht Ministerial in December, and by giving 
all possible support to the new and well-qualified Special Envoy, 
Ambassador-Designate Edward O'Donnell.

                          FORMER SOVIET UNION

    Government response to anti-Semitism in the successor states has 
been improving during the past few years. Several countries with a long 
history of anti-Semitism have undertaken efforts to implement laws 
against incitement, to speak out against anti-Semitism, and to promote 
research and education regarding Jewish heritage, the Holocaust, and 
tolerance.
    While official or state anti-Semitism has been relegated to the 
past, political anti-Semitism by individual parliamentarians and local 
officials persists. Even leaders who speak out strongly against anti-
Semitic rhetoric or activities often avoid repudiating anti-Semitic 
speeches by political allies and challengers. We hold the leaders 
responsible, not for the sentiments of their constituents but for their 
commitment to impacting those sentiments. To be truly free societies, 
whether in France or Russia, anti-Semitism cannot be considered a risk-
free political device. There must be consequences, be they legal, 
political, or social.
    In past elections in Russia and Ukraine, media and politicians have 
been tempted to resort to anti-Semitic appeals. As both countries 
prepare to enter a new cycle of national elections, we look to the 
leadership of these countries, their parliaments and political parties 
to act responsibly and to strongly denounce any appeals to anti-
Semitism. Delaying a response until after the election only reinforces 
the impression that anti-Semitism is a safe campaign tactic.
    Even in countries like Ukraine, where public anti-Semitism is rare 
and the state has supported the Jewish community revival and prosecutes 
perpetrators of anti-Semitic violence, officials still tend to classify 
such crimes as ``hooliganism'' rather than anti-Semitism.
    Belarus has a mixed record, reflecting the need for more 
involvement by the national government in encouraging regional and 
local authorities to address issues of vandalism, cemetery desecration, 
and construction over Jewish graves: at Grodno and Mozer, where new 
construction is unearthing Jewish remains as I speak; at the Yama 
memorial in the Minsk ghetto, where vandals defaced prominent memorial 
sculptures and plaques; at the Kuropaty gravesite, where then-President 
Clinton dedicated a memorial bench that has since been damaged twice; 
at Gomel, where Jewish remains are being unearthed to make room for new 
Christian burials. These difficulties are only compounded by a sweeping 
new religion law, which enshrines the Orthodox Church as the pre-
eminent faith.
    Dr. Yevgeny Satanovsky, President of the Russian Jewish Congress, 
recently complained that anti-Semitic media and extremists from Western 
Europe are inspiring a new wave of anti-Semitism in his country. Russia 
certainly has its own indigenous forms of anti-Semitism, but Western 
European nations must recognize that anti-Semitism is a cross-border 
phenomenon, particularly as the European Union consolidates and 
expands. And Western neglect and excuses for popular anti-Semitism send 
a dangerous signal to the East that anti-Semitism is acceptable in 
modern society. Fortunately, U.S. leadership and post-Communist 
vigilance are beginning to challenge the complacency and remind 
governments of their obligations to their citizens and neighbors.
    What positive example can Western Europe offer to its eastern 
neighbors? Surely, many cultural and political accomplishments come to 
mind. Yet, when it comes to sensitivity on minority issues, sadly, 
Western Europe has taken too much for granted. Thus it is not 
surprising that Russians can defend restrictions on minority faiths by 
pointing to comparable practices in France, Belgium, and Germany. Nor 
is it surprising when successor states defend votes in favor of anti-
Israel and seemingly anti-Semitic United Nations resolutions by 
claiming to follow ``the Western European example.''
    Mr. Chairman, when I testified before a similar hearing of this 
Subcommittee in April 2000, I quoted former Czech President Vaclav 
Havel, who has written: ``The time of hard, everyday work has come, a 
time in which conflicting interests have surfaced, a time for sobering 
up, a time when all of us--and especially those in politics--must make 
it very clear what we stand for.'' Havel and I were both referring to 
the so-called ``new'' democracies of Central and Eastern Europe, but 
events of the past two years necessitate a broader reading.
    We do not judge post-Communist governments by what they found among 
the shards of Soviet tyranny, we judge them by their commitment to 
moving forward. We hold them accountable for efforts to condition 
public attitudes through education and public statements, and we 
challenge them to enact and enforce laws to protect minorities and 
others. How can we afford to hold Western governments to a lower 
standard?
    At a March 2002 conference in Bucharest, organized by the American 
Jewish Committee, Latvian Jewish leader Gregory Krupnikov remarked, 
``There is no state anti-Semitism. Obviously there is some level of 
public `street' anti-Semitism, although it does not differ from the 
degree of anti-Semitism that typically exists in Europe.'' Fortunately, 
Latvia has not experienced ``the degree of anti-Semitism'' prevailing 
in Western Europe during the many months since the Bucharest 
conference. Latvia, so long under the yoke of Soviet occupation and the 
site of the worst kinds of atrocities during the Holocaust, was among 
the few courageous nations in Durban to vocally denounce the anti-
Zionist and anti-Jewish draft platform of the 2001 World Conference 
Against Racism. However, we are disappointed that wartime pro-Nazi 
military units are still being honored with monuments and marches, 
including the recent dedication of a new memorial at the Lestene 
cemetery with the participation of government officials.
    In the former Soviet republics, we need to continue supporting 
programs that foster tolerance and understanding, public campaigns to 
lift the cloak of legitimacy from those resorting to anti-Semitism, 
official condemnations of actions or statements that diminish the 
humanity of any individual or group, and legal and institutional 
commitment to this cause.
    According to the latest report by the Federation of Jewish 
Communities of the CIS and Baltic States, anti-Semitism is an ongoing 
trend to which the authorities are responding with increasing 
consistency. In Bryansk, Russia, where the municipality hired security 
guards for a Jewish school, they proved ineffective in stopping anti-
Semitic vandalism and the community has retained private security. In 
Novgorod, a newspaper editor is now under investigation for inciting 
national discord during last year's mayoral election. In Volgograd, the 
regional administration sponsors a newspaper that regularly publishes 
anti-Semitic articles. In Estonia, a local court convicted a woman for 
selling a newspaper published by the banned Russian National Unity 
movement.
    Behind these results lie decades of hard work by this Committee and 
many U.S. Government bodies, and by non-governmental organizations and 
their counterparts in the former Soviet Union. This work is far from 
complete, and we must not allow the latest Western European eruption of 
anti-Semitism to make us forget about the very real and ongoing 
societal undercurrent of anti-Semitism which persists, especially in 
Russia, Ukraine, Belarus, and Moldova.
    Having already addressed the mechanism for regional cooperation in 
fighting anti-Semitism, I would like to list the key lessons we have 
learned in the former Soviet Union:

  <bullet> The need to monitor incidents and attitudes, practices and 
        policies, in the successor states has never been so obvious in 
        light of the alarming developments to their west. Monitoring 
        empowers local activists, it compels our diplomats to become 
        experts and advocates in this area, and it reminds foreign 
        governments and societies that these issues are integral to the 
        Western culture they seek to emulate. Sharing this data on a 
        regional level promotes additional awareness and coordination.

  <bullet> Legislation to counter extremism and racial violence is also 
        gaining support in the region, as evidenced by the new Russian 
        law. At the same time, unfortunately laws that set up two 
        classes of religion--traditional and non-traditional--or 
        abdicate decision-making authority to local officials give 
        further credence to the notion that the state can decide which 
        religious groups are legitimate and which are not.

  <bullet> Without enforcement of laws on the national and local 
        levels, obviously, no legislation can have an impact. This 
        requires active supervision by senior officials, as well as 
        training programs for police, government workers and community 
        leaders in tolerance and in combating hate crimes.

  <bullet> Without an effective court system, either violators go free 
        or public opinion doubts the fairness of their sentencing. This 
        may be the most neglected facet of efforts to reduce outbreaks 
        of anti-Semitism and xenophobia, and to transform post-Soviet 
        societies. If judges cannot become role models, their 
        statements and decisions ultimately have little impact.

  <bullet> Public education efforts are gaining momentum, particularly 
        in the Baltic states, which are teaching their children the 
        lessons of the Holocaust, and the United States would do well 
        to redouble support for such efforts. To be truly successful 
        and far-reaching, these efforts must be undertaken at the 
        earliest possible age, but should also encompass opportunities 
        for adult learning.

  <bullet> The ``bully pulpit'' is not only available to presidents. 
        Public statements by government leaders at every level are 
        indispensable to motivating society, bureaucracies, and 
        legislators. Official condemnation of anti-Semitism and calls 
        for greater protection of minorities help shape public 
        attitudes and reduce ambiguity.

  <bullet> Religious leaders must also take responsibility. The 
        Lithuanian Catholic Church condemned anti-Semitism three years 
        ago at a bishops' conference, and expressed regret that during 
        the German occupation ``a portion of the faithful failed to 
        demonstrate charity to the persecuted Jews, did not grasp any 
        opportunity to defend them, and lacked the determination to 
        influence those who aided the Nazis.'' Together with Jewish 
        Women International and Russian-based partners, NCSJ recently 
        concluded a State Department grant to promote tolerance within 
        religious communities in two Russian cities.

                              U.S. POLICY

    In large part due to Congressional initiative, the U.S. Government 
has multiple channels for addressing anti-Semitism overseas. Among 
these are the U.S. Commission on Security and Cooperation in Europe, or 
Helsinki Commission, which is headquartered in the U.S. Congress; the 
U.S. Commission for International Religious Freedom, the Office of 
International Religious Freedom, and the Ambassador at Large; the U.S. 
Government Roundtable on Religious Freedom; the Special Envoy for 
Holocaust Issues; and annual reviews such as the State Department's 
Country Reports on Human Rights Practices and on Religious Freedom.
    The involvement of the non-governmental community in each of these 
processes is a cornerstone of their authority and their success, and 
NCSJ has participated within and alongside the official U.S. 
delegations to numerous international fora during the past 30 years, 
most recently in Vienna at the June 2003 OSCE Conference on Anti-
Semitism and just last week in Warsaw at the OSCE Human Dimension 
Implementation Meeting. (I would ask to include NCSJ's Warsaw statement 
in the record of this hearing.)
    Beyond bolstering frameworks like the OSCE, there is much that we 
as a nation must do to fill them with substance and content. Some 
programs and laws that have succeeded at home may be applicable to 
situations in Western and Eastern Europe. These include the well-known 
initiatives by the Anti-Defamation League, the American Jewish 
Committee, and other members of the NCSJ umbrella. At the same time, we 
can identify programs that have worked in Europe and consider how to 
adapt them to an American context.
    We must work with the local communities in the successor states and 
elsewhere, to tailor our approach as much as to empower emerging 
leaders on the ground. Close contact and cooperation with local 
activists reinforces their role in society and enhances the legitimacy 
of citizen-based advocacy.
    Without a doubt, the United States must commit more human and 
financial resources to initiating, aiding and propagating effective 
tolerance and enforcement mechanisms overseas. With the spread of 
freedom and return of national sovereignty to Eastern and Central 
Europe, we are seeing a long-awaited readiness to take real steps in 
combating anti-Semitism and the myriad other forms of xenophobia it has 
engendered and legitimized. We are also seeing a grudging and growing 
recognition in the West of its own problems and obligations.
    The responsibility of the United States, as a nation steeped in its 
own history of intolerance, must be to motivate. But we must also be 
willing to bear some of the cost of realizing this investment in 
humanity. Whether through direct funding, non-governmental grants or 
government-to-government partnerships, the United States must follow 
through. Representing an umbrella of national organizations and local 
communities, NCSJ urges the Senate to support full or increased funding 
for the overseas programs that are fulfilling the unprecedented 
potential for tolerance and pluralism in Europe. If some of these 
nations continue to lag in their democratic progress, the response 
should be to increase rather than reduce assistance to non-governmental 
and citizen groups. Rather than reducing American-funded broadcasts to 
Central and Eastern Europe, these should be broadened and infused with 
even greater attention to pluralism and minority issues.
    Mr. Chairman, NCSJ and a host of organizations--here and abroad--
know of the Senate's commitment and effectiveness on this issue. Thank 
you again for this opportunity, and for the continued leadership that 
you and your colleagues have shown.

    [Attachment].

NCSJ: ADVOCATES ON BEHALF OF JEWS IN RUSSIA, UKRAINE, THE BALTIC STATES 
                               & EURASIA

Statement to the 2003 OSCE Implementation Meeting, Working Session 12: 
      ``Prevention of Discrimination, Racism, Xenophobia and Anti-
                  Semitism''--Warsaw, October 14, 2003

     DELIVERED BY SHAI FRANKLIN, DIRECTOR OF GOVERNMENTAL RELATIONS

    Distinguished Moderator and Delegates,
    I would first commend to your attention the concise recommendations 
assembled by a coalition of non-governmental organizations, including 
NCSJ, and to express appreciation for the dedicated work of the 
American delegation, headed by Ambassadors Pamela Hyde Smith and 
Stephan Minikes.
    As the representative of an organization relating to issues in the 
Baltics and the Soviet successor states, which has worked within the 
Helsinki process since its inception, I also wish to highlight the 
constructive leadership of parliamentarians including our own Members 
of Congress who are attending today, who have worked with Dr. Gert 
Weisskirchen to forge a multilateral coalition of legislators from 
across the OSCE region. Dr. Weisskirchen's colleague, German Delegate 
Claudia Roth, first proposed a 2004 Berlin conference on anti-Semitism 
this past June and is here again with the same passionate call; I urge 
any delegations that have yet to endorse the 2004 conference to do so 
today.
    As an umbrella organization that includes nearly 50 national 
American Jewish organizations and 300 local community groups, including 
a number of those participating here, NCSJ would like to associate 
itself with the interventions of those partner organizations.
    Last June, at the first-ever OSCE Conference on Anti-Semitism, 
governments began to share information, ideas and commitments for 
combating anti-Semitism at home and throughout the OSCE region, under 
the chairmanship of the Netherlands. They did so within a new framework 
that implicitly recognizes anti-Semitism as a distinct human rights 
concern and a real threat to regional stability.
    Of the series of worthy recommendations, with which you are all 
probably familiar, I wish to highlight just a few: Training of law 
enforcement, education of youth and the public, and meetings of experts 
on these and other topics--opportunities that occur outside this and 
other chambers, in between the periodic assemblies. These are just a 
few of the many examples.
    Notably, in advocating for a separate OSCE focus on anti-Semitism, 
nations once under Communist control are among the leaders: Latvia, 
Russia, Azerbaijan, Georgia, Ukraine, and others. These so-called 
``new'' societies do take seriously both the threat of anti-Semitism 
and the necessity of coordinating a transnational strategy through the 
OSCE. This was evident a few minutes ago during the side event focusing 
on post-Soviet responses.
    By enunciating the OSCE's substantive commitment, Europe and North 
America are breaking with a collective past that began with anti-
Semitism, propagated an abundance of hatreds and phobias, and retains 
the disguise of latent neglect and a cloak of ``cultural context''.
    To become the truly free society that the Helsinki process promised 
we should be, all participating States must assume responsibility for 
the safety and acceptance of all faiths and ethnicities. Sixty years 
since the Holocaust, Europeans and North Americans are finally breaking 
unequivocally with the past--not by commemorating it, by repudiating 
it, or by forgetting it, but by applying its lessons to ongoing 
manifestations of anti-Semitism.
    Concretizing this break with ``business as usual'' means providing 
an effective mandate through this winter's Ministerial Council, setting 
a high profile for next year's Berlin conference on anti-Semitism, 
assigning a specific responsibility within ODIHR, and ongoing 
consultation and oversight among participating States.
    Without directly and distinctly addressing contemporary anti-
Semitism, we cannot say we are better than our predecessors, nor can we 
ensure lasting protection from newer forms of prejudice and hatred. 
Nations that were not free 15 years ago already appreciate this 
imperative, and they have reiterated it here.
    The specific recommendations for governments and society are well 
documented in the report from Vienna. The recommendations for the next 
steps in the OSCE process are summarized in the NGO statement which I 
referenced. What the delegates here today can contribute to this 
process, beyond your own recommendations and initiatives, is to prepare 
the ground for Berlin, to work with your governments on clear and 
strong language in the 2003 Ministerial Declaration, and to create an 
oversight and coordination function within ODIHR.
    Thank you very much.

    Senator Allen. Thank you, Mr. Levin.
    I'm not sure when the other Senators will get back, but let 
me start with the questioning.
    You all shortened your remarks, and it's good testimony and 
recommendations and appendices that you've all presented. All 
have commented, one way or the other, that some countries, 
whether it's France or others, have actually put in stronger 
laws for anti-Semitic or hateful acts or religious bigotry 
actions, not verbiage, but for actions--and they seem to be, I 
suppose, relatively new laws, which ought to be commended. Can 
you determine how they're being prosecuted, do you see a trend?
    First of all, passing a law is very important. That's 
absolutely essential. Then there is the enforcement, the 
prosecution, and what sort of sentences are handed down or 
meted out to those who are found guilty of these specific 
crimes. Is it too early, or can any of you share with us how 
you feel that those laws are being enforced and carried out?
    Yes, sir, Mr. Foxman.
    Mr. Foxman. There are also laws on the books of Europe on 
verbiage, by the way, because they do not have the 
constitutional first amendment, as we do, and there are certain 
expressions, in terms of Naziism and Holocaust denial, which 
are punishable by expression. And, in fact, we had a conflict-
of-laws problem with our Internet. You cannot buy ``Mein 
Kampf'' in Germany or Austria, but you can buy it by Internet. 
And so there are delicate issues that need to be resolved with 
respecting our constitutional provisions and their legal 
provisions.
    The question you ask is a very good one, and it does not 
lend itself to a general trend analysis, because the laws are 
on the books. Whether there is a will to implement them, act 
against them, depends on the political atmosphere, depends on 
the party in power, depends on the pressure from America, 
depends on all kinds of other factors.
    Take France, for example. France has all the laws needed to 
fight anti-Semitism, and yet during the period of 2000, 2001, 
and 2002, they didn't do very much--there were over 400 
incidents of violent anti-Semitism--because nobody issued the 
orders, nobody indicated that it's significant, et cetera.
    After the election, however, all of a sudden there is 
implementation, and there are arrests, there are statements 
from Chirac down to the Minister of Interior to the police 
chiefs, et cetera, that this is a crime in France and that it 
will be prosecuted.
    And so there are cycles out there. In Russia, for example--
and Mark can be more specific--the statements are good, the 
laws have been finally enacted, and President Putin speaks out 
very frequently, and yet the order hasn't gone down to arrest, 
to prosecute, and then you take a look, sometimes when they do, 
what the sentences are.
    So it's a question of political will. It's no longer a 
question--same question that you asked earlier about Holocaust 
education. The list that you're going to get is many countries, 
and what Mr. Harris said is, ironically and interestingly, 
there is so much more activity in the former Soviet Union, in 
the Bulgarias, and the Hungarys, Romania. Now we'll probably go 
in excess to teach, or at least proclaim that it's teaching, 
the Holocaust.
    So it's not a question of the laws, it's not a question of 
the statements; it's the question, ``So you have the book. What 
are you doing with it?''
    Argentina, for example, has a textbook on the Holocaust. 
Well, so what? Sweden put together a conference which talked 
about the responsibility, the need, to teach the lessons of the 
past and the future. It's there. The material is there. I need 
to say, $25,000 for a country in a task force to deal with 
educating on the Holocaust in Europe is almost sadly laughable. 
And because they also don't have budgets for textbooks, they 
don't have budgets to teach their teachers how to teach, and 
they have another defense mechanism, if they want it, and that 
is, we don't--that all the education is done locally. So we 
have now engaged, as the committee has and the ADL has, we are 
offering services to teach prejudice reduction, to teach 
Holocaust education. We are offering services to teach law 
enforcement how to be sensitive to difference, more tolerant. 
Because law enforcement is what helped Hitler--you know, he 
broke--they broke down the system for him.
    So that by looking at the laws, Mr. Chairman, you don't 
have an answer. One needs to take a look at, ``So what do they 
do with them?'' How many arrests? How many, in fact--and this 
is why we're talking about monitoring. We talked last June, in 
this year, Vienna, about setting standards for monitoring. So 
one is to designate what is a anti-Semitic act, and then what 
can be done and should be done.
    So we need some standardized criteria for them. And, again, 
we need to lead them, we need to urge them, we need to help 
them, and only then can we answer your question.
    Senator Allen. Well, the reason I asked the question is 
that it's good to have laws on the books, but then you have to 
enforce those laws. In some cases, what you're saying is that 
it vacillates or is uneven?
    On the education, I'm not going to tell folks in other 
countries how to run their school systems, anymore than I like 
the Federal Government telling us in Virginia what we ought to 
do. However, a good way of determining whether or not it is 
just a book on a library shelf or a book that, ``Here, your 
students can read this if you so desire,'' is to determine if 
they have accountability. Is there testing, is this one of the 
subjects that students will be tested upon, just like the 
reading and writing and spelling of the Polish, French or the 
Danish languages. I mean, if that's part of it, like 
mathematics and so forth, then you recognize that they are 
serious about it. Otherwise, it's a mere suggestion. But if 
it's a requirement, a standard that is tested----
    Yes, Mr. Harris.
    Mr. Harris. Mr. Chairman, I wonder if I could make two 
comments----
    Senator Allen. Sure.
    Mr. Harris [continuing]. In response to what you've just 
said.
    On the issue of education, I agree completely on its 
importance, but I don't think we should underestimate the 
challenges faced in countries like France. I made reference to 
this in my testimony moments ago. There are some schools in 
France that cannot follow the national curriculum. And in 
France there has been a national curriculum since the 
Napoleonic days. The teachers cannot teach the segments on the 
Dreyfus case, they cannot teach the mandated segments on the 
Holocaust, because the students are resisting it, challenging 
the teachers, and not permitting them to teach as the 
curriculum requires because of the highly charged atmosphere. 
Mostly, this involves students from North Africa. This has been 
amply documented. To his credit, the Minister of Education in 
France is trying to grapple with this issue. The curriculum 
itself is fine in France. That's not the problem.
    And the second issue is to followup on what was said by my 
colleague a moment ago on political will.
    Let me take you, just for one moment, into a room where we 
met with the Foreign Minister of France in November 2001. He 
was joined by the then Foreign Minister of Italy and the 
Director General of the Spanish Foreign Ministry. The three of 
them sat there with a delegation from the American Jewish 
Committee in New York, and we raised the very same concerns 
we're raising here, Mr. Chairman, regarding the vulnerability 
of Jewish communities.
    His response to us was three-pronged, and I think this goes 
to the issue of political will. The issue was not the law; the 
issue was the will. His first response was denial. He became 
rather upset, and he challenged us. ``After all,'' said he, ``I 
know my country better than you do. There is no problem of 
anti-Semitism.''
    We pointed to the documented attacks, we pointed to 
statements by Jewish leaders. He went to the second level of 
response, which was obfuscation. He admitted the fact that 
there were attacks, but he said they were in the context of a 
rising crime rate in France and growing insecurity for all 
French. Well, indeed, there is a growing crime rate in France, 
but the specificity of attacks against synagogues or Jewish 
children en route to a Jewish school is not part of a general 
crime problem; these are hate crimes.
    And then he moved to a third level of response, which I 
would call rationalization. He admitted there was a problem 
finally, after a long discussion, but he said, ``You know, it's 
linked to the Middle East, and you have to understand, these 
young teenagers from North Africa, who are rather poor, whose 
parents are often unemployed, watch Al Jazeera, see the 
oppression by the Israelis of Palestinians, get angry, go out 
in the streets, and take it out on the surrogates for Israel,'' 
meaning Jews.
    And what he said was, ``The answer to this is to find the 
solution to the Middle East problem.'' Is that the answer you 
would expect from a country that gave birth to the Declaration 
of the Rights of Man in 1791? Is that the response we expect?
    So the laws are there. The educational curriculum is there. 
The real challenge is the political will.
    Senator Allen. Mr. Levin.
    Mr. Levin. Mr. Chairman, in the former Soviet Union, it's a 
combination of developing the will, developing the laws, 
developing the educational institutions. We have to remember 
that we're dealing with a region that more or less has been 
open or free for a little more than a decade. And to have 
leaders speak out and address these issues in a forthright way 
is important, to have laws developed is important, to have 
those laws implemented becomes even more important, but we have 
to remember we're dealing with countries whose institutions--
the institutions, whether they be legal, educational, medical, 
cultural, were perverted for over seven decades. So they're 
starting from the beginning, and in the beginning it is 
important to have leaders speak out, it is important to develop 
laws and, again, to have those laws implemented.
    But let me give you two quick examples of what's happened 
in the region. Over the last several months, in Belarus, in a 
town called Grodno, there has been an ongoing effort to re-bury 
Jewish remains that have been dug up during the renovation of a 
soccer stadium. Unfortunately, in the 1950s and 1960s, a soccer 
stadium was constructed on top of a Jewish cemetery in the 
middle of this city. A year ago or so, there was an attempt to 
begin a renovation that would bring the stadium up to European 
stadiums so Belarus could host European and international 
soccer competitions. Well, during this process, not hundreds, 
but thousands of remains were discovered. And rather than 
taking the time to re-bury them or store them until the 
appropriate religious leaders could take over, they threw them 
aside. Some were dumped in a warehouse, some were just left on 
the streets surrounding the stadium. We began a process, 
working with the local Jewish community, to try to get local 
authorities to be more sensitive, to be more concerned about 
what was going on. It proved to be futile for many months.
    We have tried to engage the national government, which 
actually was somewhat responsive, and they did begin a dialog 
with the local officials. It wasn't until a few weeks ago that 
the local authorities began to address this issue forthrightly. 
And the only reason they began to address the issue is because 
a group of American Jews demonstrated in front of the Belarus 
mission in New York, a group of three or four hundred people, 
who promised that if the issue wasn't addressed, there would be 
thousands the next week or the next month.
    And with our support the Governor of the region is now 
willing to have all the remains collected and re-buried, and to 
look at developing an appropriate memorial at the site of the 
soccer stadium.
    The reason I mention it is because, up until this point, 
the level of what I would call anti-Semitic rhetoric was very 
high in this town of Grodno, directed not just at local Jewish 
leaders but at national and international Jewish leaders, that 
this was part of a Zionist conspiracy to embarrass these local 
officials.
    The second example, and I'll make it very brief, is the 
fact that the President of the Russian Federation, as Mr. 
Foxman has said, has spoken out numerous times now, when there 
have been anti-Semitic incidents in his country. The hope is 
that he will begin to direct his law-enforcement officials to 
go after these individuals who have engaged in these types of 
crimes. The record in Russia is not a good one right now, but I 
think a lot has to do with understanding, with education, 
education of the law-enforcement officials, both the police and 
the prosecutors.
    Senator Allen. I'm going to turn it over to Senator 
Voinovich, allow him to ask questions.
    In listening to your responses here on this and also in 
reading your testimony, the rationalization that you were 
talking about in France, the third level, after denial and 
obfuscation, was there's a lot of citizens from North Africa. I 
assume you're saying that that they are Muslim, from North 
Africa, former territories of France. And your testimony--``the 
major feature of European history,'' I assume you're talking 
about it in Russia, ``is anti-Semitism is often attributed to 
Muslim or Middle Eastern communities.''
    My question is this just an excuse of blaming people who 
have a different religion than the predominant religion in 
Russia or France or other countries? I assume you're saying 
there are Muslim students that they can't teach these courses 
to, or this curriculum to, in France. Mr. Harris, you brought 
that up.
    The other question--and I know this is very sensitive, but 
it's important for us to fully understand this--is this a 
rationalization or an excuse for them not to enforce the law? 
Are they trying to blame people who are of Islamic faith, for 
their failures to enforce the law or have a curriculum that 
applies to all the people of their country? Or enforce the law 
for all the people in the country, regardless of their 
religious belief, their ethnicity, or their race?
    Mr. Harris. I think there are as I said, Mr. Chairman, in 
my testimony, three principal sources of anti-Semitism that we 
have been watching carefully, all of us. One is the traditional 
extreme right anti-Semitism.
    Senator Allen. That's more of the neo-Nazi.
    Mr. Harris. Neo-Nazi and then its more recent incarnations, 
Jean-Marie Le Pen's National Front, which got nearly 20 percent 
of the votes in the first round of the French Presidential 
elections in the spring of 2002. And there are other similar 
parties.
    Senator Allen. Now, when you take Le Pen, Le Pen, Le Pen is 
very anti- as best as I understand and I'm not an expert on 
French politics--but is very anti-immigrant and anti-North 
African.
    Mr. Harris. The irony is that among groups that are 
otherwise deeply divided on issues, we tend to become the 
uniting force for them. So you have the extreme right and its 
traditional anti-Semitism, which also today, as you say, 
manifests itself in anti-immigrant, xenophobic forms. And you 
have the extreme left, for whom, there is a kind of mix of, 
increasingly, anti-Americanism, which I think we may need to 
take far more into account here in our calculations, together 
with anti-Zionism, which questions the right of the Jewish 
people to self-determination, and, if you will, anti-
globalization. And these three groups come together in various 
forms and often in what we would consider an anti-Semitic 
manner.
    And the third is the growing Muslim population in Europe. 
Let me be clear. We're not trying to paint everyone with a 
broad brush stroke. No one is accusing all Muslims, much less 
all of anyone, of anti-Semitism. But we'd be equally naive, I 
believe, to deny the fact that within the Muslim populations of 
Europe, there are those who have been infected, either through 
teaching of the mosques or the media, with the virus of anti-
Semitism.
    Is Europe trying to blame the Muslims? I don't believe so. 
I would say, to the contrary, Europe is afraid of further 
arousing restive Muslim populations that are already on the 
margins of society, and that, in some respects, show the 
symptoms of the inner-city pathology that we have known in this 
country, that is, the cycle of social problems. And so 
precisely because governments are afraid of arousing them 
further, I think they've backed off of it.
    When you add to that the European interest in North Africa 
and the Middle East--the political, diplomatic, economic, and 
energy interests--all the more reason why they're reluctant to 
take on this problem frontally, for fear of being labeled anti-
Muslim.
    Mr. Foxman. Mr. Chairman, it's everything that Mr. Harris, 
plus. And that is, when--the French say, it's not we. This is 
not France. France is not anti-Semitic. Nobody said France is 
anti-Semitic. We said, you know, there's anti-Semitism in 
France. But the response is a denial, it's not me. It's they. 
It's they. They do it. They're doing it. And you know why 
they're doing it? Not as Frenchmen. They're doing it because 
they're upset about what's going on in the Middle East. So, 
yes, it is denial. Yes, it saying they're not Frenchmen.
    And the irony of all of this is, if you log on today to the 
right-wing neo-Nazi Web sites in this country, you will find 
this bizarre--no longer bizarre to us, because we've seen it--
the right-wing extremists have now found a new poster boy. And 
the poster boy of the right-wing neo-Nazi hate groups in this 
country for this week is the Prime Minister of Malaysia. They 
are praising him.
    Now, we also know, look, on the other part of the Web site, 
they're anti-black, they're anti-brown, they're anti- OK? But 
for this moment, they're anti-Jewish, can say that they're 
anti-African-American, they're anti-Arab, they're anti-Muslim, 
et cetera, et cetera, et cetera. So that plays there.
    You know, from time to time, it's pure political 
expediency. Mr. Chirac and company, before election, were not 
willing--forget about the greater issue of enraging the Muslim 
world, which we now--is being explained why, you know, he was 
so nice to Mahathir, but it was votes. Ten percent of the 
population of France is votes. It backfired, because in the 
primary, Le Pen did well, because the people who are xenophobic 
hate the other, voted for Le Pen because they felt that Chirac 
and the ruling government was not dealing with the prime 
problem with issues of--with the other issues. And after the 
primary, the government began to change.
    So it plays all kinds of roles, whether it's politics, 
whether it's political expediency, whether it's history, 
whether it's culture, and whether it's the blame game, or to 
put it off. All of it comes together, tragically, primarily 
today in Europe.
    Mr. Levin. Mr. Chairman, a bit of good news, if I can. In 
the Central Asian countries, Jews and Muslims have been living 
together in some cases for thousands of years.
    Senator Allen. Central Asia?
    Mr. Levin. In the Central--in Uzbekistan, Kazakhstan, 
Kurdistan, Tajikistan, and in some of the Caucasus countries, 
as well. So, in fact, the leadership in the--the Jewish 
leadership in the Central Asian countries have held several 
meetings among--that included Jewish, Muslim, and Christian 
religious leaders.
    I was in Kazakhstan in late February with a number of other 
representatives of American Jewish organizations, and we 
participated in a conference that brought together the 
political and religious leadership of the Central Asian 
countries, and it belies the fact that for some, particularly 
who try to use it as a crutch, that Jews and Muslims can't live 
together and that the problems in the Middle East are the cause 
for everything that's happening throughout Europe and the rest 
of the world. In Russia and Ukraine, as Mr. Harris talked about 
in other parts of Europe, you know, we call it a Red-Brown 
Coalition that sometimes--that comes together, where the 
Communists and the ultra-nationalists have common cause. And 
usually it's centered around the Russian-Ukrainian Jewish 
citizens.
    Senator Allen. Thank you, gentlemen.
    Senator Voinovich.
    Senator Voinovich. Thank you very much. Thank you for 
coming today.
    What I'm interested in is institutionalizing a procedure so 
that we can move forward and make some progress, one that can 
be monitored and one that can bring in the best ideas. You've 
got specific problems--how do you deal with countries that have 
got more Muslims coming in? How do you--in terms of education--
how do you reach them? There are best practices. There are a 
lot of things that are out there. And the question I have is, 
how well do you think we're doing, in terms of this effort with 
the OSCE, to move forward and to institutionalize this effort 
to eliminate the cancer of anti-Semitism?
    Mr. Foxman. Well----
    Senator Voinovich. I mean, I was impressed with Mr. 
O'Donnell about what has happened. I just wonder, from your 
perspective, what do you think?
    Mr. Foxman. Well, I think it still needs work. I think 
we've--there's been a tremendous amount of progress. And, 
again, we've said it--I think all of us said it in our own 
ways--it wouldn't have happened if not for the leadership of 
the Secretary of State, your leadership, Senator, others, 
Senator Smith, others, who wherever they went raised the issue 
and said this is important, this is a cancer, this is a disease 
that needs to be addressed.
    Now, many of those who acquiesced, acquiesced thinking this 
is a one-shot deal, we'll do it, we'll get over it, and we'll 
move on, and don't bother us.
    Senator Voinovich. OK.
    Mr. Foxman. They're now learning that it's not. And so the 
next step forward was, well, let's do it with xenophobia, let's 
do it with Islama-phobia, let's do a potpourri, a smorgasbord 
of ``isms,'' and, you know, everybody will be happy.
    And I think they're also realizing today all of us are 
working out there. There are some European nations who 
understand that unfortunately this disease is 2,000 years old, 
unfortunately on the European Continent it destroyed six 
million in our lifetimes, forget about the 2,000 years before, 
and that, at the very least, it merits to focus on this disease 
until we get an antidote, what to do with it and about it.
    We, the American Jewish Committee, the ADL, and others of 
us, have used the September visitations to the General Assembly 
as an opportunity to do one-on-ones and three-on-ones with most 
of certainly the European nations. And with everyone, on our 
agenda was the second conference. And most of them have made 
commitments that they've lived up to and said that they will so 
instruct the Prime Ministers, the Prime Ministers will so 
instruct their Ambassadors. We'll see in December at the 
meeting. The Warsaw meeting indicated that there is a consensus 
moving forward, although there are some who are still opposed 
to it.
    So I don't think it's a done deal. And from that 
perspective, to set standards and to get monitoring, we're not 
there yet. We need to talk about it. That will be very 
difficult. But we're still in a phase of convincing them that 
there's a need, it's their need, not only our need, it's for 
their democracy, it is a canary in the coal mine of democracy, 
it is--if you want to measure civility in Europe, that's what 
it's all about. But we still need that--and they operate by 
consensus--that consensus and then the will. If we have that 
consensus and it happens again, we can then face the issues of 
standards, which will be difficult. What constitutes anti-
Semitism? What constitutes an act? Now, these are very serious 
questions which we'll have to grapple with.
    We haven't come to an agreement in this country, in terms 
of the monitoring. Federal monitoring is different than state 
and local. We do the monitoring, the ADL does the monitoring, 
but there's again different numbers because of our definitions, 
but at least we're on the same track. I think we--I think the 
question's very important, because we can't relax yet. And then 
we can hand it over to the professionals to try to determine 
standards, definitions, et cetera. But we still need to cross 
that hurdle that it's an accepted consensus that this is what 
it should be.
    Mr. Harris. Senator Voinovich, I would just like to add one 
suggestion, and that is that if the chairman would agree, at 
least in principle, that one year from today you schedule 
another hearing such as this on anti-Semitism in Europe, and 
let it be known early, because I can tell you that there was a 
great deal of interest in the fact that you were holding this 
hearing, that many European governments were very well aware of 
this hearing and chose to watch it very carefully. I think it's 
important that Europe and the world know that there will be an 
ongoing scrutiny of these issues by the U.S. Senate. So I would 
urge the continuation of this process in which we're engaged 
today.
    Senator Voinovich. Well, the real issue is--and, Mark, I 
apologize that I had to step out during your testimony, but 
what we've been trying to do is to try and make sure that we 
get your best input on what it is that we're going to 
accomplish in April at that meeting, and what are some concrete 
steps that can be taken. Can we institutionalize it, and get 
the OSCE involved in it? That involves staffing and 
monitoring--and come up with some practical things----
    Mr. Foxman. And funding.
    Senator Voinovich. And funding, exactly. I mean, he was 
just talking about the task force on education, and that 
$25,000 a country, that's not very much. Salt in the soup. But, 
anyhow--around here, at least--but all I'm saying is that I'm 
really interested in getting the best thoughts that can be 
used--work through the State Department, have them make the 
commitment, get them to the meeting, get down to--dot the i's, 
cross the t's, get this institutionalized, start the process of 
monitoring, develop strategies that deal with some of the 
specific problems that are out there in various countries, 
finding out best practices, as I mentioned before, from some 
other place. You know, I'd be interested in whether you think 
that makes sense or not.
    Mr. Levin. Senator, I think everything you said makes a 
great deal of sense, and much of what you suggested I think is 
in all three of our testimonies. I think, you know, a couple of 
concrete steps to take right away is to reiterate the 
importance that you attach to the OSCE process to our 
administration. We've been in the forefront, we have to remain 
in the forefront. It would be vitally important to have a 
strong congressional delegation participate in the Berlin 
meeting. Last week, a number of our organizations were in 
Warsaw attending the Human Dimensions meeting under the OSCE, 
and there was a congressional delegation. And the fact that 
three or four, maybe five, U.S. Members of Congress were there 
spoke volumes to their European counterparts.
    Mayor Giuliani, in Vienna, made a suggestion about tracking 
hate crimes as a first step. I think, as Mr. Foxman has said, 
it's tracking, it's education, it's doing all of this, and 
there's no reason it can't be done under the OSCE. It's one of 
the few umbrella organizations, that includes Western and 
Eastern European countries together, and we should take 
advantage of that.
    Senator Voinovich. And their sole purpose is to monitor 
human rights. I remember being in Moscow and sitting down with 
the head of the Duma there and talking about, several years 
ago, some anti-Semitic remarks being made by members of the 
Duma, and wondering what are they going to be doing about it? 
There's a lot of in-your-face, ``what are you guys doing?'' 
type of thing. So I think it's the organization to really get 
the job done and, frankly, might give it some more meaning.
    Mr. Harris. Senator Voinovich, the OSCE will do its job if 
there's the political will at the highest levels in member 
countries to ensure that it does its job. And if there is not 
the political will, or if the signals are mixed or weak, then I 
fear that the OSCE will become a relatively ineffective 
instrument.
    President Bush has himself expressed concern about growing 
anti-Semitism in Europe. It's important that at the level of 
the President and the Secretary of State, this conversation 
continue to take place with their European counterparts to 
ensure that there is instruction from the highest levels in the 
European capitals to continue this process, both within Europe 
and as a part of the transatlantic dialog.
    Senator Voinovich. Well, the thing that's neat about this 
is that some of these countries that you might think might be 
recalcitrant have also made some very strong statements, and 
they're making it very difficult for somebody to say, we don't 
want to participate in this, when Chirac has made certain 
statements and Germany has made certain statements, and other 
places. You know, they're onboard. The issue was, then, actions 
speak louder than words.
    And the other thought, and I don't know whether it makes 
sense or not, I'd be interested in, that meeting, patting some 
people on the back for some good things that they've done to 
address this issue.
    Mr. Foxman. Well, it goes to your best practices. I think 
what we should do together is find those best practices and 
find them in as many countries as we can, and appreciate them 
and reward them and show them off. Again, we have to be careful 
it's not, I mean, you know, ``we do.'' And there are some good 
things going on, which may need encouragement, which may need 
funding, which may need support. Absolutely. And, again, it's 
very preliminary, but maybe there should be a day that deals 
just with best practices where we reward, award, embrace, 
appreciate, you know, find ways of doing it, so there's an 
incentive, starting even now, that they know that in April 
Sweden can be, you know, praised for what they've done, or 
France for the Minister of Education. Absolutely, absolutely. 
One of the best Holocaust creative approach that has come up.
    Senator Voinovich. Well, I did that in my state. We had a 
Governor's challenge every 2 years dealing with racism in Ohio 
and dealing with good inter-human relations. And what we did 
was, we honored communities for what they had done. And that, 
in itself, was good. The others who were there got a chance to 
see what they were doing, and there was some feeling of, you 
know, this is the right thing to do, and get onboard.
    Mr. Foxman. Senator, we still honor righteous Christians 
from 60 years ago, because that's the best lesson, best 
message, that one can give, in terms of what people can do, 
even today, 60 years later. And I believe now we should do it 
with their children. We should honor their children so that 
they know what heroes of humanity their parents and 
grandparents were. So that--I don't know anything else that 
works better. I'm living proof that it works. I'm here.
    Mr. Levin. And, Senators, there's no reason why it can't be 
done in the U.S. Congress. Bring your counterparts to recognize 
what's been done.
    Senator Voinovich. Mr. Chairman, I think what might be 
really worthwhile is that maybe the organizations that are 
represented here today could come back with some ideas on how 
to make the meeting in Berlin the most worthwhile that it can 
be, to do some preliminary work and get it to our people that 
will be at the OSCE meeting in Maastricht--to maybe have a 
little background on it. And if you could share that with us, 
we could get a letter signed by the chairman and the members of 
the Foreign Relations Committee urging the administration to go 
forward and move on this, and let them know that we're behind 
it, and also indicate to them that if there's some resources 
that they're going to need to get the job done, that we're 
willing to even make that available to them so they can do the 
job they're supposed to be doing.
    Because, I'll tell you, I like the idea of coming back here 
a year from now, but if we don't really get into this and start 
to spend some time on it, it won't happen. It won't. It really 
won't. This is tough stuff. It is. And I'm hoping, Mr. 
Chairman, that the position that you and I and some others have 
taken on Iraq is going to help the situation. I think the fact 
that we show that we're interested in setting up a democracy in 
that part of the world.
    And I think the other thing that we need to do is to raise 
awareness to the stuff on television every night. If they say 
they're for the State of Israel, then they need to take action 
and get the anti-Semitism out of their children's textbooks and 
get the propaganda off television. I mean, these are 
significant signs that people mean business. And I think what 
it boils down to is, it's almost like a full-court press, it's 
like OSCE and then some efforts over here. But to have a 
regular plan in place to just keep staying on this and grind 
away at it every day and be persistent and be unrelenting. And 
I think if we do that, then I think we can be successful.
    What do you think?
    Senator Allen. I think they're good ideas. As we conclude 
this hearing, I have several observations. Yes, I think those 
are good ideas that I'll take under consideration.
    No. 1--and I'll close with four points--No. 1, the funding 
issue--granted, $25,000 is just not enough, but regardless, the 
point is, it's leadership. You did it as Governor of Ohio, I 
did it as Governor of the Commonwealth of Virginia in having 
the Holocaust as part of the curriculum. All of our history 
standards, science standards, and all that, we didn't wait 
around for the Federal Government to give us money, or the 
United Nations or some other country, we made it a priority. 
And most of these countries, particularly the Western European 
countries, can fund it themselves. In fact, most of the Central 
European countries can. It may be a different situation for 
Eastern European countries. Regardless, they don't need the 
United States to be funding their textbooks.
    Now, there are certain things that I do think are 
important, when you get the media into Eastern and Central 
Europe, and that is radio and TV, to make sure they are getting 
unbiased media, nformation and news. I think that's a value, 
just as Radio Marti is into Cuba to go into those countries, 
where the concept of individual rights, individual freedoms and 
religions rights have not taken root very long. They've been 
under either Communist dictatorships or monarchies, either way, 
not very satisfactory or enlightened forms of government.
    The OSCE, this is point No. 2--this is an organization that 
seems to be a logical, formal conduit that we ought to use. I'm 
not saying ``use'' in a bad sense, but utilize in such a way as 
to get these ideas, these measurements and these benchmarks 
achieved. That's something there is an agreement on, their 
participation.
    Third, that's the whole reason I held this hearing. And I 
know it's a controversial hearing on a controversial subject, 
and we didn't want to upset anyone, but it is important to 
shine the light on what is going on, examine it, recognize that 
we're concerned about it, look at best practices or ways of 
measuring improvement in those areas. I think that we ought to 
have ongoing scrutiny in this subcommittee and, indeed, the 
whole committee, if you wanted to make it worldwide. Our focus, 
of course, is Europe on this committee, and, obviously, it does 
get into a few other continents. Nonetheless, this will be an 
ongoing scrutiny that we'll have, I will say, as chairman of 
this subcommittee.
    Fourth, and this is where you see some of the optimism. You 
listen to these problems in some of these countries that are 
democracies, they're representative democracies, and it makes 
you appreciate this country, our foundation and values. I 
mentioned the Statute of Religious Freedom but, you know, it 
took a long time before our country was a perfect union. This 
is not a country without blemishes, insofar as our race 
relations, our treatment of people of different ethnicities, 
religions and certainly women. Women didn't have the right to 
vote until the last century. Same with African-Americans, until 
the mid 1860s, and then, even then, it wasn't until the 1960s 
that true civil rights and equality was afforded to people who 
are African-American.
    And so in this country, we are finally at that more perfect 
union, where there is a tolerance, there is a respect for 
people of different races or ethnicity or religion. We find 
people of the Jewish faith or Muslim faith getting along. 
They're neighbors. They might not agree on everything, but, 
nevertheless, there's not the hatred. You find people who are 
Pakistani and Indian getting along well here. And that's 
something that's really wonderful about this country and really 
something to celebrate. How we can be that shining light for 
the rest of the world is very important. This country is 
prosperous, free, there's opportunity, folks' rights are not 
enhanced, nor diminished on account of their religious beliefs. 
That's is, in itself, an empowering principle of our country.
    And so while we say we're the model, we need to be careful 
and respectful that it took us a long time to reach that 
perfect union and that true equal opportunity for all people in 
this country.
    Some of these nations have been breathing the sweet nectar 
of freedom for just 10 years, or a decade, and so we need to be 
helpful, be respectful, but also understand that we need to be 
firm that anti-Semitism, discrimination, hatred on the basis of 
someone's religion or ethnicity cannot be tolerated. But let's 
do it in a way that's sensitive and, therefore, effective in 
achieving our shared goals.
    And I thank all three of you gentlemen and my good 
colleague, Senator Voinovich, for your participation. We will 
fight on for freedom together.
    Thank you. And the committee meeting is adjourned.
    [Whereupon, at 5:05 p.m., the subcommittee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


                 Additional Submissions for the Record


               The Fight Against Anti-Semitism in France

                       1--THE SITUATION IN FRANCE

    The Jewish community in France is the second largest in the world 
after the United States, except for Israel.

French Public Opinion
    When President Chirac met with leaders of American Jewish 
organizations in New York on September 22, 2003, he said: ``France is 
not an anti-Semitic country. It [anti-Semitism] has never been in its 
culture and never will be.'' President Chirac recalled that he had 
acknowledged the responsibility of the French state during the Nazi 
occupation and added that it was important to remember the Resistance 
and the help that many French people had given to members of the Jewish 
community.
    Recent polls confirm that the French are not anti-Semitic: 80% of 
young people say they would have no problem living with a Jewish 
partner. 87% consider anti-Semitic acts disgraceful and believe there 
should be severe penalties (UEJF poll, 2000). As of April 2003, 85% of 
the French said they are sympathetic to the Jews, compared with 82% in 
2002 and 72% in February 1990 (CSA, Le Figaro, 2003).

Figures on Anti-Semitic Acts in France
    The first figures available for 2003 show a marked decrease in the 
number of anti-Semitic acts (172 anti-Semitic acts from January to 
August 2002, 72 for the corresponding period in 2003; 647 anti-Semitic 
threats from January to August 2002 against 247 for this period in 
2003--see attached report). These are encouraging figures which 
strengthen the determination of the French authorities in pursuing 
their policy of zero tolerance.
    French Interior Minister Nicolas Sarkozy was awarded the 2003 
Tolerance Prize of the Simon Wiesenthal Center for his work in 
combating anti-Semitism in France. ``Confronted with anti-Semitism and 
racism, I know only two words,'' said Sarkozy: ``Zero tolerance.'' 
``You don't explain anti-Semitism and racism,'' he said: ``You fight 
it.'' President Chirac fully supports zero tolerance.

                 2--STEPS TAKEN TO COMBAT ANTI-SEMITISM

    2.1 A Tougher Law. Parliament beefed up legislation against anti-
Semitism, passing a law on February 5, 2002 mandating tougher penalties 
for racist, anti-Semitic or xenophobic offences. The law, now in force, 
was adopted unanimously--proof that the people's representatives are 
united and determined in the face of a phenomenon that will not be 
tolerated. Whereas prior legislation penalized racist behavior when it 
was manifestly that, it is now possible to penalize individuals more 
severely for attacks or insults when the investigation shows that anti-
Semitism is the hidden reason for the offence.
    2.2 Robust Measures Adopted.

  <bullet> The French authorities are closely monitoring anti-Semitic 
        incidents in France so as to be able to respond immediately. In 
        liaison with organizations representing the Jewish community in 
        France, the authorities have refined the statistical counting 
        method of anti-Semitic incidents so that it is much more 
        precise than before;

  <bullet> A prevention/protection squad has been set up consisting of 
        13 units of mobile forces (1,200 CRS-riot police and mobile 
        gendarmes); these units have been deployed specifically to 
        protect synagogues, local associations and schools in 
        consultation with representatives of the Jewish community;

  <bullet> Law-enforcement response to anti-Semitic offences is very 
        strict: public prosecutors have been instructed to ensure that 
        there are no delays in prosecuting offenders. Whenever the 
        perpetrators of anti-Semitic offences have been identified and 
        convicted, the sentences have been quite harsh (immediate 
        imprisonment not suspended sentences, including for damage to 
        property).

    These firm measures, which reflect the government's determination, 
have largely contributed to the drop in the number of anti-Semitic 
offences.
    2.3. Lastly, the government has taken the fight against anti-
Semitism to schools. Let nothing pass without explanation and 
punishment is the maxim that sums up the principle of the approach to 
combating anti-Semitism in schools in France.
    On February 27, 2003, Education Minister Luc Ferry presented a ten-
point program of action to deal with the problem of anti-Semitism and 
racism in schools. It includes special teams in schools to identify and 
track incidents with the aid of mediators, tougher penalties, and 
handbooks for teachers. The minister explained, ``It's important to 
intervene at the slightest incident, even if it's verbal, and to let 
nothing pass without punishment and explanation.''

  <bullet> Help for teaching staff: teams have been set up in schools 
        to monitor for incidents;

  <bullet> Tougher penalties have been introduced for anti-Semitic or 
        racist comments. Immediately an offence is known, it is 
        reported to the judicial services and youth protection 
        services. School chancellors have been instructed to be 
        absolutely firm in such matters.

  <bullet> Education in tolerance: a ``Holocaust Memorial Day'' is now 
        observed in French schools for the remembrance of the Holocaust 
        and the prevention of crimes against humanity. France chose 
        January 27 for this day, the anniversary of the liberation of 
        Auschwitz. The initiative, a proposal by France, was adopted at 
        the colloquium of the International Action Group for the 
        Remembrance of the Shoah, currently chaired by the United 
        States, and the seminar of education ministers organized by the 
        Council of Europe in October 2002.

          3--TACKLING ANTI-SEMITISM AT THE INTERNATIONAL LEVEL

    3.1 To be effective, the fight against anti-Semitism has also to be 
addressed at the international level. France sent a delegation led by 
Robert Badinter, a distinguished French jurist and intellectual, to the 
special meeting of the OSCE on anti-Semitism in Vienna in June 2003 
which it fully supported and at which it took an active part. France is 
in favor of a follow-up conference. The French parliamentary delegation 
to the OSCE aligned itself last February, in Vienna, with the letter of 
intent on anti-Semitism, signed by Congressman Smith, (Republican, New 
Jersey) and German Parliamentarian Gert Weisskirchen (of the SPD 
party), to bolster efforts against anti-Semitism in OSCE member states.
    3.2. New forms of communication, especially the Internet, are 
wonderful for promoting human rights but at the same time they can be 
used for hateful expressions of racism and anti-Semitism in defiance of 
national or international legislation prohibiting such ``speech.''
    Since the suit against Yahoo in 2000, France has been working 
actively in several international bodies for a collective debate on 
anti-Semitism, racism and xenophobia on the Internet. The government 
raised the matter in the G8 bodies for example.
    France was instrumental in ensuring that the question of the 
Internet and anti-Semitism was placed on the agenda of the OSCE 
conference on anti-Semitism. In spite of misgivings by some 
delegations, the third session will be devoted to the role of the 
media, including new technologies and the Internet.
    As president of the G8, France proposed a discussion on ways to 
prevent the Internet from being used for anti-Semitic comments and 
incitement to racial hatred and violence, and the prosecution of 
offenders.
    France also took a key role in the negotiations in the Council of 
Europe on the Cybercrime Convention and additional protocol on racism 
and xenophobia. France made a point of being one of the first 
signatories of the convention and protocol.

       Anti-Semitism in France--Comparative Tables: 2002 and 2003


------------------------------------------------------------------------
                                            2002              2003
------------------------------------------------------------------------



January............................  3                  3
February...........................  2                  4
March..............................  32                 15
April..............................  118                23
May................................  12                 10
June...............................  8                  10
July...............................  3                  6
August.............................  0                  1
  Total:...........................  178                72

September..........................  4
October............................  2
November...........................  7
December...........................  2
  Total 2002:......................  193 acts
------------------------------------------------------------------------




------------------------------------------------------------------------
                                           2002                2003
------------------------------------------------------------------------



January..........................  33                    34
February.........................  26                    40
March............................  46                    56
April............................  448                   58
May..............................  47                    27
June.............................  26                    19
July.............................  15                    10
August...........................  6                     3
  Total:.........................  647                   247

September........................  18
October..........................  20
November.........................  27
December.........................  20
  Total 2002:....................  732 threats
------------------------------------------------------------------------

      United States Commission on International Religious Freedom

    On October 14, 2003, U.S. Commission on International Religious 
Freedom Vice Chair Felice D. Gaer addressed the special session on 
anti-Semitism at the Annual Human Dimension Implementation Meeting of 
the Organization for Security and Cooperation in Europe (OS CE) in 
Warsaw, Poland.
    Ms. Gaer stated that acts of anti-Semitism must be seen not as 
hooliganism, but as ``a form of human rights abuse that states should 
vigorously combat by implementing their worldwide human rights 
commitments.'' She called on the OSCE Ministerial Council, at its 
December 2003 meeting in Maastricht, Netherlands, to accept the German 
government's invitation to host a special meeting on anti-Semitism in 
Berlin in 2004. She also urged the OSCE to report regularly on the 
implementation of OSCE member states' commitments to combat anti-
Semitism. Ms. Gaer was participating with the U.S. delegation to the 
OSCE Human Dimension Implementation Meeting.
    The U.S. Commission on International Religious Freedom requests the 
following remarks be included in the ``Anti-Semitism in Europe'' 
hearing record for October 22, 2003.

      Statement by Felice D. Gaer, Vice Chair, U.S. Commission on 
                    International Religious Freedom

    I am speaking on behalf of the U.S. Commission on International 
Religious Freedom, which is an independent United States government 
agency that monitors conditions of freedom of thought, conscience, and 
religion around the globe. The Commission makes independent policy 
recommendations to the U.S. administration and the Congress on how to 
advance this fundamental right and all those related to it through U.S. 
foreign policy.
    We have emphasized a simple but extremely important point: that 
acts of anti-Semitism must be seen for what they are: they're not 
hooliganism; they are human rights abuses. They are a form of human 
rights abuse that states should vigorously combat by implementing their 
worldwide human rights commitments.
    Anti-Semitism is both a local and an international problem, 
requiring states to take concrete steps on both the domestic and 
international levels. Recognition of a resurgence of anti-Semitism 
throughout the OSCE is a good first step. The OSCE Conference on Anti-
Semitism last June provided a constructive venue to examine the problem 
and propose programs and practices to address it. We must move beyond 
recognition of the problem to concrete action within the OSCE to ensure 
that all participating states are living up to their commitments in 
this area, in particular to combat anti-Semitism, as contained in the 
1990 Copenhagen Document: These include adopting laws to protect 
against incitement to violence based on discrimination including anti-
Semitism, and providing the individual with effective remedies to 
initiate complaints against acts of discrimination.
    The German government invited states to a meeting on anti-Semitism 
in Berlin in 2004, and we urge the HDIM to recommend its acceptance 
and, in turn, urge the Ministerial meeting to endorse it.
    The history of anti-Semitism in the OSCE region has unfortunately 
been a distinctive one and its recent resurgence in the OSCE countries 
has followed its own course, as well. States that have had the most 
success in combating anti-Semitism have done so by taking measures 
specifically aimed at eradicating anti-Semitism, including some within 
the context of measures to combat discrimination, intolerance, 
xenophobia, etc. In other words, a separate track and separate 
attention is needed.
    Statistics, monitoring, reporting publicly and regularly about 
compliance and violations are essential to realize any serious human 
rights commitments.
    We emphasize the need for:

  <bullet> Assignment within OSCE, perhaps in the Office of Democratic 
        Institutions and Human Rights of the responsibility to monitor 
        and report regularly on anti-Semitic incidents and the 
        implementation of state's Copenhagen commitments.

  <bullet> Review of state compliance within the OSCE on a regular 
        basis.

  <bullet> Acceptance of the German invitation to host an OSCE meeting 
        on anti-Semitism in Berlin.

    The meeting in Berlin should be different than the first, and 
participating states and the ODHIR should ensure that the meeting moves 
us forward in evaluating the strategies, documentation, commitments, 
and implementation of the OSCE states with regard to the struggle 
against anti-Semitism.
    In terms of international cooperation on combating anti-Semitism, 
as with many human rights issues, the OSCE is a key venue through which 
to advance this. And the OSCE has a special obligation to exhibit 
vigorous leadership on this issue to show the rest of the international 
community that this is an important issue and that political will can 
make a real difference in combating anti-Semitism. We hope that kind of 
leadership will be emerging in other international and regional 
institutions. But we have been disappointed by their failure to address 
this topic seriously in their reporting and other human rights work. We 
earnestly hope OSCE will not continue in their direction. That is why 
the recommendations that emerge from this meeting are so vital and so 
closely monitored.
    In conclusion, we reiterate: anti-Semitism is not hooliganism, it's 
human rights abuse.

                                 ______
                                 

                                Ambassade de France
                                             aux Etats-Unis
                                                 October 23rd, 2003

    Dear Sir,

    Please find attached a few documents related to the European 
reaction to a statement delivered by Mr. Mahathir, Prime Minster of 
Malaysia:

          -- Statement of the European Presidency

          -- Letter sent by the French President to the Malaysian Prime 
        Minister

          -- Letter sent by the French President to Mr. Foxman 
        (Chairman of the Anti-Defamation League)

          -- Letter to the editor sent by the French Charge d'Affaires 
        in Tel Aviv to the Israeli newspaper ``Maariv.''

            Best regards,
                                         Jean-David Levitte
                                              L'Ambassadeur

                                 ______
                                 

    Mr. Prime Minister,

    The quality and long-standing nature of our relations have made it 
possible for us many times to exchange views about the international 
situation in all frankness.
    It is in this spirit that I believe it is my duty today to convey 
the thoughts elicited by your speech on October 16 at the opening of 
the Organization of the Islamic Conference.
    Your remarks on the role of Jews provoked very strong disapproval 
in France and around the world. Even though you and your government 
were careful to reject all accusations of anti-Semitism, these remarks 
can only be condemned by all those who remember the Holocaust.
    You are certainly aware of the statement by the Presidency of the 
European Union on October 17.
    I noted with interest moreover that your speech at Putrajaya 
included in particular condemnation of suicide attacks and clear and 
courageous thoughts for the world's Moslems and their leaders, comments 
that I can only approve.
    That is why the French authorities have appealed for reciprocal 
respect between the Organization of the Islamic Conference and the 
other faiths in accordance with the spirit of tolerance which is also 
Islam's.

            [Complimentary close]
                                             Jacques Chirac

                                 ______
                                 

                       President of the European Commission
                                         Brussels, December 8, 2003
The Honourable Robert Wexler
Ranking Minority Member
Subcommittee on Europe
Committee on International Relations
U.S. House of Representaeives
Washington, D.C. 20515
USA

    Dear Mr. Wexler,

    Thank you for your letter of 21 July regarding incidents of anti-
Semitism in Europe.
    I align myself fully with High Representative Solana's reply of 30 
July to your letter addressed to him. There is no complacency in Europe 
with regard to the scourge of racism in all its forms, including 
discrimination on the grounds of religion, be it Judaism, Islam or any 
other religion. We must never allow our vigilance in this respect to 
waver.
    The European Union's founding fathers undertook a brave and radical 
experiment to rescue this continent from the scourge of intolerance, 
nationalism and xenophobia. We are still building our European Union on 
shared values of tolerance and pluralism. Europe's history casts a long 
shadow, and it remains constantly within our field of vision. This is 
why we continue to place such emphasis on concrete measures to combat 
racism and intolerance.
    I will not repeat High Representative Solana's derailed inventory 
of actions undertaken by the European Union in this respect, nor his 
clarification regarding the work of the European Union Monitonng Centre 
on Racism and Xenophobia. Let me simply reaffirm the intention of the 
European Commission to work tirelessly with EU Member States to fight 
racism both within our own borders, and in the wider global context. 
The Anti-Defamation League's recent report on the rise of anti-Semitism 
in the United States \1\ shows that there is no room for complacency on 
either side of the Atlantic. We hope therefore that the European Union 
and the United States can work together to combat discrimination in all 
its forms wherever it occurs in the world.
---------------------------------------------------------------------------
    \1\ http://www.adl.org/presrele/asus_12/4243_12.asp
---------------------------------------------------------------------------
    Finally, let me again underline the importance of distinguishing 
between legitimate political expressions and criticisms of the policies 
of the government of Israel on the one hand, and anti-Semitism on the 
other. As High Representative Solana wrote in his letter to you, the 
European Union will not tolerate anti-Semitism, nor will it tolerate 
any insinuation that its policy towards the Middle East is driven by 
anti-Semitism.

            Yours sincerely,
                                               Romano Prodi
                                                  President

                                 ______
                                 

                                     European Union
                      Delegation of the European Commission
                                       Washington, 22 October, 2004

The Honorable George Allen
Chairman, Subcommittee on European Affairs
Committee on Foreign Relations
United States Senate
Washington, D.C. 20510

    Dear Mr. Chairman,

    I am writing to you to provide some material for the official 
record of your subcommittee's hearing on ``Anti-Semitism in Europe'' to 
be held on 22 October 2003. This is a serious subject which merits 
investigation leading to a better understanding in the United States of 
the European Union's position and policies in the area of over all 
human rights protection. I have attached copies of letters of the 
European Union's High Representative, Javier Solana, and the European 
Commission's President, Romano Prodi, who were each sent letters of 
inquiry on this same subject earlier this summer by four members of the 
House of Representatives, Messrs Wexler, Lantos and Ackerman and Ms. 
Ros Lehtinen. The correspondence outlines in some details about the 
European Union's role in the establishment of the concept of protecting 
the individual and preventing any form of discrimination based on 
ethnic, religious or national origins among other things for anyone 
living in the boundaries of the European Union. It also addresses some 
of the concerns I understand are of interest to you for the purposes of 
your hearing.
    I would note that when the founding members of the European 
Communities signed the Rome Treaty, there was no provision in that 
document regarding these types of rights, because all of the six 
founding countries had just signed the European Convention for the 
Protection of Human Rights and Fundamental Freedoms signed also in Rome 
on 4 November 1950. The two treaties were considered mutually 
compatible at the time and therefore there was no need to merge the two 
concepts.
    However, with the growth and development of the European Union 
during the 1980s and early 1990s it became apparent that additional 
rights of citizens of the EU needed to be explicitly delineated within 
the EU legal system. This required a modification of the Rome Treaty 
which began with the Treaty on European Union, signed in Maastricht 
(entered into force November 1, 1993), Article F.
    Subsequently the Treaty on European Union was amended by the 
Amsterdam Treaty (entered into force February 1999) whereby the prior 
Article F was changed to Article 6. This is currently in force.
``Article 6
    1. The Union is founded on the principles of liberty, democracy, 
respect for human rights and fundamental freedoms, and the rule of law, 
principles which are common to the Member States.
    2. The Union shall respect fundamental rights, as guaranteed by the 
European Convention for the Protection of Human Rights and Fundamental 
Freedoms signed in Rome on 4 November 1950 and as they result from the 
constitutional traditions common to the Member States, as general 
principles of Community law.
    3. The Union shall respect the national identities of its Member 
States.
    4. The Union shall provide itself with the means necessary to 
attain its objectives and carry through its policies.''

    The Treaty on European Community as amended and consolidated by 
Amsterdam also introduced Articles 12 and 13 and now reads:

``Article 12
    Within the scope of application of this Treaty, and without 
prejudice to any special provisions contained therein, any 
discrimination on grounds of nationality shall be prohibited. The 
Council, acting in accordance with the procedure referred to in Article 
251, may adopt rules designed to prohibit such discrimination.
``Article 13(*)
    1. Without prejudice to the other provisions of this Treaty and 
within the limits of the powers conferred by it upon the Community, the 
Council, acting unanimously on a proposal from the Commission and after 
consulting the European Parliament, may take appropriate action to 
combat discrimination based on sex, racial or ethnic origin, religion 
or belief, disability, age or sexual orientation.
    2. By way of derogation from paragraph 1, when the Council adopts 
Community incentive measures, excluding any harmonisation of the laws 
and regulations of the Member States, to support action taken by the 
Member States in order to contribute to the achievement of the 
objectives referred to in paragraph 1, it shall act in accordance with 
the procedure referred to in Article 251.''

    Member states of the European Union whether the historic founding 
members or the applicant countries must provide that their legal 
systems enforce these specific measures in the EU Treaties, just as 
they must enforce all other parts of the EU Treaties. Indeed, several 
of the applicant countries of Central and Eastern Europe had to amend 
their own constitutions in this area to remove any law that provided 
discriminatory practices in order to be successful candidates for EU 
membership. Membership in the European Union is far more than 
membership in a simple trading area. It has a substantial normative 
setting power that is advancing the principle of the protection of the 
individual by law and democratic institutions across the continent of 
Europe. This is an element of the EU which I find Americans often under 
estimate or don't quite fully appreciate.
    At this point in time I should point out that the standards of 
guarantees and protections of individuals and groups of citizens of the 
EU are established at the EU level, what in the US would be termed the 
``Federal Level.'' However, unlike the US, the responsibility for 
enforcement of the provisions in the EU falls to each of the member 
state governments and their judicial and law enforcement agencies. This 
is true of much of European Union policy such as custom controls and 
other EU regulations. Member States must adjust their internal legal 
structures to not conflict with EU law, but further they must adjust 
policing authorities to enforce EU laws. This is perhaps a different 
interpretation of Federalism from the US version where a Federal 
bureaucracy tends to enforce only the Federal Laws and State 
authorities look primarily at state law. In the EU, member state 
governments must enforce both sets of law.
    For the record, I have also attached a copy of the Charter of 
Fundamental Rights that will become an integral part of the European 
Convention, which will in the near future become the functioning 
equivalent of a constitution for the enlarged European Union of twenty-
five member states. Let me conclude by thanking you for the opportunity 
of providing these statements to your subcommittee for inclusion in the 
formal record of the hearing and let me also assure you that I fully 
agree with the sentiments rejecting anti-Semitism as strongly expressed 
in the letters from President Prodi and High Commissioner Solana.

            Sincerely,
                                       Dr. Gunter Burghardt
                                      Ambassador-Head of Delegation

                                 ______
                                 

                                             Brussels, 29 July 2003

Hon. Rep. Robert Wexier
Ranking Member
Subcommittee on Europe               Hon. Rep. Tom Lantos
                                    Ranking Member
                                    House International. Relations 
                                    Committee

Hon. Rep. Ileana Ros-Lehtinen
Chairwoman
Subcommittee on Middle East
& Central Asia                      Hon. Rep. Gary Ackerman
                                    Ranking member
                                    Subcommittee on Middle East
                                    & Central Asia

Honorable Members of Congress,

    Thank you for your letter to me of July 21 2003. Allow me to repeat 
my thanks to you for giving me the opportunity to attend the joint 
Europe and Middle East Subcommittee meeting on June 25 2003 in 
Washington. I value such contacts as an important contribution to 
transatlantic understanding, and I was pleased to be able to discuss 
with the Subcommittee the many areas of policy where the European Union 
and the United States are co-operating in an intense and productive 
fashion.
    In your letter you raise one specific point that came up during our 
very wide-ranging discussions, namely the issue of anti-Semitism in 
Europe. I will attempt to answer the points in the same spirit of co-
operation that you raise them.
    To begin with, allow me to recall what I have said repeatedly in 
public about the scourge of anti-Semitism. None of us must ever be 
complacent. Racism, in all its forms, is a poison that will be removed 
from our societies only with vigour and determination. The acts of 
anti-Semitism that have taken place in several parts of Europe are 
outrageous and simply cannot be tolerated, regardless of their source 
or motivation. This is the sincerely held view of all in the European 
political mainstream, as reflected in the conclusions of the Council of 
the European Union on 25-26 April 2002.
    You have criticised my reluctance to characterise these acts of 
anti-Semitism in Europe as constituting a ``wave of anti-Semitism'' and 
you refer to several reports to support your criticism. I do not wish 
to enter into a polemic about what statistical threshold must be 
breached before the word ``wave'' is correctly applied. However we 
characterise it, I do not for a moment deny that there has been a 
significant number of expressions of anti-Semitism in several parts of 
Europe, both violent and non-violent. The fact is that a single act of 
anti-Semitism is one act too many. European political leaders recognise 
this fact and have committed themselves by word and deed to addressing 
the problem.
    The European Union entirely agrees with your emphasis on treating 
anti-Semitism as a form of racism and racial discrimination. 
Consequently, anti-Semitism is an integral part of EU initiatives 
against racial discrimination. The European Union's Institutions have 
condemned intolerance, racism and xenophobia on numerous occasions. In 
1997--the European Year against Racism--we introduced Article 13 in the 
Treaty establishing the European Community, giving the Community new 
powers to combat discrimination on the grounds of racial or ethnic 
origin, religion or belief, age, disability and sexual orientation.
    The EU's commitment to combat discrimination was further underlined 
by the Charter of Fundamental Rights of the European Union, which was 
jointly proclaimed by the EU Institutions on 7 December 2000. Article 
21 of the Charter prohibits all discrimination based on any ground such 
as sex, race, colour, ethnic or social origin, genetic features, 
language, religion or belief, political or any other opinion, 
membership of a national minority, property, birth, disability, age or 
sexual orientation.
    In 2000 the EU Council adopted a package of measures on the basis 
of Article 13 of the EC Treaty. Council Directive 2000/43/EC prohibits 
any direct or indirect discrimination based on such grounds, notably in 
the fields of access to employment, access to vocational guidance and 
training, employment and working conditions, membership of 
organisations, social protection, social advantages, education and 
access to and supply of goods and services. The Directive applies to 
both the public and private sectors within the EU. A second Directive 
(Council Directive 2000/78/EC) establishes a general framework for 
combating discrimination on the grounds of religion or belief, 
disability, age or sexual orientation.
    Furthermore, in November 2000 the EU adopted an Action Programme to 
Combat Discrimination and support activities designed to promote 
measures to prevent and combat discrimination based on racial or ethnic 
origin, religion or belief, disability, age or sexual orientation. With 
a budget of EUR 14,15 million in 2001 this programme has funded a wide 
range of activities.
    The European Union is considering further measures in the fight 
against racism and xenophobia. The European Commission has presented a 
proposal for a framework decision with two main purposes: firstly to 
ensure that racism and xenophobia are punishable in all Member States 
by effective, proportionate and dissuasive criminal penalties, which 
can give rise to extradition and surrender, and secondly to improve and 
encourage judicial co-operation by removing potential obstacles. The 
proposed instrument provides that the same racist and xenophobic 
conducts would be punishable in all Member States, which would define a 
common EU criminal approach to this phenomenon.
    Great efforts are also being made to mainstream the fight against 
racism into all aspects of Community policies and actions, at all 
levels, as provided for by the 1998 Action Plan Against Racism. Areas 
concerned include, in particular, employment, the European Structural 
Funds, education, training and youth programmes, public procurement 
policy, research activities, external relations, information work and 
cultural and sports initiatives.
    Your letter refers to the European Monitoring Centre on Racism and 
Xenophobia. This Centre was established in 1997 with the express 
purpose of providing the Union and its Member States with objective, 
reliable and comparable information on the phenomena of racism, 
xenophobia and anti-Semitism in order to help them when they take 
measures or formulate courses of action within their respective spheres 
of competence. Since its inception the EUMC has treated anti-Semitism 
as a form of racism and racial discrimination, and, as such, anti-
Semitism has been included in the regular monitoring reports the EUMC 
receives from its national focal points and subsequently publishes in 
its annual reports.
    I understand that in the context of this work, the EUMC has 
continuously drawn attention to the lack of comparable data and 
definitions of anti-Semitism at the national level in the EU. To 
encourage the establishment of clear criteria for reporting racist 
acts, and thereby to improve monitoring at national level, is one of 
the EUMC's ongoing objectives. The EUMC has repeatedly stated that 
without such data collected at Member States' level it is difficult to 
draw conclusions about the extent, nature and trends associated with 
all forms of racism. I have been informed that the European Commission 
and the EUMC are both carrying out work related to improving data 
collection and data comparability, and I am sure that U.S. experience 
in this field will be taken into account in their deliberations.
    In your letter you refer to a draft report of the EUMC on anti-
Semitism. Having contacted the EUMC, I understand that its Management 
Board examines reports to determine their suitability for publication. 
I am told that the Board assesses reports on the basis of specific 
criteria associated with the relevant study and general quality 
standards. I have been informed that the draft report in question, as 
has been the case with a number of other reports, did not meet the 
criteria of consistency and quality of data. The decision was therefore 
taken to refrain from publishing a report at this moment, as it would 
neither contribute authoritative data, nor enhance the discussion on 
anti-Semitism or bring added value to the debate.
    I am pleased that you recognise that legitimate political 
expressions and criticisms of Israel cannot be equated with anti-
Semitism. The European Union will not tolerate anti-Semitism, but 
neither can it tolerate any insinuation that its policy towards the 
Middle East is driven by anti-Semitism. To criticise acts and policies 
simply cannot be equated with hatred for an entire people. We are 
neither anti-Israeli nor anti-Palestinian. We are pro-peace, pro-
security, pro-justice.
    I hope that I have assured you that the issue of anti-Semitism is 
of the utmost importance to the European Union, and that real efforts 
are being undertaken to address this scourge. I am sure that you will 
agree that all of us, on both sides of the Atlantic, must remain 
vigilant to combat racism and discrimination in all its forms.

            Yours sincerely,
                                                 ``signed''

                                              Javier SOLANA
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
